<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR 2002</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
                   LEGISLATIVE BRANCH APPROPRIATIONS
                                FOR 2002
=======================================================================O

                               HEARINGS 

                               BEFORE A

                         SUBCOMMITTEE OF THE

                      COMMITTEE ON APPROPRIATIONS

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION
                                 ______

                      SUBCOMMITTEE ON LEGISLATIVE

CHARLES H. TAYLOR, North Carolina, Chairman

ZACH WAMP, Tennessee            JAMES P. MORAN, Virginia
JERRY LEWIS, California         STENY H. HOYER, Maryland
RAY LaHOOD, Illinois            MARCY KAPTUR, Ohio
DON SHERWOOD, Pennsylvania

NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full Committee, 
and Mr. Obey, as Ranking Minority Member of the Full Committee, are 
authorized to sit as Members of all Subcommittees.

                Elizabeth C. Dawson, Staff Assistant
                                 ______

                                 PART 2

                  FISCAL YEAR 2002 LEGISLATIVE BRANCH

                         APPROPRIATION REQUESTS


                                 ______



        Printed for the use of the Committee on Appropriations

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE

75-248                      WASHINGTON : 2001


RALPH REGULA, Ohio                        DAVID R. OBEY, Wisconsin
JERRY LEWIS, California                   JOHN P. MURTHA, Pennsylvania
HAROLD ROGERS, Kentucky                   NORMAN D. DICKS, Washington
JOE SKEEN, New Mexico                     MARTIN OLAV SABO, Minnesota
FRANK R. WOLF, Virginia                   STENY H. HOYER, Maryland
TOM DeLAY, Texas                          ALAN B. MOLLOHAN, West Virginia
JIM KOLBE, Arizona                        MARCY KAPTUR, Ohio
SONNY CALLAHAN, Alabama                   NANCY PELOSI, California
JAMES T. WALSH, New York                  PETER J. VISCLOSKY, Indiana
CHARLES H. TAYLOR, North Carolina         NITA M. LOWEY, New York
DAVID L. HOBSON, Ohio                     JOSE E. SERRANO, New York
ERNEST J. ISTOOK, Jr., Oklahoma           ROSA L. DeLAURO, Connecticut
HENRY BONILLA, Texas                      JAMES P. MORAN, Virginia
JOE KNOLLENBERG, Michigan                 JOHN W. OLVER, Massachusetts
DAN MILLER, Florida                       ED PASTOR, Arizona
JACK KINGSTON, Georgia                    CARRIE P. MEEK, Florida
RODNEY P. FRELINGHUYSEN, New Jersey       DAVID E. PRICE, North Carolina
ROGER F. WICKER, Mississippi              CHET EDWARDS, Texas
GEORGE R. NETHERCUTT, Jr., Washington     ROBERT E. ``BUD'' CRAMER, Jr., 
RANDY ``DUKE'' CUNNINGHAM, California       Alabama
TODD TIAHRT, Kansas                       PATRICK J. KENNEDY, Rhode Island
ZACH WAMP, Tennessee                      JAMES E. CLYBURN, South Carolina
TOM LATHAM, Iowa                          MAURICE D. HINCHEY, New York
ANNE M. NORTHUP, Kentucky                 LUCILLE ROYBAL-ALLARD,
ROBERT B. ADERHOLT, Alabama                 California
JO ANN EMERSON, Missouri                  SAM FARR, California
JOHN E. SUNUNU, New Hampshire             JESSE L. JACKSON, Jr., Illinois
KAY GRANGER, Texas                        CAROLYN C. KILPATRICK, Michigan
JOHN E. PETERSON, Pennsylvania            ALLEN BOYD, Florida
JOHN T. DOOLITTLE, California             CHAKA FATTAH, Pennsylvania
RAY LaHOOD, Illinois                      STEVEN R. ROTHMAN, New Jersey
JOHN E. SWEENEY, New York
DAVID VITTER, Louisiana
DON SHERWOOD, Pennsylvania

VIRGIL H. GOODE, Jr., Virginia

             James W. Dyer, Clerk and Staff Director

                                 (ii)



               LEGISLATIVE BRANCH APPROPRIATIONS FOR 2002

                              ----------                              

                                            Tuesday, June 26, 2001.

                          LIBRARY OF CONGRESS

                               WITNESSES

JAMES H. BILLINGTON, THE LIBRARIAN OF CONGRESS
DONALD L. SCOTT, DEPUTY LIBRARIAN OF CONGRESS
WINSTON TABB, ASSOCIATE LIBRARIAN FOR LIBRARY SERVICES
LAURA CAMPBELL, ASSOCIATE LIBRARIAN FOR STRATEGIC INITIATIVES
RUBENS MEDINA, LAW LIBRARIAN
JO ANN C. JENKINS, CHIEF OF STAFF, OFFICE OF THE LIBRARIAN
KENNETH E. LOPEZ, DIRECTOR OF SECURITY
MARYBETH PETERS, REGISTER OF COPYRIGHTS
DANIEL P. MULHOLLAN, DIRECTOR, CONGRESSIONAL RESEARCH SERVICE
FRANK KURT CYLKE, DIRECTOR, NATIONAL LIBRARY SERVICE FOR THE BLIND AND 
    PHYSICALLY HANDICAPPED
JOHN D. WEBSTER, DIRECTOR, FINANCIAL SERVICES
KATHY A. WILLIAMS, DEPUTY DIRECTOR, FINANCIAL SERVICES

                           Opening Statement

    Mr. Taylor. Good morning. The committee will come to order.
    Today we begin our hearings on the budget submissions of 
the various Legislative Branch agencies on their fiscal year 
2002 appropriations. It is our hope to complete these hearings, 
the subcommittee markup, have full committee markup, and floor 
action by the end of July.
    The fiscal year 2002 bill will be a very tight bill indeed. 
With mandated changes in the House of Representatives, 
specifically the House-passed committee funding resolution and 
the increase in Members' representational allowances, and our 
tight 302(b) allocation means that once we pay for the cost-of-
living adjustments and make allowances for mandated price level 
increases, we may have to cut some portions of the budgets 
presented by our agencies.
    The total appropriations request that will be considered is 
$2.1 billion. By tradition, the House does not consider the 
budget of the other body. The Senate will consider their own 
request. If the Senate items are included, the total 
legislative branch request is $2.8 billion.
    With that in mind, I would like to welcome our new Ranking 
Member, Jim Moran. Jim and I have worked very closely together 
on the District of Columbia bill for 2 years.
    Mr. Hoyer. Mr. Chairman, I want to thank you for holding 
these hearings. We are pleased to get started. I notice Mr. 
Lombard who has been with this subcommittee for the last 
century and a half, who clearly knows it as well as anybody in 
Washington, is with us. I am pleased that Jim Moran has joined 
us as the Ranking Member. I think your comments are correct. 
You two have worked together closely in the past. I think that 
will bode well for the legislative branch and its component 
parts.
    I also am very pleased to welcome, as our Chief Clerk of 
this subcommittee, Liz Dawson, with whom I have had the 
pleasure of working on the Military Construction Subcommittee. 
She is an extraordinarily able individual, and I know that the 
legislative branch will be advantaged by her role in this 
subcommittee. I look forward to working with her. Mark Murray, 
of course, will continue as minority clerk. He does an 
outstanding job and will do well, I know, as he continues his 
responsibilities.
    Mr. Chairman, I am eager to hear from today's witnesses, of 
course, Dr. Billington and all of the very talented people, 
including the General, that the Librarian brought along. I am 
also eager to hear from the House officers and the Architect. I 
am very concerned, as all of you know, with some specific 
issues that are applicable to the Library, and also to the 
Architect's responsibilities for this Capitol in terms of fire 
safety, worker injuries, long-term use of temporary workers, 
and the custodians' lawsuit which I will be asking the 
Architect about. I think we have come a long way. As I 
understand it, that suit has been settled in a way that was 
appropriate.
    There are other subjects I look forward to discussing.
    I am pleased to continue on this subcommittee and work with 
you, Mr. Chairman, and with Mr. Moran in making sure that the 
legislative branch can do the job that the American public, not 
only ourselves but the American public expects of it. Thank 
you, sir.

                  Introduction of Subcommittee Members

    Mr. Taylor. Thank you, Mr. Hoyer.
    We have Mr. Jerry Lewis who has served on this committee 
for several years, and Ray LaHood who is serving his first term 
on the committee. Mr. Lewis, did you have any comments?
    Mr. Lewis. Only, Mr. Chairman, to tell you that I have a 
markup across the hall, so I will be back and forth.
    Mr. Hoyer. I was remiss in that Mr. LaHood was certainly 
one of the most talented staff people in Washington D.C., and 
until he was demoted to being a Member, he had a lot of power. 
We are pleased to have him here.
    Mr. Taylor. We just had an announcement of votes, so why 
don't we go do that and come right back as quickly as possible.
    [Recess.]
    Mr. Taylor. The committee will come back to order.
    As I said earlier we have Jim Moran as our new Ranking 
Member on the subcommittee. I know, of course, we will miss Ed 
Pastor who was our Ranking Member for the prior 2 years and 
whom I enjoyed working with, but we know we will be able to 
work just as closely with Mr. Moran. Jim's dedication, as 
always, is great. Jim, would you like to make a few comments?
    Mr. Moran. Thank you, Charles. I will keep my opening 
comments to a minimum. But I do think that we have concerns 
with regard to the aging of the workforce and retention 
challenges. We also have unparalleled opportunities to make 
advances in technology that will enable us to perform the work 
and our responsibilities more efficiently, and to share this 
information with the public and preserve it for prosperity.
    The House approved the supplemental appropriations bill a 
short while ago that included $80 million for the Legislative 
Branch. That was the right thing to do. I hope that this will 
be an appropriations bill that is fully adequate to meet the 
needs of the Legislative Branch. I think that the 302(b) 
allocation that we approved earlier this month is a reasonable 
one. I think that the witnesses, that we are going to hear from 
today, have been fairly candid in their budget submissions, 
telling us what we need to hear. And I look forward to today's 
hearing.
    I will say that having worked at the Library of Congress 
earlier in my career, I have an enhanced appreciation of what 
they do and of the professionalism and caliber of the employees 
that make up the Library. I certainly have great admiration for 
Jim Billington's leadership. And, I think that the 
Congressional Research Service, in particular, is a tremendous 
organization. It gets very little credit for what it does, but 
I daresay that few of us would be able to do what we do that 
gets any credit from our constituents if it were not for the 
very strong support from the Library of Congress, and 
particularly the Congressional Research Service. Dan Mulhollan 
is exceptional in his leadership, and I trust that the Library 
of Congress will be able to continue to serve the Congress and 
the public in the high manner in which it has been able to in 
the past.
    So with that, I will conclude with any further general 
comments and get involved in the questioning when it is 
appropriate.
    Mr. Taylor. Thank you, Jim.
    Another new member of the committee, Don Sherwood from 
Pennsylvania, is with us today. Don, do you have any comments?
    Mr. Sherwood. Mr. Chairman, I am just delighted to be here.

                       Library of Congress Budget

    Mr. Taylor. We are glad to have you. We will now take up 
the budget request of the Library of Congress.
    Mr. Moran. Could I interrupt for one moment and recognize 
Steny Hoyer?
    Mr. Taylor. We did already.
    Mr. Moran. Oh, okay. I am sorry. I didn't realize he was 
here earlier.
    Mr. Hoyer. It was a worthwhile interrupting, though.
    Mr. Moran. I am sorry.
    Mr. Taylor. We always appreciate both of you being here. Of 
course in the committee, we are especially gratified to see Dr. 
Billington who is the Librarian of Congress, and General Donald 
Scott, who is the Deputy Librarian of Congress.
    The fiscal year 2002 budget request before the committee 
assumes total funds available will be, $643.7 million, derived 
from a variety of sources including appropriated funds, 
receipts, gifts, trusts, revolving funds, and reimbursable 
programs.
    The direct appropriations request is $480.1 million. The 
Library is requesting funding for 121 additional employees. I 
have had the pleasure of working with Dr. Billington not only 
in the last 2 years as Chairman, but in my first year on the 
Appropriations Committee in 1993 and 4 years as a member of the 
legislative branch subcommittee. What Dr. Billington and his 
staff are able to do at the Library of Congress is amazing, not 
just for the Congress, which is what the Library was intended 
for, but it also serves the entire country. And many of us know 
inside our districts and our States how much we rely on the 
Library of Congress as the greatest library in the world and 
leading library in the world, with Dr. Billington's leadership.
    All Members of Congress are especially thankful for that 
work. And we have an opportunity, I think, especially with the 
technology and our ability to work with that technology, to 
expand works in other libraries around the country through the 
Library of Congress and with the new digitization program.
    Dr. Billington, would you introduce your staff? And if you 
have a prepared statement or other statements that you would 
like to make--we will do that at this time.
    I want to also welcome Dan Mulhollan, who is Director of 
the Congressional Research Service, we are also happy to see 
you today, and enjoy working with you in the fine job you have 
done with the CRS over these years.

                           Prepared Statement

    Dr. Billington. Thank you, Mr. Chairman. General Scott, 
Deputy Librarian of Congress is here with me and is our chief 
operating officer at the Library. I think all of the other 
colleagues here have been previously introduced and presented. 
The only change this year is that Laura Campbell is now 
Associate Librarian for Strategic Initiatives. She was in 
charge of the National Digital Library and now has assumed this 
higher position as Associate Librarian for Strategic 
Initiatives, which is a Library-wide responsibility recommended 
by the National Academy of Sciences study. She came to the 
Library originally from the private sector--and did a great job 
building the National Digital Library. I think all of our other 
colleagues you know.
    And as far as opening statement is concerned, I have 
submitted a statement for the record, Mr. Chairman. I would be 
happy to make one, but I think with this distinguished array, I 
would be happy to just begin immediately answering your 
questions.
    [The prepared statement of the Librarian of Congress 
follows:]

[GRAPHIC] [TIFF OMITTED] T5248A.001

[GRAPHIC] [TIFF OMITTED] T5248A.002

[GRAPHIC] [TIFF OMITTED] T5248A.003

[GRAPHIC] [TIFF OMITTED] T5248A.004

[GRAPHIC] [TIFF OMITTED] T5248A.005

[GRAPHIC] [TIFF OMITTED] T5248A.006

[GRAPHIC] [TIFF OMITTED] T5248A.007

[GRAPHIC] [TIFF OMITTED] T5248A.008

[GRAPHIC] [TIFF OMITTED] T5248A.009

[GRAPHIC] [TIFF OMITTED] T5248A.010

[GRAPHIC] [TIFF OMITTED] T5248A.011

[GRAPHIC] [TIFF OMITTED] T5248A.012

[GRAPHIC] [TIFF OMITTED] T5248A.013

[GRAPHIC] [TIFF OMITTED] T5248A.014

[GRAPHIC] [TIFF OMITTED] T5248A.015

[GRAPHIC] [TIFF OMITTED] T5248A.016

[GRAPHIC] [TIFF OMITTED] T5248A.017

[GRAPHIC] [TIFF OMITTED] T5248A.018

[GRAPHIC] [TIFF OMITTED] T5248A.019

[GRAPHIC] [TIFF OMITTED] T5248A.020

[GRAPHIC] [TIFF OMITTED] T5248A.021

[GRAPHIC] [TIFF OMITTED] T5248A.022

[GRAPHIC] [TIFF OMITTED] T5248A.023

[GRAPHIC] [TIFF OMITTED] T5248A.024

[GRAPHIC] [TIFF OMITTED] T5248A.025

[GRAPHIC] [TIFF OMITTED] T5248A.026

[GRAPHIC] [TIFF OMITTED] T5248A.027

[GRAPHIC] [TIFF OMITTED] T5248A.028

                        NATIONAL DIGITAL LIBRARY

    Mr. Taylor. Thank you, Dr. Billington. The largest increase 
in the budget is for the National Digital Library, $21.5 
million and 58 FTEs. This request is in addition to the $100 
million previously appropriated in FY 2001 which required this 
program be carried out in accordance with a plan., or plans 
approved by the Committee on House Administration of the House, 
the Committee on Rules of the Senate, and the Committees on 
Appropriations of the House and Senate.
    I can tell you, as you continue to build the Digital 
Library, it is serving the country well with additional 
opportunities to do a great deal more, we are appreciative of 
that initiation. Would you like to bring us up to date on the 
plan?
    Dr. Billington. Yes, Mr. Chairman. Basically the Library of 
Congress is superimposing a digital library on the traditional 
artifactual library; that is, the traditional books, the 
movies, the films, the photographs, the maps, the periodicals, 
all are in tangible artifactual form. The digital revolution is 
really presenting every aspect of the Library with a whole new 
view.
    Now, this is not a new function for the Library. The 
classic function of acquiring, preserving, and making 
accessible the collections that bring knowledge and information 
to the Congress and to the Nation is now to be done in a new 
format, and it affects all aspects of the Library. As the 
world's largest library and most comprehensive one, we simply 
have to be able to provide for the Congress what is happening 
in the digital universe.
    Thanks to support of the Congress--and we are very grateful 
for that--the success of the National Digital Library Program, 
and the other services that we have provided, we have moved, I 
think, dramatically into the digital area. There are three 
aspects to the digital activities of the Library of Congress. 
The first is itself, the National Digital Library. That is, the 
historical collections that we have put on the Internet; 
material already in the Library that we have converted into 
digital form. That effort has been funded already. We met the 
target of having 5 million items online of our national 
heritage, the great historic documents of america.
    We have a program with two national libraries--Russia and 
the Spanish National Library. The National Digital Library is 
becoming an international one. It is basically the conversion 
of existing materials, mostly from the Library of Congress, and 
a few others. We have incorporated 34 other repositories in 
America and added to that. That is nearly 7 million items now 
of American history and culture and of the broader world 
impinging on America. That is the first part. That has been 
funded and it is continuing.
    The second aspect to the Library's digital program that is 
crucial, and which is what we are asking for in this budget, is 
the technical backbone infrastructure that will support what is 
called the ``life-cycle management of digital material,'' which 
is coming in all ways. We acquire things in four different 
ways. We get gifts, we make direct purchases, copyright 
deposits, which is most of our American materials, and let's 
see what--oh, yes, exchanges.
    In all of these categories of acquiring things, more and 
more of that is coming in digital form, and the important thing 
is to have total life-cycle management of it, to be able to 
accommodate it, to store it. So that is a second aspect; 
something that is essential for the Library's internal 
functioning.
    Included in the second part is a new request for this year. 
This includes not only the life-cycle management of the digital 
material that is coming into the Library, but also the 
delivery. Included in that is the significant enhancement of 
the Congressional Research Service, their research ability to 
be able to deal with these materials, which are increasingly 
important for answering the questions that you all need 
answered, as well as a certain amount for computer security.
    Then finally the third aspect, which was authorized by a 
special appropriation last year, is to develop a long-term plan 
for the preservation of digital content for future generations 
on a national basis. This is a result of the National Academy 
of Science's study when we realized about 3 or 4 years ago--
that the amount of digital work that the Library was getting 
was increasing constantly, by exponential numbers. They 
recommended that we conceive and develop a national plan for 
distributed work with other repositories; that we get all the 
stakeholders involved; that we be much more proactive even than 
we were in developing a national plan for preserving and 
distributing; the responsibility for keeping what is in a very 
ephemeral form.
    In 1996, the average life of a Web site was calculated at 
75 days. Much of the valuable material on the Internet 
disappears and the technology for reading it migrates very 
rapidly. All of these problems meant that a national plan had 
to be developed and implemented. The Congress appropriated $100 
million last year, the first 5 million of which is to develop 
the plan, which we are in the active process of doing. Then 
there is $20 million, after the plan is approved, to implement 
it; and then, finally, $75 million that will be matched by $75 
million in nonFederal contributions.
    So there are really three parts there. The delivery of 
material that we digitize and we have to sustain; that is an 
ongoing responsibility. Secondly is the backbone, the 
infrastructure, that we will have to develop an institution-
wide approach for the life-cycle management of digital material 
that is coming in through the various streams that contribute 
to it. And, finally, develop a national strategy.
    It is only the second of these pieces that figures into our 
fiscal 2002 budget request, Mr. Chairman, but it is essential 
if we are going to be able to continue to function, because the 
amount of work that is going to be required for this national 
program, where most of that is going to be distributed to--will 
have to go to other institutions as we develop this plan, as we 
rally all the different stakeholders with our national advisory 
body which we are developing for it.
    So this is really an essential part, the key part; the 
$18.8 million in fiscal 2002 that we need for this backbone is 
what we have deferred from last year, and it really can't be 
deferred much longer if we are going to continue to assume the 
various responsibilities that the Congress has assigned to us 
in this area.

        LIBRARY OF CONGRESS COLLABORATIONS ON DIGITAL ACTIVITIES

    Mr. Taylor. The Library was directed to work with other 
entities of the Federal Government, which have expertise in 
electronic commerce, collection and maintenance of archives of 
digital materials and private business organizations which are 
involved in efforts to preserve, collect and disseminate 
information in digital formats. Has there been any movement 
between the Library and these entities to work together? If so, 
what has been the outcome of the collaborative consultation?
    Dr. Billington. Yes, Mr. Chairman. We have created a 
National Digital Strategy Advisory Board which provides 
representation for all of the collaborating partners that were 
cited in the special appropriation. It has 26 members so far, 
and they met on May 1st. Smaller groups will be meeting in the 
course of the summer and early fall. It provides representation 
with the designated members, representatives of the Secretary 
of Commerce, the head of the National Archives, the President's 
Science and Technology Advisor, myself, plus we have added 
people from the private sector from the various stakeholders 
who were involved in this.
    We have some distinguished members: Jim Barksdale, the 
author of Netscape, is playing a leading role in this; and Mr. 
Richter of EMC, one of the major storage people. So we have a 
very wide number of people, including some of those that were 
involved in the National Academy study that have convened. And 
they, will be working to develop a strategic plan. With the 
creators, the producers, the distributors and the users, we 
hope to prepare a plan for congressional approval in the course 
of 2002. So that is the key body, as had been recommended in 
the National Academy study, and is already convened and at 
work.

                     ELECTRONIC STORAGE AND BACKUP

    Mr. Taylor. Do you feel that the Library has a safe and 
secure backup for the electronic storage of its digital 
collections?
    Dr. Billington. The question of backup, I will refer that 
one to Deputy Librarian, General Scott.
    General Scott. Mr. Chairman, we think we have a good backup 
of the critical information systems, such as the Legislative 
Information System and the THOMAS database. We have that data 
continuously updated. We have a backup site so if we needed to 
retrieve the backup data rapidly, we could do so.
    We also have a backup for our financial data. Again, the 
backup data is at another location, and we could rapidly access 
it, if needed. We have other backup sites for other data that 
is stored in our Cataloging and Distribution Service, which is 
in a secure computer room located in the Adams Building.
    The other part of your question has to do with how safe is 
the backup effort. We believe that for the money we have been 
able to put in it and the resources we have been able to get 
towards it, the backup is adequate. But given the fact that 
hackers are becoming more sophisticated, we need to have better 
equipment, and staff who have greater skills in being able to 
help us improve our firewall. Part of what we are asking for in 
this budget would specifically allow us to hire the people who 
can help ensure that we can resist having anyone break into our 
sites. For the present we think our effort is adequate, but we 
constantly need to add to it to keep the hackers out.

                      NUMBER OF LC DIGITIZED ITEMS

    Mr. Taylor. Dr. Billington, you have mentioned you have 
about 7 million items digitized, including the foreign items 
that you have been able to obtain from Russia and Spain. Do you 
have any general estimate about how large the numbers will grow 
in the next few years, are we talking about perhaps 10 or 20 
million items digitized, or is it possible to tell at this 
point?
    Dr. Billington. You mean in terms of foreign----
    Mr. Taylor. Both foreign and domestic items for the Library 
of Congress.
    Dr. Billington. Well, Mr. Chairman, the additions to what 
we plan to digitize, will be relatively modest in the 
international area. We received a special appropriation of $2 
million to do the Meeting of the Frontiers project with the 
Russians. That is proceeding very well. The project has more 
than 100,000 items on it, mostly from the Library of Congress. 
And we have items from two of the largest libraries in the 
world. We had a very successful meeting with the Russians in 
Alaska, also involving the Fairbanks Library there. That is 
proceeding quite well and is having quite an effect because 
this is the comparative story of the two frontiers, how they 
met just north of San Francisco, Fort Ross, and the sale of 
Alaska. It is going into the school systems of both countries 
and is doing very well.
    The Spanish project has just started. It will probably be 
considerably more modest. We do not have a special 
appropriations for that, but we are devoting a certain amount 
of money to that. We are hoping that our Spanish partners will 
have begun digitizing a small number of items from the national 
library there.
    We are also in a fairly advanced state of development of a 
project with both the Vatican Library and the National Library 
of Brazil. We hope to begin something with these later this 
year, but they will be relatively modest. I should stress, most 
of what we are digitizing of these foreign countries is from 
the Library's own collections. We have just put up, for 
instance, photographs from the czar's official photographer. 
The 2000-item show that is an exhibit at the Library right now 
is going online. That exhibit is having a tremendous effect. 
They are the only color pictorials of Russia before World War I 
which the Library of Congress actually has in its collections. 
We are putting online our own collections as well as some from 
these other countries.
    A lot of other people would like to do this. We want to 
proceed slowly. We plan to do one or two projects with foreign 
libraries a year at the most, relatively modest. We have about 
133,000 items online in these foreign ones. We have much more, 
nearly 7 million of American items online. We hope to continue 
at a modest rate. The most important additive elements in the 
next few years are going to be on our new Web site, America's 
Library, which is very interactive, extremely popular. It is 
designed to reach people who are not reached in the digital 
divide and includes--lots of bells and whistles. It is also the 
first-ever library program endorsed and supported by the 
Advertising Council. So we are seeing a lot of ads for this. It 
is going to have much increased usage.
    I think our main effort is going to be on the America's 
Library, because that is the most potent and powerful teaching 
device, and also is recognized as being good for 
intergenerational reading and story telling. We have, 
incidentally, Mr. Chairman, given you a fair idea what is 
online in this publication which I hope everybody has copies 
of.
    I think the largest addition to our digitization material 
will not be the intense level it was to get that first 5 
million up, but we will continue, we hope, to develop on that 
basis. And, of course, what we already have needs to be 
serviced. We are going to have small but very interesting 
foreign elements, and we are going to try to add a lot to this 
interactive one, because that is where the usage is--we had 100 
million hits the first year, even though only a very small 
number of images were up. For instance, it teaches searching on 
a scavenger hunt. There is a lot of history about baseball. It 
raises questions and gets kids interested in story telling and 
learning. It has proven to be very popular in schools and 
libraries and homes, as the Advertising Council has recognized 
by mounting this campaign.
    Mr. Lewis. Mr. Chairman, I was just across the hall. We 
were discussing the fact that the Speaker has an interest, in 
the last session, in a problem in the region of Colombia, and 
we have some programs going forward there. We were talking 
about the prospect of maybe even going down and visiting some 
of those. I hear about a library in Brazil and we might 
consider actually going to see how well they are working.

                    cooperative digitization efforts

    Mr. Taylor. Certainly. One of the most exciting parts of 
the Library's direction is the digitization that is being used 
in public schools and certainly the international digitization 
that you are doing is going to be especially worthwhile. 
Because first of all most countries would not allow their 
treasures, such as maps and photographs, to be taken out of the 
country. By digitizing collections from Russia, for instance, 
the work that you are doing, and the $2 million that was 
budgeted is certainly a very inexpensive educational tool for 
our students, to spark the imaginative sense provided by the 
treasures that we have acquired.
    I know you have in the Library now a collection that you 
acquired some years ago that is currently an exhibit. This 
collection gives our students training in an international 
world and the ability, even in the early grades, to learn 
firsthand what they cannot through a textbook.
    Secondly, I would hope that we could utilize treasures in 
our own country. I would urge cooperation, and perhaps we can 
talk in the future with other organizations such as the 
Archives and the Smithsonian, about treasures that are in their 
own collections. You have done such good work in the Library of 
Congress through the digitization and the pilot programs that 
are now going out to the schools, we don't want to create that 
over and over again in every area of government. And so I hope 
we can have cooperation with the Smithsonian, Archives, any 
other institutions that would provide learning material, to 
work through the Library of Congress and the work that you are 
doing now, because I can see a lot of great treasures inside 
this country. But we don't want to remake the wheel each time. 
I hope that we are putting together that kind of cooperation.
    Dr. Billington. Thank you. We certainly would like to do 
that. The money that we got to bring in other repositories was 
from a corporate foundation which specified they wanted their 
money only to go to nonFederal institutions. But we would 
welcome the chance. We hope we can develop a way of working 
with the other Federal institutions and incorporate them into 
it as well.
    Mr. Taylor. I have some questions that I will submit to be 
answered for the record.
    [The questions and responses follow:]
                        NATIONAL DIGITAL LIBRARY
    The Library must recognize the fact that the long term requirements 
of the digital library program could be classified as still a bit 
fluid. However, you have requested almost $13 million for ``technology 
backbone'' and $2 million for ``digital access, service, and tools.'' 
You state you want to protect the substantial investment the Library 
has already made in the American Memory Digital content. It could be 
said that it seems a bit premature to provide additional funding of 
nearly $15 million for equipment and services if our digital future and 
corresponding technology are still somewhat evolving.
    Question. Do you believe that the Library has a firm grasp on the 
direction of the digital future or should you step back a little and 
reexamine the program and the direction you are taking?
    Response. The Library of Congress has as firm a grip as any library 
or organization in the content business. For the last decade, we have 
worked successfully to address the digital future through the National 
Digital Library Program, making millions of items freely available on 
the Internet. This work has given us firsthand experience in the 
challenges of handling digital materials, including workflow, 
standards, software, storage, and archiving. Organizations all over the 
world are attempting to address these same challenges. Many of them 
visit the Library to learn what we know. The momentum we have developed 
is important to sustain in a rapidly changing digital environment. We 
have also invested in an independent, outside assessment of the 
Library's digital future with the National Academy of Sciences. The 
Academy produced a report of their study in which they urged the 
Library to do two things: (1) accelerate our plans to capture and store 
digital materials; (2) address important intellectual property concerns 
because of the dire need to solve problems and lead others in the 
community.
    We are now not only converting historical materials or digitizing 
physical items, we are also acquiring materials that are currently 
being produced only in digital form. Whether we are converting or 
acquiring digital materials, a technical infrastructure for storing and 
managing digital content needs to be in place, as well as policies and 
processes that support the life-cycle management of the digital 
content. In order to fully develop this environment, work needs to take 
place in a number of areas: (1) standards and processes for receiving, 
labeling, indexing and retaining digital files that can be widely 
promulgated and adopted; and (2) defining and building systems 
solutions that can support rights protected user access to digital 
files, now and in the long term.
    This work is dependent on both human capital and technical 
investments designed to move decision-making and systems solutions 
forward. As the world's greatest cultural institution, we need to be 
empowered to participate as a full partner, and lead in the broader 
national digital strategy planning and formulation process. Alone, or 
as full partner in the broader national context, the Library's 
unchanging mandate, regardless of evolving technologies, is to ensure 
the creative works of this nation, produced increasingly only in 
digital form, are not lost but preserved and shared with future 
generations.
    The $15 million investment requested is not premature. It is the 
necessary building up of the technical capacities that need to be in 
place in sustain this nation's creative output and cultural memory 
despite evolving technologies.
    Question. Are you confident that the Library has safe and secure 
backup electronic storage for its digital collection?
    Response. With the enormous growth in the sheer volume of on-line 
disk storage required to house the digital collections, the Library has 
encountered storage management challenges shared by few organizations. 
We are currently evaluating our local tape-based backup systems with 
the aim of increasing their reliability. Over the next several months 
we will be implementing a new tape backup system, supported by a 
dedicated high-bandwidth network, which will provide more reliable 
backups. As we add an estimated additional twenty terabytes of on-line 
storage over the next six months, we will engineer additional backup 
capacity to ensure the security of this new storage.

                       law library budget request

    Mr. Taylor. I have a number of other questions, but I am 
going to hold until maybe a second turn and yield to Mr. Moran 
for any questions he may have.
    Mr. Moran. You will wait until a second turn?
    Mr. Taylor. We will be here a long time.
    Mr. Moran. I don't have many questions to ask. I had an 
opportunity to discuss the budget with Dr. Billington at length 
previously. I would like to ask a little bit about the Law 
Library. We have heard from some folks who feel that the budget 
is inadequate and that in fact the Law Library is suffering as 
a result of having been shortchanged in money and personnel. 
Perhaps this might be a good opportunity, Dr. Billington, to 
address the concerns that I know that you are aware have been 
raised. They say that the Law Library has received, on average, 
less than 3 percent of the Library's budget but it comprises 
more than 12 percent of the Library's collection. A lack of 
funds has been cited for causing a backlog of more than a 
million postings that need to be shelved, and many have asked 
for a curator for the 65,000 rare books collection.
    What would be your response to that, Dr. Billington?
    Dr. Billington. Well, I think this is a real need, and we 
have been giving it intensive attention and that is reflected 
in our budget request for this year. We have a 2-year plan 
particularly to clear--the growing backlog in current materials 
as they come in. It is symptomatic of a broader problem of 
keeping the periodicals current, up to date, and rapidly 
processed and available throughout the Library. That is a very 
huge problem, but it is a particular problem in the Law 
Library.
    So we have a 2-year plan, the first year of which is 
included in the request for this year. It is to stop the growth 
in arrearages. And next year we plan to come in with a request 
that is slightly above the request this year, probably, to 
clear the past arrearages. We hope to get on top of this 
problem in the course of the next 2 years, but to begin 
immediately on it with a current request. Yes, we are aware of 
this, and also the Law Library has begun--with a small amount 
of money, the beginning of a business reengineering program in 
the Law Library. We agree that this is a serious problem and 
that we have got to tackle it, and I think we have begun 
vigorously.
    Also the development of GLIN (Global Legal Information 
Network), the electronic foreign legal database. We have 14 
member nations now participating. With Mr. Medina's leadership 
we have growing cooperation with other countries, half of those 
are from Latin America. It is an electronic version of delivery 
in real time that has already been evaluated in a number of 
instances in the Congress and the government in general. So 
those are immediate steps. We quite agree this is a problem 
that has to be addressed.

                           transit subsidies

    Mr. Moran. Thank you. Just one other topic I want to bring 
up and that is a local one that you might be able to help us 
address. You are aware of the traffic congestion in the area 
and the fact that we have attempted to make available to 
Federal agencies a transit voucher for using public 
transportation, van pooling and so on. I note that you have got 
4,600 employees working at the Library of Congress. I think it 
would be great to offer the full transit voucher to those 
people at the Library of Congress who might use public 
transportation instead of driving. This voucher would be a 
significant help to relieving the traffic congestion that all 
of us endure every morning and evening.
    What would you suggest we do in terms of extending that 
benefit to part of the executive branch?
    Dr. Billington. I will let General Scott answer. We have 
already made some steps on that.
    General Scott. Yes, sir, we currently participate in the 
transit subsidy program. We recently increased our benefit to 
$39 per month, which gives our employees a comparable rate to 
the House program. We have over 2,160 Library employees who 
participate in the program. The feedback we get is that it is a 
good program, and we are pleased to be able to offer this 
assistance to our employees.
    Mr. Moran. As you know, you are authorized to go up to $65 
and up to $100 next January, which is supposed to be 
comparable--to relieve most of the expense that they would 
otherwise be bearing. Are you considering increasing the 
voucher benefit to these authorized levels?
    General Scott. Sir, we have considered it and we will 
continue to consider it, but it gets to be a balancing game 
with the rest of our budget. We estimated that if we went to 
the full $65 direct individual subsidy, that could cost us 
about $2.3 million per year. Currently the program costs the 
Library $682,000. With the $39 increase, that figure increases 
to about $1.1 million. To date we have been able to absorb that 
$1.1 million without coming to the Congress to ask for more 
money. It is my belief that if we increase to the full $65 
subsidy, we would have to come and ask the Congress for 
supporting funds.
    Mr. Moran. Okay. We are trying to get to a point at which 
it actually changes people's behavior. We are finding that at 
the $65 level, it is more likely to influence people's behavior 
than at the level you are using. So I hope--would you give it 
serious consideration to bring it up to the authorized level?
    General Scott. Yes, sir.
    Mr. Moran. Thank you, Mr. Chairman.
    Mr. Taylor. My calculation last year was if we could 
provide all workers across the country vouchers, it would be 
about $4 billion.
    Mr. Moran. Four billion?
    Mr. Taylor. That is everybody in the country.
    Mr. Moran. But we can exercise some judgment on where we 
have traffic problems.
    Mr. Hoyer. Did you calculate how much it would cost to give 
everybody in the country health insurance?

                        law library and the aba

    Mr. Taylor. I haven't gotten into that. We've been hearing 
that there is a major arrearage problem in the Law Library. The 
American Bar Association and the legal community has been vocal 
in its support of the Law Library and if there is a mechanism 
for that community to help, we seek their assistance. We have a 
lot of organizations that give money to the Library of 
Congress, and a large portion of the areas that we work in are 
done so by the kind contributions of the public. We would like 
to urge the American Bar Association, and the legal community 
generally, to make contributions, as appropriate, in this area 
as is done in other areas of the Library.
    Mr. Wamp, who is our Vice Chairman, is here with us today 
and I would like to yield to him.

                  security of the library's it backup

    Mr. Wamp. I would move away from criticism and cynicism and 
say good morning, gentlemen, to our Librarian and our Deputy 
Librarian. They, too, came and met with me and we went through 
the programs in detail. I certainly applaud the work they do 
and thank them for the confidence that our country has in the 
Library. Mr. Mulhollan and CRS do an outstanding job, too.
    I have one brief follow-up. To get more specific, General 
Scott, about the backup. I understand that several weeks ago at 
NASA-Goddard, there was a water main burst and it did 
significant damage to printed treasures and historical 
artifacts. It also damaged the digital--their technology was 
damaged.
    I also understand that on Wall Street they use a new 
technology, called Mirror IG, to send all of their transactions 
to New Jersey and keep a second file for every transaction that 
happens on Wall Street, because they can't afford not to.
    And I heard your explanation a minute ago about backup for 
our digitizing of artifacts but it all sounds like it's stored 
in-house. I just wondered if we are ahead of the technology 
curve with Mirror IG, or are we sending it to another location 
also? If we move things to digital and they are all under one 
roof and you have a catastrophic fire or some problem like 
that, treasures could be destroyed. Are we looking at all of 
the innovations in the technological world to make sure that we 
move things away from Capitol Hill so that we can retrieve them 
in the event of a catastrophe?
    General Scott. Sir, the short answer is that we don't have 
the backup information stored away from Capitol Hill.
    We have been working on what it would take to resource that 
kind of offsite storage facility. But the mirroring and all 
that I talked about is located right here on Capitol Hill.
    Mr. Wamp. I understand that. Just in closing, I would 
encourage us, as we meet here annually and conduct our 
oversight, that we go further and you report back to us with 
your efforts in the latest technology. Money is hard to come 
by, but those treasures are harder to come by, and we must stay 
ahead of the technology curve. If you need to send a team to 
Wall Street and find out how they do it and report back to us, 
please do.
    General Scott. We will get back with you on that. We have 
done some work--rather than to try to explain a very complex 
situation in a short period of time, I would like to submit for 
the record what we have done and what we think we would need to 
establish that offsite backup capability.
    [The information follows:]
                       COMPUTER STORAGE SECURITY
    In May of this year, the Library's Information Technology Services 
Office formed an internal working group consisting of senior technical 
managers and staff to review the current state of our storage systems 
and to develop a plan for the secure storage of the Library's rapidly 
expanding databases and digital collections. The group has initiated a 
procurement for on-line storage and a new tape backup system which 
addresses our short-term needs. At this time they are developing a plan 
for the design and construction of a ``next generation'' storage 
facility.
    The Library maintains digital data which can be separated into 
several categories. Some of this data is crucially important to the 
Congress, and it is managed in an appropriately sensitive manner. 
Specifically, all of the data for the Legislative Information System 
and Thomas is mirrored to a server and storage system in the Senate 
Computer Center. If at any time the primary system in the Library's 
Computer Operations Center is disabled and cannot quickly be restored, 
then the mirrored system can be brought on-line to provide service. We 
believe this to be a prudent design, but as the working group considers 
backup and recovery options, it will also review the current 
arrangement and recommend modifications as appropriate.
    Somewhat less crucial, though still vitally important, is the 
Library's financial data. This data must be backed up continually so 
that each transaction is posted to a second set of digital books and 
could be accessed quickly in case of major problems with the primary 
database. The Library is currently posting each transaction to a 
separate database located in the House of Representatives. If needed, 
this database would be used to reload our primary database, ensuring a 
quick return to operations.
    Another level down in the hierarchy of data are business 
applications such as the Library of Congress integrated Library system 
(LC ILS) and the American Memory content files. This data is stored on 
high quality on-line storage to ensure its availability twenty-four 
hours a day, seven days a week. All data is backed up on a regular 
schedule. At lest one copy of each backup is maintained in the 
Library's Computer Operations Center and is available for rapid 
recovery. In addition, on a weekly basis all of these tape files are 
copied onto additional tapes which are then shipped to the Library's 
John Adams Building for remote, or off-site, storage.
    The current systems, processes, and procedures are in need of 
revision, and the working group is actively evaluating these systems 
and investigating new products and procedures. As part of this effort, 
the Library's Information Technology Services Office has proposed the 
design and construction of a ``next generation'' storage facility which 
would combine products from various vendors to address the Library's 
unique storage requirements. Additionally, they are looking at 
commercial, off-site vaulting services which would provide storage 
facilities for tape backups of all data far from the primary storage 
site on Capitol Hill. By the end of the fiscal year, the Library 
expects to have an appropriate vaulting service contract in place.
    The Library's content data files are somewhat different from the 
majority of automated data collections. Most large database managers 
deal with an enormous amount of transaction data (which is generated or 
which supports exchange of goods, services, and the like) and contains 
a relatively small amount of data about each individual transaction. 
Very few institutions and organizations have the massive content files 
routinely acquired by the Library of Congress. Thus, it is not 
surprising that the Library considers it important to mount a special 
effort to evaluate its storage systems. As we commence work with other 
external partners as part of the National Digital Information 
Infrastructure and Preservation Program, we will be looking for 
potential opportunities to join forces with private sector entities, 
vendors, and other public institutions to further the development of a 
massive, content based database for the Library's users on Capitol Hill 
and around the nation.

                           fire safety issues

    Dr. Billington. Some of it is in different buildings on 
Capitol Hill. So it is not all in one place, but that has been 
primarily the problem.
    Mr. Wamp. Thank you.
    Mr. Taylor. Mr. Hoyer.
    Mr. Hoyer. Thank you, Mr. Chairman. I want to try to ask 
some serious questions. General Scott, regarding fire safety, 
the Compliance Office, has cited the Architect and the Library 
for deficiencies, and the House Inspector General has found 
additional problems on his own. What is the status of the 
efforts to correct the deficiencies that the Library is 
responsible for?
    General Scott. Yes, sir. The Compliance Office reported 
about 503 deficiencies that the Library was responsible for. 
These deficiencies were things like doors being blocked, 
combustibles being improperly stored and fire doors being 
propped open.
    Mr. Hoyer. This ties directly to the concern that Mr. Wamp 
and the Chairman discussed in terms of destruction.
    General Scott. Yes, sir. Once we got that report, we 
immediately put a full-court press on addressing all identified 
hazards. I am pleased to report that we have corrected 92 
percent of all of the deficiencies that the Library was 
responsible for.
    We also plan to have another intensive week before the end 
of this calendar year in which we will focus upon and cleaning 
up the rest of those deficiencies making sure that we don't 
rebound. Seventy-five percent of the deficiencies that the 
Office of Compliance report cited are under the responsibility 
of the AOC--about 1,700 hazards. Most of them involve the 
structural sprinkler systems and testing the various 
maintenance controls and systems.
    Mr. Hoyer. What is your view of the Architect's progress on 
those deficiencies within his responsibility?
    General Scott. We think that the Architect is devoting a 
sincere effort to try to improve and fix those systems. Of the 
total that they are responsible for, our latest count is that 
they are about 48 percent completed.
    Mr. Hoyer. Thank you. I am going to ask the Architect about 
that as well.

                          staff telecommuting

    Moving to a different subject, because I have a lot of 
questions and want to go quickly, what is the status of 
telecommuting?
    General Scott. Telecommuting is another employee benefit 
for which we are working very hard to establish a program. We 
do have a policy that we want, the Library wants, to offer to 
the employees who can benefit from it. We are working with our 
labor organizations right now to see if we can't come to some 
agreement as to how we would implement such a program. We are 
hopeful that we can have agreement before the end of this 
fiscal year so that we can start implementing functional 
portions of the program.
    Mr. Hoyer. As you know, Mr. Wolf, Mr. Moran, others and I 
have for many years been working on this, and we are excited 
about it. And as long as employees can do the work, it is, I 
think, a very good effort. For instance, when you call toll-
free numbers, you know in America how fast it is when you are 
talking to someone who could be in Mississippi, or California, 
or New York, and you don't care. As long as they have the 
ability to computer interface, they can give you the 
information you seek. I appreciate you working on that.

                        american folklife center

    You have asked for a doubling of the budget for the 
American Folklife Center, which is where we placed the new 
Veterans Oral History Project. Can you discuss briefly the 
Folklife Center's need and your plan?
    Dr. Billington. Well, the Folklife Center is of course the 
premiere collection of American folklife. It has been much 
enriched by the Local Legacies Project of the Congress, 1,300 
projects that more than 400 Members of Congress added in their 
districts. It has been further challenged by the unanimously 
passed legislation to try to collect oral histories from war 
veterans. That is a huge, gigantic project, and we have a 
modest request for some initial funding for it. 1,500 veterans 
die every day, so we cannot wait to move ahead on this.
    More generally, the Folklife Center has very dynamic new 
leadership. We have asked for five new archival positions that 
we need to process approximately 80,000 items that come in 
every year. We have a very substantial arrearage there. We will 
not eliminate the backlog, but we will reduce and manage the 
arrearage, keeping it constant as new collections arrive. There 
really hasn't been any additional staffing to deal with it. It 
is the largest archive of American folklife in existence, 
dating way back to 1928 with the creation of the folk archive, 
and then of course with the 1976 legislation. The whole idea 
was that the Bicentennial would be celebrated by gathering in 
the local creative heritage of America from everywhere, and we 
just haven't had any additional staffing. We now have many new 
Board of Trustees members for the Center that are very dynamic. 
People like Mickey Hart have been very active in helping us 
acquire new material. We have a very large collection of 
folklife material, now we need the five new archival positions 
to get on top of the immense amount of work that they have.
    They have a backlog of about 700,000 unprocessed items, 
including thousands of items documenting the community cultures 
that were gathered in during the Bicentennial by the Local 
Legacies Project.
    I think this is like the Law Library. This is something 
that is long overdue, and we would like to especially stress 
how important it is, I think, for the country as a whole.
    Mr. Hoyer. Thank you, Doctor. If I might, Mr. Chairman, I 
have two brief questions. I have taken a lot of time. I 
appreciate the gentleman from California timing me.

                      history of the house project

    What is the status of the History of the House Project? Mr. 
Lewis wanted the answer to that question, which is why I ask 
it.
    Dr. Billington. Yes, sir. Well, we had a convening meeting 
of the advisory board in January. We had an excellent meeting 
with a number of Members of Congress and a number of 
historians. There was general agreement that we wanted to, if 
possible, recruit David McCullough for this. We had a 3-month 
series of discussions with him, and he finally decided that he 
couldn't give the full commitment of time. We are now in the 
advanced stages of negotiations with another leading historian, 
and we hope we will be able to conclude an agreement with him.
    In the course of our discussions, there was a realization 
that this was a very substantial undertaking, but it was agreed 
that it should be a popular history--something that would be 
widely accessible and interesting to a broad audience. In order 
to have it also be fairly comprehensive, there is going to have 
to be a fair amount of support.
    Ralph Eubanks, the head of our publishing office, is in the 
advanced stage of negotiation with the historian. You might say 
that David McCullough was the first choice, and this 
outstanding historian is a second choice who will be able to 
devote the time needed to complete the project. If we cannot 
close with him, we will probably reconvene the advisory 
committee and try to determine what the next step would be, but 
we are moving ahead as rapidly as we can, and I hope we will be 
able to have an author engaged soon.
    There is the problem of raising funds for this project 
determining what kind of research support will be and so forth, 
but we are working on all of it and we hope to have a 
resolution fairly soon.
    Mr. Hoyer. We are all interested in that and look forward 
to your success, and appreciate that you are going to make it a 
popular document, readable by the general public. I think it 
will be a great benefit to them.

                       congressional publications

    Lastly, we recently authorized new editions of Black 
Americans in Congress and Women in Congress, to bring those up 
to date. Can you tell me the status of those two publications? 
When do you expect to get those out?
    Dr. Billington. We are planning this publication. We have 
had preliminary discussions with the House Office of 
Legislative Resources about assistance that they might provide, 
and we expect to have a plan developed for discussion with 
appropriate committees of the House and Senate within the next 
few weeks. We are moving ahead on these and we should be able 
to get that done fairly rapidly.
    Mr. Hoyer. Thank you. Thank you, Mr. Chairman.
    Mr. Taylor. Mr. Lewis.
    Mr. Lewis. Thank you very much, Mr. Chairman. Mr. Moran, it 
may come as some surprise to you, but in ancient history I had 
the privilege of serving for some years as the ranking member 
of this committee, and we were involved in a number of 
worthwhile projects around here, like the rebuilding of the 
West Front of the Capitol, the marvelous work that was done at 
the Jefferson Building, and we built the extension of the 
Library across the street during those years. Our building 
programs sometimes are tedious and do take some time. I am 
reminded that we also had the concept of refurbishing, 
remodeling and redoing the Botanical Gardens, and I think that 
may be completed some time after I finish my next 
ambassadorship, but in the meantime----
    Mr. Hoyer. Will the gentleman yield?
    Mr. Lewis. You talked an awful lot.
    Mr. Hoyer. Just for a second. The gentleman will like what 
I have to say. I said it before, but Mr. Lewis and Mr. Fazio, 
during their tenure as essentially cochairs of this 
subcommittee--one was a ranking member and one was a chairman--
worked together as an extraordinary team and made a 
contribution to Capitol Hill and its organizational structure 
which will last for centuries and they should both be thanked 
by the American people. I mean that sincerely.

                            off-site storage

    Mr. Lewis. That was leading to a question about the Remote 
Storage Facility. Can you tell me how that project is going 
along and why it seems to be following the pattern of the 
Botanic Garden?
    Dr. Billington. I am sorry?
    Mr. Lewis. Following the pattern of the Botanic Garden. In 
other words, it has taken a long time. Where is that facility? 
What is the story with it?
    Dr. Billington. Are you----
    Mr. Lewis. Fort Meade.
    Dr. Billington. Fort Meade. Well, we hope that the first 
module will be ready by August and that we would start 
occupancy in October, but that is not at all certain. We are 
not sure about that.
    Mr. Lewis. We were going to get into the Botanical Gardens 
2 years ago and so I am wondering about this. That is why I 
asked the question.
    What is the problem at Fort Meade?
    Dr. Billington. The problem at Fort Meade?
    General Scott. I am not sure that I could give you all of 
the series of changes that have come about.
    Mr. Lewis. We tend to blame the Architect every time we 
have a problem. I just wonder if you have some idea of what is 
going on at Fort Meade, and I don't want you to respond for the 
record for this one, because it is pretty clear we have got a 
project there that is stumbling along.
    General Scott. Yes, sir. In my recollection, we have had at 
least three changes as to when the completion date was going to 
be. I can't go into any more specifics as to why those delays 
occurred, other than the plans didn't meet certain 
specifications.
    The current promised occupancy date is August, but we don't 
have any guarantees that it is going to happen in August. We 
have plans to occupy the building and items that we are ready 
to move out there; they are just on hold until we know whether 
the facility is going to be available or not.
    Mr. Lewis. From time to time, Mr. Chairman, we consider 
having building programs be contracted out to see if they might 
move along more swiftly than when carried forward by the 
Architect. I am reminded of the fact that some years ago we 
built an extension on the Cannon Building that was a temporary 
little building off the Cannon Building, and it was designed to 
kind of look like it so it wouldn't be too disruptive to that 
magnificent structure. That was 10 years ago, and it is still 
there. I sometimes scratch my head about the way we handle our 
building programs and I would hope that the chairman would 
solve those problems in a businesslike manner between now and 
the time I get through with my ambassadorship.
    Mr. Taylor. One of the things we did in last year's bill 
was to add a penalty clause on contractors that do not finish 
work on time.
    Mr. Lewis. That is a unique idea.
    Mr. Taylor. Unfortunately, the Fort Meade facility 
construction contract started before we required the penalty 
clause and, therefore, it did not provide for a contractor 
penalty. The Botanic Garden is not either, but it was one of 
the reasons we did it. It does make a difference. Under the old 
law, if you started building a building, you could not charge 
more, however, you could take as long as you wanted to complete 
the project. But now we have a provision that we can penalize 
the contractor for failure to bring the job in on time.
    Mr. Lewis. Maybe we could at least bonus them on the 
Botanic Garden.
    Mr. Taylor. Well, we hope that before cold weather that we 
will have it open.
    Mr. Lewis. I see.
    Mr. Taylor. I have some questions for the record I will 
submit to be answered at this time.
    [The questions and responses follow:]
                      FORT MEADE STORAGE FACILITY
    We understand that you will begin to shift parts of the Library's 
collections to the Fort Meade storage facility this spring and summer. 
The committee directed in last years report that to the maximum extent 
practical, the Library was to employ students to support collections 
transfer and maintenance activities.
    Question. What efforts have been taken regarding this directive? 
How many students have been employed for this project?
    Response. The Library's staff for Fort Meade has not been hired yet 
as we are awaiting a firm occupancy date from the Architect of the 
Capitol. The Library's goal, once the occupancy date is firm, is to 
have staff report approximately four weeks in advance for orientation 
and training. We have identified activities related to the project, 
that are feasible for part-time students to perform, and will begin 
actively recruiting through local college campuses. These activities 
include establishing records in warehouse management database and 
boxing the material. We are currently conducting the preparatory work 
that requires staff with a knowledge of cataloging practices. Hiring 
students into selected positions will free up the Library's skilled 
staff to perform Fort Meade mission-related activities.
                           CULPEPER FACILITY
    Question. For the record, could you provide us with an update on 
the Culpeper facility?
    Response. The new design is in its final preparation stage to be 
reviewed, for approval, by the Architect of the Capitol, the Library, 
and Packard Humanities Institute, who is the private sector sponsor. 
The design includes construction of a three-story building, adjacent to 
the existing building, to house all staff and laboratories. A separate 
structure is required to accommodate differing temperatures for climate 
control, between storage and staff space.

                            IT COMMUNICATION

    Mr. Lewis. On a serious note, an additional serious note, 
yesterday Dan Mulhollan and I spent a little time together 
talking about a problem that is out there that he has assured 
me that we will be addressing. CRS does a fabulous job for us, 
but I have noted over recent years as I have learned to type, 
because we have to use a computer these days, that at a 
district office level, if you want to access the CRS system to 
get information from the Library or otherwise, especially from 
the Midwest, particularly the West, that there is a security 
requirement of confidentiality of these communications that 
makes the requests come all the way to Washington, then they 
have got to go all the way back through security and on to the 
District offices. It is such a lengthy process that sometimes 
the computer just doesn't work. It is so slow that there is 
absolutely no way that your district office staffs are going to 
be using these computer systems.
    I mean, it is incredible that we have not come into the 
modern age. If this problem is affecting West Coast offices, it 
probably affects most of the 435 offices. I would hope that the 
Leg branch would help CRS make this a priority and find a 
solution. I must say that Dan was very forthcoming in that 
discussion, and so I am confident that we are going to see some 
thought applied as well as perhaps a solution, but it is a 
problem we should know about.
    Mr. Taylor. Right. In the supplemental, which was passed in 
the House and now is over in the Senate, we have provided funds 
to address that problem, and I hope we can make some progress 
during this Congress.
    Mr. Lewis. Well, I have had an opportunity to work in many 
a way with Ms. Dawson, and she is always well ahead of me.
    Mr. Moran. Mr. Chairman?
    Mr. Taylor. Mr. Moran.
    Mr. Moran. May I just suggest the chairman address the 
historical records questions to me. Let me just say I am aware 
of what Mr. Lewis has contributed to the legislative branch 
buildings and personnel and vision, and I am very appreciative 
of it. We obviously stand on his shoulders. And also may I say 
it is somewhat inspirational to see the former ranking member 
of the legislative branch is now the Chairman of the Defense 
Appropriations Subcommittee, which I find to be of 
inspirational value as well.
    Mr. Hoyer. Good precedent.
    Mr. Moran. Yeah, good precedent, and I also appreciate his 
concern over the Botanical Garden. I think many of those 
flowers will be endangered species by the time that is 
completed, but thank you for your comments, Mr. Lewis.
    Mr. Lewis. Thank you very much, Mr. Moran.
    Mr. Taylor. Mr. LaHood.
    Mr. LaHood. Mr. Chairman, Dr. Billington and General Scott 
were kind enough to come by my office also and visit with me, 
and I have no questions of them.
    Mr. Taylor. Mr. Sherwood.

            COPING WITH RETIREMENTS AND SUCCESSION PLANNING

    Mr. Sherwood. Thank you, Mr. Chairman, and I had the 
privilege of chatting over the budget with these gentlemen 
also, and I appreciated that, but as I understand the function 
of the Library of Congress, of course there are two great 
functions. One is historical and archival, and the other is 
information providing, and as we transition from a traditional 
information providing function to a digital one, I see a whole 
lot of problems and opportunities, and Mr. Lewis just commented 
on the slowness of some of our systems. And I would just like 
to ask, do we have enough in the budget, and is our management 
enough directed to make this great change that technology 
dictates? And also do we--and I would like to put another 
component to that, and I think that is personnel. I think we 
have a system staffed with great institutional memory, because 
of the longevity of so many of our employees, and I would like 
to know about the thinking of transferring that institutional 
memory as we have retirements. And so if I can put those two to 
you, I would appreciate it.
    Dr. Billington. Well, those are really extraordinarily good 
points. That touches on a couple of things central to this 
budget. First of all, we are very grateful that the 84 people 
who built the National Digital Library were transferred and 
accepted as those slots were given us last year by the 
committee. That was terrifically helpful, because these are 
people who have helped build something new into the system.
    Further, we have 108 new FTEs that we are asking for this 
year. We realize that looks like a lot. It actually is very 
modest if you look at the National Academy recommendations. 
They recommended something that if we translated it into direct 
financial terms would have been astronomical, but we think that 
this is appropriate and this could get us there as rapidly as 
possible. There is no question that we need additional slots, 
and we are in the process of trying to retool and reshape a lot 
of our existing people.
    We have been working on the succession problem. We have had 
a number of succession positions filled in CRS and Library 
Services. CRS hired 56 positions, Library Services hired 16, to 
develop staff mentoring relationships so that the institutional 
memory is transferred to people who at the same time bring in 
new skills.
    What we are doing digitally is basically what we have done 
with traditional artifactual collections; that is to say, it is 
acquiring them, preserving them, cataloging them, making them 
accessible and deliverable and speeding up the delivery. All of 
this is part of the process. That is essentially what we have 
done before, but it is in a whole new area, and so you need the 
wisdom of the traditional functions, and then you need the 
innovative ability to deal with the new technology.
    Regarding retirement--I think somewhere between 8- and 900 
people will be eligible to retire this next year. We normally 
have about 15.6 percent of the people who are eligible to 
retire who do retire annually.
    So there has been a slight increase in the number of people 
that have retired, but it is not as dramatic as the numbers 
might suggest. Our staff do tend to stay on, and this gives us 
a great deal of continuity. But because you never know how this 
is going to play out and because there is going to be a very 
large number of people eligible to retire, increasingly so, 
there is just an absolute need for people to come in before 
those people retire so that that wisdom is maintained and at 
the same time to bring in the fresh talent.

            Competing with the Private Sector Salary Scales

    General Scott may want to add something to that.
    General Scott. I would just add that one of the difficult 
challenges is to be able to find the people who have the 
technical knowledge and then to be able to pay them comparable 
to what the civilian industry is paying them. That is one of 
the challenges that we are facing when we look for people who 
have the knowledge of the new technical storage capacities, 
this digitally-based, and that is something that we are 
continuing to struggle with.
    Dr. Billington. I want to just pay tribute to our technical 
people, because they have done tremendous work in keeping up 
with this exponential growth, because we had a billion 
electronic transactions last year. Our electronic transactions, 
unlike banks and other institutions, contain a great deal of 
data. These are very data-heavy transactions. There is a 
tremendous burden here, and we really can't pay competitive 
salaries with the private sector. This is definitely a problem, 
but the dedication and the hard work of the people who have 
made it possible to field a billion transactions in a year and 
to keep getting out so much material is really extraordinary. 
That is why we do need this additional infrastructure.
    If we are talking about infrastructure, we are talking 
about two things, both storage capacity, these expensive 
technical things, and we are mainly talking about people, and 
that is what is so essential.
    Mr. Sherwood. Thank you.

                          Inventory Management

    Mr. Taylor. Dr. Billington, you are requesting about $2.1 
million to begin an eight-year project to inventory the 17 
million books and bound periodicals in the Library's 
collection. It was our understanding that one of the benefits 
of the Integrated Library System would be for the first time 
the Library could maintain inventory control over its 
collection. Has the Integrated Library System proven to be 
ineffective in this regard, or would this inventory project be 
accomplished as part of shifting to the Fort Meade storage 
facility?
    Dr. Billington. No. It is not at all. The Integrated 
Library System has created a means and a mechanism by which it 
is possible to gain inventory control. This has been a constant 
concern of audits and reviews of the Library--item-level 
inventory control.
    The Integrated Library System has made it possible for the 
first time to do this, but in order to do it, you have to check 
what is on the shelf. There has to be a one-time, basic 
inventory, which is very labor-intensive work. The Integrated 
Library System has given us a tool with which to do this, and 
that is why this is so important, because it will give us total 
inventory control, which we have never really been able to have 
before. This is a process that involves 17 million printed 
items, books and periodicals that have to be inventoried.
    Mr. Taylor. I have a question I will submit for the record.
    [The question and response follow:]
                           INVENTORY CONTROL
    You are requesting funding ($2.1 million) to begin an eight-year 
project to inventory the 17 million books and bound periodicals in the 
Library's collection.
    Question. Would this inventory project be accomplished as part of 
the shifting of collections to the Fort Meade storage facility? What is 
your estimate of the total cost of this inventory project?
    Answer. The scope of this major effort is to produce a one-time 
retrospective inventory of all 17 million items in print collections in 
the general collections, Law Library collections, and Area Studies 
collections. The Library's Integrated Library System (ILS) provides a 
means for undertaking comprehensive retrospective collections inventory 
efficiently, and for the first time. ILS is a tool which makes it 
possible to inventory and barcode each volume, enter the barcode into 
existing ILS records, capture information on each item (e.g., 
preservation status), and then track each item.
    Collections being transferred to the Fort Meade remote storage will 
first be placed under inventory control. This step is critical for item 
retrieval once it is stored at the facility. Inventory of the 
collections remaining on Capitol Hill is independent of the Fort Meade 
transfer. The inventory will be facilitate by a reduction in the 
extreme over-crowded conditions that exist currently. The eight-year, 
total cost of the inventory project is approximately $10 million. The 
fiscal $2.1 million request includes both the inventory program and 
security guards, which is part of the Library's physical security 
initiative. The inventory program is approximately $1.2 million 
annually.

                 Prepared Statement of Director of CRS

    Mr. Taylor. We have the prepared statement of the Director 
of CRS that will be placed in the record at this time.
    [The prepared statement follows:]

    [GRAPHIC] [TIFF OMITTED] T5248A.029
    
    [GRAPHIC] [TIFF OMITTED] T5248A.030
    
    [GRAPHIC] [TIFF OMITTED] T5248A.031
    
    [GRAPHIC] [TIFF OMITTED] T5248A.032
    
    [GRAPHIC] [TIFF OMITTED] T5248A.033
    
    [GRAPHIC] [TIFF OMITTED] T5248A.034
    
    [GRAPHIC] [TIFF OMITTED] T5248A.035
    
            Library Adjustment of FTES Between Organizations

    Mr. Taylor. I have a question for the Congressional 
Research Service, that can be answered by Mr. Mulhollan or 
yourself, Dr. Billington. The library's justification, part I, 
page 930, reflects a deduction of 25 FTEs for CRS with 
redistribution of those FTEs to the Copyright Office and the 
Books for the Blind. In this budget request CRS has requested 
an additional 17 FTEs, costing $3.5 million, to strengthen its 
capacity to provide research and analysis to the Congress. As 
you are aware every day it becomes more difficult to attract 
skilled employees to the Library as well as other parts of the 
Legislative Branch. How do we plan to attract and retain the 
needed expertise of the employees that you are recruiting for, 
and if CRS needs additional FTEs, why were 25 of them shifted 
to other parts of the Library? It seems like you are double 
functioning.
    Mr. Mulhollan. Sir, the 25 positions were a reallocation 
FTE's, reflecting the amount of money available and lack of 
funding of all mandatories in some previous years. The 
Library's proposed transfer is not a shift in money. The 
Library regularly evaluates the amount of money available to 
fund FTEs. The proposed shift is less than 1 percent of the 
total FTEs. Should the Congress approve funding for the 17 FTEs 
CRS has requested, the Library would reduce its proposed 
decrease for CRS to reflect that, and would reallocate only 8 
FTEs.

                  CRS Staff recruitment and retention

    With regard to retaining employees, you are quite right. It 
is a real challenge, but I think it is one that we can 
surmount. First and foremost, what we have found in our ongoing 
relationship with the graduate schools across the country is 
that CRS' greatest selling point is the actual work. The 
opportunity to work with the Congress to write the laws of the 
Nation is what draws applicants to us. We cannot of course pay 
what the private sector can pay, as already mentioned, but what 
we can do is try to meet the salaries that other government 
agencies are paying. We are aggessively establishing ongoing 
relationships with the policy and graduate schools to make sure 
that in fact they know of us, because there was the long period 
of time during downsizing when we didn't have that ongoing 
relationship.
    We have established research relationships with the schools 
as well, including Columbia, Syracuse, UCLA, and Texas, where 
we get to see what the students can do on their research 
process, and they see the kind of work that they can be 
involved in with Congress itself. And, of course we are looking 
at other items, including professional development, career 
training and student loan forgiveness.

                Questions for the Record from Mr. Hoyer

    Mr. Taylor. We have some questions submitted by Mr. Hoyer 
to be answered for the record.
    [The questions and responses follow:]
                         SUCCESSION INITIATIVE
    Question. Congress has supported the CRS succession initiative for 
the last few years. How is the program proceeding and what successes 
have you had?
    Response. We are very grateful for the support Congress provided to 
assist CRS with its succession initiative. This support came in 
response to CRS' strategic planning to ensure that CRS can maintain and 
strengthen its capacity to provide policy and legal analytic services 
for the Congress despite the fact that by 2006 more than sixty percent 
of CRS' staff of analysts, attorneys, and information specialists will 
be eligible to retire.
              why crs needed a succession plan--background
    Two factors, in combination, created this significant risk of lost 
expertise and research capability. First, the Legislative 
Reorganization Act of 1970 expanded CRS' mission and staffing, and 
mandated that ``It shall be the duty of the Congressional Research 
Service, without partisan bias--to develop and maintain an information 
and research capability.'' Based on an underlying belief that it could 
most effectively and efficiently meet its research needs through a 
nonpartisan, shared, pool of experts, Congress provided appropriations 
for a significant increase in CRS staff capacity to implement the Act. 
Many of the staff hired between 1971 and 1975 are now, or will soon 
become, eligible to retire.
    Second, between fiscal 1992 and 1998, CRS staffing decreased by 122 
full-time equivalents (FTEs) as a result of government-wide budget 
reductions. Consequently, CRS was unable to fill behind many of the 
resignations, deaths or retirements of its professional staff, and 
therefore did not have a normal distribution of senior and junior 
staff, which would otherwise have provided an orderly transfer of 
institutional knowledge when experts retire.
                    impact of projected retirements
    CRS conducted risk assessments through staff surveys in 1996, 1999, 
and 2000 to determine the a anticipated number and timing of 
retirements, and to assess the risk those retirements would pose to 
CRS' analytical and research capacity. Response rates have ranged from 
80-95 percent. More than half of those eligible to retire intend to do 
so within a very few years.
    As a result of these retirement projections, CRS identified future 
diminished capacity in such areas as antitrust law, crime and drug 
control, election law, energy, environmental and natural resources, 
foreign policy, government finance and tax policy, health insurance, 
immigration programs, medicaid and medicare, military forces, 
prescription drugs and pharmaceuticals, social security and trade. 
Unless replaced, this loss in senior policy and legal experts will 
result in a loss of Congress' pool of shared experts who provide 
unbiased and nonpartisan support to Members and Committees at all 
stages of the legislative process.
    In many types of positions, management can wait until one staff 
member leaves before hiring a replacement. In fact, funding levels for 
agencies are usually based on the assumption that there is some lag 
time between the departure of the experienced staff member and the 
arrival of the replacement, who is expected to be able to operate at 
the full performance level very quickly. For policy analysts and 
information specialists in CRS, however, it takes much longer to 
replace the expertise lost when a senior staff member leaves. To work 
independently, entry-level staff, who are already well-trained in their 
disciplines, must build their capacity to (1) understand legislative/
budget procedures as practiced in the legislative environment; (2) 
examine issues from a nonpartisan and unbiased perspective; (3) present 
analysis and research in a manner and form that best meets the 
Congress' legislative needs; and (4) develop and maintain contacts with 
subject experts in academia, government agencies, and elsewhere.
    Under CRS' succession plan, newly hired staff work closely with 
senior analysts who share knowledge and experience in their discipline 
within the legislative context. CRS found during the period since the 
1970 Legislative Reorganization Act that it takes a number of years for 
an entry level analyst to develop subject expertise and knowledge of 
the legislative environment in order to handle complex issues in the 
way a manner comparable to that of a senior analyst.
                      succession positions filled
    To ensure continuity and sustain services to the Congress, CRS 
asked Congress to fund a small number of additional staff who could 
work with on board experts before they retire. Thus, current staff will 
be able to transfer institutional memory on issues, legislative 
process, and CRS service qualities of confidentiality, objectivity, 
timeliness, accuracy, and responsiveness. Congress funded two phases 
($724, 183) in fiscal years 1999-2000, permitting CRS to hire 15 entry-
level staff. In addition, CRS devoted positions from its base to 
strengthen succession planning and incorporated risk assessments into 
quarterly workforce decision-making.
    As of the beginning of July 2001 CRS has filled a total of 52 
permanent positions using three recruitment programs--the Graduate 
Recruit Program, the Law Recruit Program, and the Presidential 
Management Intern Program.
    Twenty-three percent of the hires are minorities. Since the 
beginning of the program, CRS has experienced a 92% retention rate for 
staff who accepted permanent positions.
                         additional strategies
    Although CRS is no longer conducting a formal Succession Plan, the 
Service has built the principles of succession planning into its 
overall workforce planning. All hiring decisions now take into account 
succession planning needs. Also, in the course of recruiting for its 
succession plan positions, CRS targeted top graduate schools with high 
concentrations of minority students. The relationships forged through 
this targeted recruitment effort have since led to other opportunities 
for CRS, including:
    <bullet> Research partnerships with graduate schools of public 
policy: CRS has initiated, on a pilot basis, research partnerships with 
the following universities: Columbia, Harvard, Syracuse, University of 
California at Los Angeles, University of Rochester, and University of 
Texas. Under these partnerships, graduate students conduct research on 
select public policy topics under the supervision of senior CRS staff.
    <bullet> CRS Internship Program for Students of the Atlanta 
University Center: This program (currently being conducted on a pilot 
basis) provides internship opportunities for college seniors at Clark 
Atlanta University, Morehouse College, Morris Brown College, and 
Spelman College.
    <bullet> United Negro College Fund/Institute for International 
Public Policy Internship Program: As part of its succession plan 
recruiting, CRS made contact with numerous minority education 
associations, including the United Negro College Fund/Institute for 
International Public Policy (UNCF/IIPP). This effort has enabled CRS to 
establish a working relationship with the UNCF/IIPP, through which CRS 
hopes to gain status, on a pilot basis, as a participating agency in 
the UNCF/IPP internship program.
    CRS has also implemented other initiatives to build research 
capacity within current resources. These include professional 
development details; visiting scholar and professional volunteer 
programs; realignment of CRS' divisions and offices, and contracting 
for skills and knowledge not currently resident in the Service.
           future challenges--recruiting and retaining staff
    Retention of our new hires, and the ability to continue to attract 
a high caliber of graduate student are very high priorities. Because 
both recruitment and retention are so critical to future success in 
ensuring the continuation of high quality services to the Congress, we 
have been thinking about ways that student loan forgiveness might help 
us attract and retain good candidates for public service. We have been 
working with the Library on a draft regulation, and are pleased that 
other government agencies are now beginning to design and implement 
such programs. We note that in recent budget requests our sister 
agencies, CBO and GAO, have also discussed the challenge of recruiting 
and retaining staff, and have identified the value of such student loan 
forgiveness programs to help in attracting good candidates. We expect 
to develop more specific plans to include CRS in any Legislative Branch 
funding initiatives to ensure that the Congress itself, and its policy 
support agencies, can replenish their staffs with highly qualified and 
talented people who see public service as a good career.
    In fiscal 2001, we have continued to ensure that our priorities for 
new hires are aligned with the most critical policy areas where recent 
and future retirements place our capacity at risk. This year, however, 
we face a particular challenge in filling positions because of the 
Library's transition to a new selection process which was developed by 
the Library to reach a court-ordered settlement. This new system 
requires significant up-front training of administrative staff and 
selecting officials and we are working intensively with the Library to 
help work out many of the implementation problems. We hope that the 
system can be made to work as quickly as possible as CRS faces high 
risk if we remain unable to fill our positions with highly qualified 
staff.

 TECHNOLOGY: THE AFFECT ON CRS' RESEARCH AND DELIVERY OF PRODUCTS AND 
                                SERVICES

    Question. You note that technology has changed the way Congress 
works, which in turn requires changes in the way CRS supports the 
Congress. How has technology changed the way Congress requests CRS 
assistance, and how has it affected the way you conduct and deliver 
your research?
    Response. Technology has changed both what Members ask about and 
how you ask for it; both factors are impacting the way we conduct and 
deliver our research to you.
    With respect to what you ask about, Congress has introduced 
hundreds of bills, held many hearings, and enacted significant 
legislation on issues arising from information technology (such as: tax 
moratorium, child pornography protections, provision of electronic 
signatures) and will continue to do so. Virtually all committees are 
considering legislation to address policy concerns such as privacy, 
security, fraud, taxation, sovereignty and antitrust concerns for 
commercial, government and private electronic-based activities, as well 
as for medical and financial transactions, and for government 
transactions in agriculture, welfare, tax, social security, law 
enforcement. Your demand and need for high-level analysis is a crucial 
element in assisting you as you frame and debate legislation and 
conduct oversight.
    But at present, CRS cannot provide consistent in-depth service on 
many of these issues--for too many requests we can only provide 
information and tracking documents and occasional syntheses of research 
on these topics as the issues in information policy are not typically 
direct or natural extensions of issue area responsibilities of our 
current staff. Similarly, we do not have the capacity to support our 
analysts in developing and sustaining unique datasets and applications 
thereby crippling our ability to provide reliable quantitative analysis 
to you. We must have tools to provide rapid, sophisticated, 
authoritative, and integrated legislative support.
    With respect to how Members are asking for our assistance, you are 
accessing our research and analysis in a different manner because you 
are operating in an environment of intense immediacy. You are making 
extensive use of electronic services--such as the Legislative 
Information System, the CRS home page, our electronic briefings books, 
and the online file of CRS products. But we have had to limit the 
number of products prepared specifically for the online setting because 
of information technology resource constraints.
    Every member and committee maintains a web page and, with rare 
exception, each page offers an e-mail contact. Congress is asking CRS 
to both except requests via e-mail and to use E-mail to transmit our 
research and analysis to you. But we are unable to respond to these 
requests because resources have not permitted a thorough and systematic 
assessment of our security concerns, as well as the challenging issues 
of security, electronic tracking, and record keeping.
    We have identified two major areas where CRS capacity is seriously 
deficient and prevents us from responding with the analysis needed and 
in making the necessary technology changes which reflect changes in 
your environments and work methodologies. These form the basis for the 
$3.49 million program increase sought in CRS' fiscal 2002 budget 
request to the Congress. The request will enable CRS to:
    1. Acquire capacity to better analyze complex information and 
technology policy issues.
    CRS does not have adequate staff expertise to provide high-level 
analysis on sophisticated information and technology policy issues. Nor 
can we ``home-grow'' this expertise. Policy areas such as cyber 
terrorism requires significantly different spheres of understanding 
than are needed for dealing with most traditional forms of terrorism. 
Privacy issues and potential solutions in a market-drive, internet 
setting are radically different than issues surrounding government 
information as addressed in the Privacy Act of 1974 and the Freedom of 
Information Act.
    The request will allow CRS to hire five senior analysts who will 
provide high level expertise and Service-wide leadership on technology 
policy issues and implications as they affect various legal areas (such 
as privacy, fraud, intellectual property), government information 
policy, national security, telecommunications technologies, and 
economic issues of the technology and information industries.
    2. Equip ourselves with the leadership and technical staff, skills 
and tools necessary to address serious and significant gaps in the 
capacity to analyze complex technology policy issues, to conduct 
collaborative research, and to apply technology to work and 
communication processes.
    This information technology investment will enable CRS to make 
significant progress in improving interactive communications with 
Congress and its access to us and to our products as well as in 
transforming our research work to 21st century methods.
    More specifically, the funds requested will be used to: improve 
protection of confidential congressional information; provide secure 
access to CRS for district offices; support the delivery of innovative 
interactive products and services through the CRS web site; move 
innovative electronic research products (e.g., electronic briefing 
books, e coverage of current legislative issues) from pilot products 
into full-fledged products. This request will also support implementing 
on-line document creation and editing to facilitate team research 
projects such as the Electronic Briefing Books and our new Legislative 
Issues Service on the CRS web site; laying a foundation for managing 
CRS electronic data and information for as long as needed; developing 
new multi-user quantitative databases, and modifying and documenting 
existing databases that are at-risk due to inadequate documentation; 
and expanding our capacity for critically-needed electronic storage.
                         TELECOMMUTING PROGRAM
    Question. You have decided a telecommuting program is not 
appropriate for CRS. Why not?
    Response. I do not believe that it is in the best interest of 
Congress, given the level of support it needs and deserves, to 
implement a telework policy more elaborate than currently permitted by 
the existing Library regulation, which provides managers the 
flexibility to allow employees to work at their place of residence 
under certain circumstances. CRS has successfully used, and will 
continue to use this option on a case-by-case basis as events and 
conditions warrant. However, I believe that an expanded teleworking 
policy would pose a significant risk to the current relationship the 
Service has with the Congress. Members of Congress consider CRS both a 
shared pool of experts and an extension of their own staff. Teleworking 
would seriously undermine CRS' mission and service qualities, 
especially those related to accessibility. Congress' expectation is 
that CRS staff are readily accessible for in-person briefings and to 
work along side Members and staff at every stage of the legislative 
process. Our staff must be available at a moment's notice--particularly 
in a Web-dominated environment with expectations that are nearing 24 
hours a day, seven days a week--to support directly Congress' enormous 
workload.

              prepared statement of register of copyrights

    Mr. Taylor. We have the prepared statement of the Register 
of Copyrights that will be inserted in the record at this time.
    [The prepared statement follows:]

    [GRAPHIC] [TIFF OMITTED] T5248A.036
    
    [GRAPHIC] [TIFF OMITTED] T5248A.037
    
    [GRAPHIC] [TIFF OMITTED] T5248A.038
    
    [GRAPHIC] [TIFF OMITTED] T5248A.039
    
    [GRAPHIC] [TIFF OMITTED] T5248A.040
    
    [GRAPHIC] [TIFF OMITTED] T5248A.041
    
    [GRAPHIC] [TIFF OMITTED] T5248A.042
    
    [GRAPHIC] [TIFF OMITTED] T5248A.043
    
    [GRAPHIC] [TIFF OMITTED] T5248A.044
    
    [GRAPHIC] [TIFF OMITTED] T5248A.045
    
    [GRAPHIC] [TIFF OMITTED] T5248A.046
    
    [GRAPHIC] [TIFF OMITTED] T5248A.047
    
    [GRAPHIC] [TIFF OMITTED] T5248A.048
    
    [GRAPHIC] [TIFF OMITTED] T5248A.049
    
    [GRAPHIC] [TIFF OMITTED] T5248A.050
    
    [GRAPHIC] [TIFF OMITTED] T5248A.051
    
    [GRAPHIC] [TIFF OMITTED] T5248A.052
    
    Mr. Taylor. I also have a question regarding the Copyright 
Office that I submit to be answered for the record.
    [The question and response follows:]
                            COPYRIGHT OFFICE
    The biggest program increase for the Copyright Office is a request 
for $2.6 million dollars for the Copyright Office electronic 
registration, recordation, and deposit system (CORDS) full large scale 
production system. These funds will be used to transform the presently 
limited small-scale system into a full large-scale production system 
during fiscal 2003.
    Question. To date what has been the total expenditures for the 
CORDS system? What are your estimates of the additional costs to bring 
the system up to full production? What are your estimates of savings 
achieved from the CORDS system?
    Response. The Library has withdrawn the Copyright Office CORDS 
request of $2.6 million. The request would have accelerated development 
of CORDS, which is now processing 30,000 of 600,000 copyright 
registrations annually.
    The Copyright Office re-engineering team recommended that the 
accelerated development be delayed until further evaluation of the 
Office's overall information technology requirements were completed. 
Since 1993, approximately $6.5 million has been spent on the CORDS 
project. Projected costs and savings will be determined once we 
complete the full evaluation and the technology requirements of the 
Copyright Office.

                         mbrs equipment request

    Mr. Taylor. In the furniture and furnishings request, there 
is a $3.2 million request for the purchase of preservation 
equipment for the Motion Picture Broadcasting and Recording 
Sound Program. Would you explain, Dr. Billington, the need for 
such a large requirement in a single year, and could this 
equipment be procured over several years?
    Dr. Billington. Mr. Chairman,--the big expense, is for a 
machine called a Telecine, which is not something that is mass 
produced or you can buy off the shelf. It has to be custom 
made. It is essential for converting movies into usable 
videotape or video format that researchers and other people can 
make use of. In other words, you can't use these old fragile 
films; we need to convert them into a usable format for a 
reader or for a user. The Telecine is basic equipment, and the 
whole audiovisual world is--like the National Library for the 
Blind and Physically Handicapped, very equipment-intensive. We 
have no capital budget to handle these very large and expensive 
pieces of equipment. These machines were acquired way back in 
the early 1980s. They are old, worn out, and barely function. 
The two other processing machines, which are also essential, 
are not functioning at all. So if we are going to make video 
material usable for viewers, this equipment is really 
essential. They are particularly essential as the Culpeper 
audio visual center becomes available. The Telecine, which is 
the most expensive piece, has to be specially crafted and made. 
It is very important that we get a functioning machine, or we 
are going to have a situation where we have material, but it is 
virtually unaccessible. Those are big capital items that have 
just worn out and have lasted actually longer than their normal 
life.
    Mr. Taylor. Dr. Billington, could you for the record 
provide us with all the reprogramming documents and the other 
committee approval actions.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T5248A.053
    
    [GRAPHIC] [TIFF OMITTED] T5248A.054
    
    [GRAPHIC] [TIFF OMITTED] T5248A.055
    
                            closing remarks

    Mr. Taylor. Mr. Moran, do you have other questions?
    Mr. Moran. No. I am fine. I think we have been fully 
informed during our meetings prior to the hearing.
    Mr. Taylor. Mr. Wamp. Mr. LaHood. Thank you.
    Doctor Billington, we certainly appreciate you, General 
Scott, Mr. Mulhollan and all of your staff and the work you do 
and your presentation today, we thank you for being with us.
    Dr. Billington. Thank you, sir, for your support and help. 
Thank you all.
    Mr. Taylor. We will be in recess a moment while the 
Government Printing Office is preparing to come to the table. 
Also, I have an additional question for the Library that I 
submit to be answered for the record.
    [The question and response follows:]

                    NLS--UPDATED STATISTICAL TABLES

    Question. Please update, for the record, the annual 
statistical tables on the Library of Congress Blind and 
Physically Handicapped Program.
    Response. Updated charts attached.

    [GRAPHIC] [TIFF OMITTED] T5248A.056
    
    [GRAPHIC] [TIFF OMITTED] T5248A.057
    
    [GRAPHIC] [TIFF OMITTED] T5248A.058
    
    [GRAPHIC] [TIFF OMITTED] T5248A.059
    
    [GRAPHIC] [TIFF OMITTED] T5248A.060
    
    [GRAPHIC] [TIFF OMITTED] T5248A.061
    
    [GRAPHIC] [TIFF OMITTED] T5248A.062
    
    [GRAPHIC] [TIFF OMITTED] T5248A.063
    
    [GRAPHIC] [TIFF OMITTED] T5248A.064
    
                                            Tuesday, June 26, 2001.

                       GOVERNMENT PRINTING OFFICE

                               WITNESSES

MICHAEL F. DiMARIO, PUBLIC PRINTER
ROBERT T. MANSKER, DEPUTY PUBLIC PRINTER
FRANCIS J. BUCKLEY, JR., SUPERINTENDENT OF DOCUMENTS
CHARLES C. COOK, SUPERINTENDENT, CONGRESSIONAL PRINTING MANAGEMENT 
    DIVISION
WILLIAM M. GUY, BUDGET OFFICER
ANDREW M. SHERMAN, DIRECTOR, CONGRESSIONAL AND PUBLIC AFFAIRS
    Mr. Taylor. We will now consider the Fiscal Year 2002 
budget request for the Government Printing Office. There are 
three appropriation accounts involved, the Congressional 
Printing and Binding appropriation of $90.9 million, the 
Superintendent of Documents program, $29.6 million, and the 
Revolving Fund of $6 million for a total of $126.5 million.
    Before proceeding, Mr. DiMario, would you like to introduce 
your staff?
    Mr. DiMario. Thank you, Mr. Chairman. To my right is my 
Deputy, Bob Mansker. To my left is the Superintendent of 
Documents, Fran Buckley. Behind me is our Budget Officer, Bill 
Guy; and our Superintendent of Congressional Printing 
Management, Charles Cook; and our Director of Congressional and 
Public Affairs, Andrew Sherman.
    I am prepared to go right to the questions, if that would 
save you time, unless you want a statement from me. I think you 
have summarized our requests.
    [The prepared statement of the Public Printer follows:]

    [GRAPHIC] [TIFF OMITTED] T5248A.065
    
    [GRAPHIC] [TIFF OMITTED] T5248A.066
    
    [GRAPHIC] [TIFF OMITTED] T5248A.067
    
    [GRAPHIC] [TIFF OMITTED] T5248A.068
    
    [GRAPHIC] [TIFF OMITTED] T5248A.069
    
    [GRAPHIC] [TIFF OMITTED] T5248A.070
    
    [GRAPHIC] [TIFF OMITTED] T5248A.071
    
    [GRAPHIC] [TIFF OMITTED] T5248A.072
    
    [GRAPHIC] [TIFF OMITTED] T5248A.073
    
    [GRAPHIC] [TIFF OMITTED] T5248A.074
    
    [GRAPHIC] [TIFF OMITTED] T5248A.075
    
    [GRAPHIC] [TIFF OMITTED] T5248A.076
    
                         congressional printing

    Mr. Taylor. Well, thank you.
    Mr. DiMario. Although, my understanding is with the 
supplemental having passed, that the request is now $110.6 
million. Is that correct?
    Mr. Taylor. No.
    Mr. DiMario. We continue with the original request?
    Mr. Taylor. Yes.
    Mr. DiMario. So it is $126.5 million.
    Mr. Taylor. Right. Thank you. And I appreciate your 
summarization. We will proceed to the questions from the entire 
committee. Last week, the House passed the $11.9 supplemental 
for the Congressional Printing and Binding account, that is in 
addition to the regular FY2001 appropriation of $73 million. 
What is the cause of the shortfall? Was Congress more active in 
terms of printing or did the costs rise or did the volume 
increase?
    Mr. DiMario. The volume that was requested by the Congress 
from us exceeded the amount of money that had been appropriated 
to us. As a consequence, we had to go into the next year's 
appropriation, which is a provision allowable in law and 
recommended by GAO a number of years ago. So we in fact moved 
into the 2001 appropriation in order to fund the 2000 shortfall 
of $9.9 million. Now we are asking to replenish that amount so 
that we bring our appropriations in line with the actual work 
Congress ordered from us.
    Mr. Taylor. How much material do you receive from Congress 
in an electronic format, which essentially is ready to be 
printed, and how much material do you need to rekey?
    Mr. DiMario. We receive a very, very substantial amount in 
electronic format from the Congress, but that fact does not in 
and of itself keep us from having to do additional work to get 
the material ready for publication or to put it online. We 
frequently have to proofread data that comes over. To the 
extent that Congress has made changes in it, we may have to key 
in those changes, as an example, to copy originally received in 
electronic format. We may be required to print extensions of 
remarks that are from a newspaper, material of that sort. We 
would key that in original format.
    There is a great deal of preparation that goes into putting 
a file together so that the database is created, both for 
printing and for electronic format. We attempt as much as 
possible to not redo anything that the Congress has already 
done. When Congress sends it over to us, our object is not to 
rekey it. In fact, we use the same material over and over again 
by pulling files from one area to another. As an example, if a 
bill has been filed on the House side, we may use that same 
bill on the Senate side if it has been introduced on the Senate 
side, thus saving costs of rekeying any of that material.
    We do proofing. About 20 years ago, we had 1,800 persons in 
our composition area doing keying and proofreading. We are down 
to 350 people at the present time. That is a direct result of 
the use of electronics to reduce the method by which we produce 
products for the Congress. So we have saved considerable monies 
over the years. I would submit that the current request that we 
have made to the Congress for funding would probably be in the 
magnitude of $200 million for Congressional Printing and 
Binding, had we not made these changes over a 20-year period of 
time.
    Mr. Taylor. What is the current circulation of the Federal 
Register and the Congressional Record?
    Mr. DiMario. The Congressional Record is 7,625 copies. Of 
those, 4,580 are paid for by the Congress. There are 775 that 
are depository copies, and then there are 1,130 agency riders 
that the Federal agencies pay for. We also ride through the 
Office of Superintendent of Documents for the sale of 
publications for 1,140 copies. Those are paid for by the sales 
program. So the Congressional portion is 4,580.
    The Federal Register is not funded at all through an 
appropriation to the Government Printing Office. We produce 
13,000 copies. None of them are paid for by the Congress. 950 
are for depository libraries. 8,050 are official copies for 
which we charge a page rate to the agencies for putting 
material in the Federal Register, and they receive copies back 
from us, as appropriate. And then we sell some 4,000 copies. 
That is the current situation.
    Mr. Taylor. How much could we save if the Congressional 
Record and perhaps other government documents were all limited 
to an all electronic publication? Keeping in mind that a 
limited number of copies could be printed on demand. What do 
you think we could save?
    Mr. DiMario. I can't put a dollar figure off the top of my 
head, but we would certainly save the expense of producing 
those publications that are directly coming to the Congress. I 
don't know if that is a practical answer to the situation. 
Currently we have a very, very substantial number that are 
being downloaded from our electronic system, because we put all 
these publications, including the Record and the Register, up 
on the GPO Access. Some 31 million publications are being 
downloaded a month, and of those, 350,000 are from the 
Congressional Record, and some 5.5 million are from the Federal 
Register.
    So there is a very, very substantial accessing of 
electronic products, but there still is a demand for the paper 
products, much smaller than years ago, but it is still a demand 
out there.
    Mr. Mansker. Mr. Chairman, I might add, what you would save 
on the Record would basically be the cost of the paper. Your 
composition factors and everything would still be present, even 
if you cut out the production of paper products. So the paper 
products become really less of a factor than putting the whole 
item together in the first place.
    Mr. DiMario. The initial cost is in producing that first 
copy and preparing that database, and if you are preparing it 
to put it up online or you are preparing it to go out in paper 
copy, you are going to incur the same cost. That is Mr. 
Mansker's point. We do that for all of our publications. We 
prepare the publication at the same time both for print and for 
electronic distribution.

                           electronic format

    Mr. Taylor. What is the current percentages of materials 
going to depository libraries by electronic means? Do you have 
an estimate?
    Mr. DiMario. Mr. Buckley may have that data.
    Mr. Buckley. Currently about 62 percent of the new 
publications we have sent out the first 6 months this year have 
been in electronic form.
    Mr. Taylor. Has the GPO's access and the availability of 
government publications on the Internet affected your sales 
programs?
    Mr. DiMario. Yes, dramatically. The sales program, to a 
large degree, sold regulatory materials, and that is really 
what the public demand was for, the Federal Register and the 
Code of Federal Regulations. Since we have put these 
publications up electronically, we have seen a marked decline 
in sales. Additionally, there are many other publications that 
have gone up electronically, and it has caused a reduction in 
the sales program. The sales program went from an $80 million 
program to a $40 million program, which is what it is 
currently.

                             SALES PROGRAM

    Mr. Taylor. How many bookstores does GPO operate?
    Mr. DiMario. Currently we have 24, including an outlet at 
our distribution facility in Laurel, Maryland.
    Mr. Taylor. Does each store cover its own operating costs, 
do you have any estimate?
    Mr. DiMario. Currently about 14 of the 24 are covering 
their costs. Overall the bookstore program is covering its own 
expenses. There are 10 stores that are not covering their 
expenses. We have current plans to close three of the stores. 
We have identified those stores to the affected Members of 
Congress and to the Joint Committee on Printing. Where the 
stores are in Congressional districts as a courtesy, we always 
touch base with the Member of Congress and the Senators.
    We also have three additional ones that we are scheduling 
to close and have not yet made the required notifications on 
those stores. We also have a plan in place which would cause 
additional reductions over a period of time. We are very 
cognizant that we need to improve the structure of our sales 
program. It is essentially a direct result of our success in 
electronic distribution programs.
    So in one breath, we are very, very proud that we have 
gotten all these publications up, generating 31 million 
downloads a month. Following the dictates of this committee, we 
moved the depository program to a more complete electronic 
program. At the same time, it has adversely affected the paper 
sales.
    Mr. Taylor. Have you investigated putting all sales online 
or contracting the sales program out to the private sector?
    Mr. DiMario. All of our publications are presently up for 
sale online, and you can purchase the publications that way. 
Over the years, going back at least to when I was 
Superintendent of Documents in 1983, we have examined the issue 
of selling publications through the private sector. To the 
extent that the private sector wants to participate, we have 
done that. The problem is that some people want to cherry pick 
popular publications, but most of the publications are not the 
kinds that are commercially profitable. The volume is too 
small. Private dealers are very, very selective. And so there 
is not a big demand from the private sector.
    When Booz-Allen Hamilton did the study for Congress a 
couple years ago and examined our operation, they expressed the 
view that we should privatize that structure, and we have 
continued to look at it. Fran may want to speak more completely 
to it.
    Mr. Buckley. We have been integrating our sales information 
with some of the online vendors. While we have an online 
bookstore up ourselves, we have been trying to provide our 
information to Amazon and Barnes & Noble and other places to 
resell through bookstores that way. We have statutory 
authorization to sell copies of our tangible products to 
bookstores for resale, but that is used only in a limited way 
by bookstores for, as Mr. DiMario said, particular titles that 
have a high demand. We don't see bookstores wanting to carry 
the full array of products that we have to meet the public 
interest for Government publications.
    Mr. DiMario. I would only add, the law is structured in 
such a way that, with no copyright for most Federal 
publications, it encourages private republication of everything 
that we do. The encouragement is to have as broad a 
distribution as possible. Vendors currently can pick up from us 
any publication and resell it. We do sell the databases, and we 
are not trying to be a monopoly in any way.
    Mr. Mansker. I might add also, Mr. Chairman, that this 
material is provided through the Thomas system. So it is even 
further available to the public.
    Mr. Taylor. Thank you, gentlemen. I have some questions 
that I will submit to be answered for the record.
    [The questions and responses follow:]
                           electronic format
    Question. Please provide the committee with a five-year review of 
the subscription demand for the Congressional Record, the Federal 
Register, and Congressional hearings?
    Response.

                                             SALES OF SUBSCRIPTIONS
----------------------------------------------------------------------------------------------------------------
                             Date                                 Congressional Record       Federal Register
----------------------------------------------------------------------------------------------------------------
7/3/01........................................................                    1,093                    4,147
9/29/00.......................................................                    1,082                    5,174
9/28/99.......................................................                    1,496                    6,670
9/29/98.......................................................                    1,771                    8,579
9/30/97.......................................................                    1,659                   10,819
9/27/96.......................................................                    2,258                   13,475
----------------------------------------------------------------------------------------------------------------

    Hearings are sold individually in varying quantities, not by 
subscription.
    Question. To what extent are people now using GPO ACCESS to bypass 
ink on paper versions of these materials?
    Response. Downloads from GPO Access are today averaging about 31 
million per month. Congressional Record retrievals are averaging 
350,000 per month and Register retrievals are averaging 5.5 million per 
month. People are obviously using GPO Access to retrieve these 
documents, but not necessarily to bypass them. Paper copies of the 
Record are still needed for the conduct of legislative business in 
Congress, by agencies, by the public for reasons of permanence, 
authenticity, portability, etc. The Federal Register is still used in 
paper for many of the same reasons. People also use electronic versions 
and paper versions differently.
                             gpo bookstores
    Question. I understand the GPO is finally going to open an 800 
number sales option. Isn't this an indication of just how unresponsive 
the Sales Operation Program is to the market place?
    Response. No, the cost of 800 numbers has declined, making them 
more economically feasible than they once were. We place the highest 
priority on serving our customers. We offer many ordering options--
online, mail order, local bookstores, and telephone.

    Mr. Taylor. Mr. Hoyer, do you have any questions?

                    BEST IN-PLANT PRINTING OPERATION

    Mr. Hoyer. Thank you, Mr. Chairman. Mr. DiMario let me 
congratulate you. For the third consecutive year, you have been 
designated the best in-plant printing operation in the country 
by In-Plant Graphics magazine, a leading industry trade 
journal.
    Mr. DiMario. Thank you very much.
    Mr. Hoyer. I want to congratulate you on that effort. I 
know that some perceive the GPO as not state of the art, not up 
to competitive standards, but in fact the industry itself 
recognizes that that is not the case, and in fact, believes 
that you have the best in-plant printing operation in the 
country. That is a significant honor to have and we are proud 
of you and your employees who have helped to achieve that.
    Mr. DiMario. Thank you, Mr. Hoyer.

                               FTE LEVELS

    Mr. Hoyer. Now, talking about your employees and your 
continuing effort to keep FTE levels which will allow you to 
perform the functions expected, but understanding as well that 
you are trying to organize in a way that keeps the people that 
you need, you have asked for an extension of buy-out authority. 
Would you discuss why you need that?
    Mr. DiMario. Well, the sales program, as we noted, is 
having a great deal of difficulty, and so we are planning to 
restructure that program. And as part of the restructuring, we 
have a great number of employees who are eligible for 
retirement, either in optional retirement or the early 
retirement. Employees tend, as indicated by Dr. Billington 
earlier, not to leave simply because they are eligible. As a 
result, we think we might have to use an incentive to reduce 
the numbers. For FY 2002, our budget is premised on a reduction 
of some 30 employees in the sales area. Is 30 the correct 
number?
    Mr. Buckley. 33.
    Mr. DiMario. 33, and we put that specifically into this 
budget request. We may do some of that through the bookstore 
reduction. Our hope is that we can do it through attrition, but 
if we can't do it through attrition, then we need a tool that 
would act as an incentive to leave. Our program has been very, 
very successful for us, and that is our reason for asking----
    Mr. Hoyer. You indicate it has been successful. Do you have 
an estimate of the dollars that we have saved as a result of 
the use of early-out as opposed to RIF?
    Mr. DiMario. I think we have saved about $3.6 million, 
something of that magnitude. We have had 70 plus employees who 
left on the early-out program. So it has been useful to us, but 
it is expiring, and so we need----
    Mr. Hoyer. That is the net savings over and above the 
incentive payment that is made and the net savings that would 
have----
    Mr. DiMario. We have not offered the incentive payment.
    Mr. Hoyer. Oh, you have not?
    Mr. DiMario. Even though I have had the authority, I have 
not felt it necessary to use that incentive payment, because we 
have been meeting our requirements through attrition. But, 
again, it is a tool that, if necessary, in order to scale the 
program down, I would want to have available.
    I have been reluctant to use it, even though I have been 
authorized to use it, because we have been meeting our 
requirements. We have so many people especially in GPO, over 
half of the agency, eligible for regular and early-out 
retirement, which means they may go out before age 55 and 30-
year service. The system is voluntary. Someone may leave at age 
55 with 30 or more years of service without a reduced annuity. 
I, for one, have 38 years of service. We have many employees 
with much more service than I have. They are not----
    Mr. Hoyer. When you reach 50, are you thinking of retiring?
    Mr. DiMario. I reached 50 14 years ago, but I am still 
here. It is, you know, a situation where in order to get the 
work done, we have got to manage the workforce, and we can't 
have a wholesale exodus from the place. And if we use the 
authority across the board, or indiscriminately, that is what 
would happen. So we have attempted to use it in a managed way. 
Previously when we had the buy-out authority and did use it, we 
had a significant reduction in the number of employees, but I 
had to limit the areas that we used it in.
    After using it, a number of employees who were, for 
whatever reason, not given the buy-out authority, sued us. So 
we ended up in years of litigation over the question of whether 
or not those employees were treated fairly in the process of 
being given a $25,000 buy-out. It is a difficult thing to 
manage and use successfully.
    On the other hand, we----
    Mr. Hoyer. Did you prevail in the suit?
    Mr. DiMario. We did in most cases. There were a couple of 
cases we did not.
    Mr. Hoyer. Let me go on to my last question.
    Mr. DiMario. Yes, sir.

                          police consolidation

    Mr. Hoyer. Last year the Senate proposed a merger of your 
GPO police and the Library of Congress police and the Capitol 
police. That was not enacted, but there is still interest in 
the idea. Can you give me your thoughts on that?
    Mr. DiMario. I would have no opposition to the merger, so 
long as GPO, in the process, is provided with adequate security 
for its premises and its employees. We don't want to end up as 
the stepchild in the process of a merger into the Capitol 
Police structure.
    Our employees at the time, our police officers, were 
certainly encouraged by the sense that they might receive the 
same compensation that the Capitol police had. So they had a 
mixed feeling about wanting to come over for more pay, but 
there were other issues out there. We have since negotiated a 
contract with them, regarding their pay, and we reached an 
agreement. It is not quite what the Capitol Police get, but the 
agreement puts their pay on par with other Federal police in 
the District of Columbia. We were attempting to stay within 
that executive branch level.
    I guess my sense in response is if you want to carry it 
out, that is fine. There are benefits to the Congress, and I 
would have no objection to it.
    Mr. Hoyer. Thank you. Thank you, Mr. Chairman. I have some 
questions that I will submit to be answered for the record.
    [The questions and responses follow:]
                QUESTIONS FOR THE RECORD FROM MR. HOYER
    Question. The technology used in the Plant has changed dramatically 
in recent years. Do you have an idea how much money has been saved on 
Congressional printing through improved technology like direct-to-
plate?
    Response. Productivity increases resulting from technology have 
enabled GPO to make substantial reductions in staffing requirements 
while continuing to improve services for Congress. In the mid-1970's, 
on the threshold of our conversion to electronic photocomposition, we 
employed approximately 8,500 persons. Today, we have about 3,100 
employees, fewer than at any time in this century. In the past 8 years 
alone our staffing has been reduced by 35 percent. The reduction was 
accomplished while at the same time modernizing and improving our 
services.
    Electronic technologies have significantly reduced the cost, in 
real economic terms, of congressional publications. In FY 1978, the 
appropriation for Congressional Printing and Binding was $84.6 million, 
the equivalent in today's dollars of more than $200 million. By 
comparison, we project that the cost of congressional work for FY 2002 
will be $81 million, a reduction of nearly two-thirds in real economic 
terms. This has yielded substantial savings to the taxpayers. The vast 
majority of the reduction is due to productivity improvements and 
staffing reductions made possible through our use of electronic 
printing and information technologies.
    Question. You are requesting 8 additional FTE's in the Salaries and 
Expenses Appropriation. Why?
    Response. Six additional FTE's are being requested for the 
Cataloging and Indexing Program, to improve GPO's capability to 
discover, catalog, and process online Government information. Two 
additional FTE's are requested for the Federal Depository Library 
Program (FDLP), specifically to manage the FDLP Electronic Collection. 
The new FTE's would support the highly detailed and technical tasks 
associated with preservation of electronic publications, such as 
handling large digital collections. They will further integrate 
existing systems and develop new procedures and strategies for digital 
preservation.
    Question. What steps are you taking to ensure permanent public 
access to government information in electronic formats?
    Response. GPO's strategy for assuring permanent public access to 
digital publications in multi-layered. GPO Access material, at 
www.access.gpo.gov, and information hosted on GPO Access servers on 
behalf of the originating agency, is archived at GPO on GPO servers. 
This includes all information from GPO Access since its inception in 
1994. For Government publications that are to be included in the FDLP 
only in electronic form, GPO obtains, where possible, a documented 
arrangement with the issuing agency that either assures that 
publications will be available from the agency server permanently, or 
will be turned over to GPO for archiving. Where a documented 
arrangement is not possible, GPO downloads a copy of the digital 
publication and houses it in an archive on GPO servers, making the 
archived copy available only at the point that the original product is 
no longer available from the publishing agency's server. GPO is also 
working with partners in the library community to provide archival 
housing of specialized categories of digital information.

                         INFORMATION TECHNOLOGY

    Mr. Taylor. Thank you, Mr. Hoyer. Mr. LaHood.
    Mr. LaHood. Nothing.
    Mr. Taylor. Mr. Sherwood.
    Mr. Sherwood. As you transition from a conventional 
printing operation to this high-tech digital delivery system, 
are you having trouble--do you have the resources and the 
authority to pay the kind of bonuses and attract the type of 
people and retain the type of people that you need because 
these skills are in such high demand in the commercial 
workplace?
    Mr. DiMario. In certain IT areas, information technology 
areas, we have a great deal of difficulty, especially with what 
are known as C-plus or C-plus-plus programmers that are 
necessary to do some of that work. Recently the Office of 
Personnel Management authorized an increase in salary, premiums 
if you would, for certain IT personnel, and we are offering 
those. We have brought that to bear for our employees, which I 
think we were required to do.
    Overall, we are getting adequate staffing. When we go out 
for most GPO jobs, we have a very significant number of 
applicants. But when we go out for highly specialized IT jobs, 
then we run into problems. We have had some of the people most 
responsible for our success in transitioning leave and go 
elsewhere, some in retirement. We do pay significantly less 
than those people can get in the private sector.
    Mr. Sherwood. In the same vein, in this transition to a 
digital delivery organization, do we need to be concerned about 
the security and the authenticity of our information on the 
Internet? Do we have sufficient firewalls and so forth in place 
that we can't be compromised?
    Mr. DiMario. I would say through diligence, we are--it will 
be a yes answer. We have them in place. There have been 
significant attempts to penetrate our firewall. They have not 
been successful. As I testified on the Senate side, since 
January there have been some 300,000 attempts to get into our 
system. And we have had none get beyond the firewall, although 
one got into an area where we could identify and contain the 
person. Some of these hacking attempts were coming from China 
and elsewhere.
    Also, we are putting in place for authenticity's sake, a 
public key infrastructure. We are well on our way on that, 
which authenticates the data and secures the data.
    So I would say we certainly need to keep on top of it and 
keep moving ahead. GPO funds most everything from rates, so we 
pass the cost on through our rate structure. The only 
appropriations we receive are the two that are here, the 
salaries and expense appropriation which is mostly for the 
depository library program, and the congressional printing and 
binding. The rest of it comes through fees that we charge 
others.
    We have managed to keep our technology fairly high-end. I 
am very proud of where GPO is today. We have gone from 8,500 
employees 25 years ago to a little over 3,000. When I took over 
8 years ago, we had 5,000 employees. I think we are performing 
very, very well and all you have to do is see the awards we get 
from the outside folks in the electronic arena, people who use 
the system. That does not eliminate criticism of where we are, 
and to the extent that we are criticized, we will address the 
criticisms.
    Mr. Sherwood. Thank you.
    Mr. Taylor. We commend you for your award and the efforts 
you have made, and we certainly appreciate the work that you 
are doing.
    Thank you gentlemen, we will now proceed with the General 
Accounting Office.
    Mr. DiMario. Thank you, Mr. Chairman.
                                            Tuesday, June 26, 2001.

                       GENERAL ACCOUNTING OFFICE

                               WITNESSES

DAVID M. WALKER, COMPTROLLER GENERAL
GENE L. DODARO, CHIEF OPERATING OFFICER
SALLYANNE HARPER, CHIEF MISSION SUPPORT AND CHIEF FINANCIAL OFFICER
RICHARD L. BROWN, CONTROLLER

                            Opening Remarks

    Mr. Taylor. We will now take up the budget of the General 
Accounting Office. The budget request is $430.3 million and 
3,275 FTEs. The funding includes $2.5 million that will be 
derived from reimbursable programs. We have the Comptroller 
General, David M. Walker. Mr. Walker, good to see you, sir.
    Mr. Walker. Good morning, Mr. Chairman.
    Mr. Taylor. Accompanying Mr. Walker are several members of 
his staff. We are pleased to have all of you here. I would like 
to begin by thanking Comptroller General Walker for his 
traveling into my district a few weeks ago and presenting a 
very important report, which is what the GAO always does, on 
the quality of the air in the Great Smokey Mountains. That 
report has cleared the air, so to speak. In the up coming 
debate, it will provide the Congress and agencies invaluable 
service and information in addressing that important issue.
    Mr. Walker, would you take the time now to introduce your 
staff?
    Mr. Walker. Thank you, Mr. Chairman. To my left is Gene 
Dodaro, who is the Chief Operating Officer of the GAO. To my 
immediate right, Sallyanne Harper, Chief Mission Support 
Officer, and to her right, Dick Brown who is our Controller.

                           Prepared Statement

    Mr. Taylor. I know you have a prepared statement which has 
been circulated to members of the committee and will be 
inserted in the record at this time.
    [The prepared statement of the Comptroller General 
follows:]

[GRAPHIC] [TIFF OMITTED] T5248A.077

[GRAPHIC] [TIFF OMITTED] T5248A.078

[GRAPHIC] [TIFF OMITTED] T5248A.079

[GRAPHIC] [TIFF OMITTED] T5248A.080

[GRAPHIC] [TIFF OMITTED] T5248A.081

[GRAPHIC] [TIFF OMITTED] T5248A.082

[GRAPHIC] [TIFF OMITTED] T5248A.083

[GRAPHIC] [TIFF OMITTED] T5248A.084

[GRAPHIC] [TIFF OMITTED] T5248A.085

[GRAPHIC] [TIFF OMITTED] T5248A.086

[GRAPHIC] [TIFF OMITTED] T5248A.087

[GRAPHIC] [TIFF OMITTED] T5248A.088

[GRAPHIC] [TIFF OMITTED] T5248A.089

[GRAPHIC] [TIFF OMITTED] T5248A.090

[GRAPHIC] [TIFF OMITTED] T5248A.091

[GRAPHIC] [TIFF OMITTED] T5248A.092

[GRAPHIC] [TIFF OMITTED] T5248A.093

                               FTE LEVELS

    Mr. Taylor. We will go directly to questions, with your 
agreement. During the past 5 years, we have reduced the GAO 
personnel more than 25 percent. Your budget request has an 
increase of 125 FTEs. Please tell the committee why you need 
such an increase and how will those new FTEs be assigned 
throughout the agency?
    Mr. Walker. First, our head count is roughly 40 percent 
below what it was in 1992. We are requesting funding at our 
full targeted level, which is 3,275 FTEs. We are currently 
about 125 below that number. We would allocate the additional 
FTEs into the areas that would support our strategic plan, 
areas where we have the greatest supply and demand imbalances--
such as health care; education, workforce, and income security; 
information technology; and financial markets and community 
investment.
    Everything that we are doing is being tied back to our 
strategic plan and to where we are getting the most demand from 
the Congress. As you know, demand far exceeds supply, so this 
is one means that can provide more equilibrium in that regard.

                           ASBESTOS ABATEMENT

    Mr. Taylor. On the question of asbestos abatement, I have 
only been on this subcommittee since 1993, but it seems like 
the asbestos abatement has been a question for the entire time. 
Is there any end in sight in the asbestos abatement program?
    Mr. Walker. If we can get the funding, the answer is 
definitely yes. I will turn it over to Dick Brown, who can 
bring you up to date on where we stand on it.
    Mr. Brown. We have completed asbestos removal from almost 
the entire building. As you may recall, all of the duct work in 
the GAO building was made of asbestos instead of metal. We had 
35 miles of asbestos duct work that carried the air. All of it 
was removed except for that remaining on the west half of the 
sixth floor. So we have half of one floor left to go. With the 
funding that we have requested in 2002, we should be able to 
complete that floor.
    Mr. Walker. As you know, Mr. Chairman, we have seven floors 
in our building. So this would complete the task.

                        TRUTH IN REGULATING ACT

    Mr. Taylor. Good. You are requesting $5.2 million to fund 
the Truth in Regulating Act. Would you provide the committee 
with an idea as to your plan for implementing your 
responsibilities under this act?
    Mr. Walker. Sure. As you know, Mr. Chairman, the Congress 
last year passed the Truth in Regulating Act, but in order for 
it to be operational, it also expressly provided that there had 
to be a separate appropriation to fund those activities. We are 
engaging in preliminary planning as to what type of skills and 
knowledge we would need to do that work. Some of these we 
already have within GAO. We do, however, anticipate that should 
the Congress decide to fund TIRA that we would want to end up 
adding a few additional staff, including one individual who 
would be specifically responsible for the Truth in Regulating 
Act. As you know Mr. Chairman, TIRA, in effect, is a 
counterpart to OMB's Office of Information and Regulatory 
Affairs. It is designed to provide the Congress with its own 
independent-source or check-and-balance against the type of 
work that OIRA does for the Office of Management and Budget.
    We can be up and running if we get the funding, and it is 
up to the Congress to decide whether or not they want to 
provide that.
    Last thing, Mr. Chairman, it is a 3-year demonstration 
project, and we have asked for supplemental funding of $2.6 
million for the balance of this year. The $5.2 million 
represents what we would need for the full fiscal year 2002, 
should Congress wish for us to proceed.

                       EDUCATION LOAN REPAYMENTS

    Mr. Taylor. GAO has requested $410,000 to fund an education 
loan repayment program. This program will provide for the 
repayment of education loans for GAO employees, as currently is 
being provided to executive branch employees. What 
authorization allows GAO to administer such a program and what 
are your projected costs of a fully operational program?
    Mr. Walker. Mr. Chairman, last year the Congress passed an 
act that provided the ability of virtually all departments and 
agencies within the Federal Government to offer student loan 
repayment assistance. We believe this is critically important 
in order to not only attract but also to retain skilled and 
knowledgeable workers for the GAO and for other departments and 
agencies. We are finding all too frequently that individuals 
coming out of college into government service today are facing 
a double whammy. They are not going to be compensated at the 
same level as in the private sector, but in addition to that, 
they have accumulated significant debt. The combined effect of 
those two causes some individuals, who otherwise would like to 
go into public service, not to. And we believe that this would 
be helpful in attracting these people.
    OPM has to finalize its related regulations. My 
understanding is that should happen within the next month. Once 
those regulations are finalized, the GAO will be covered. 
Within those regulations there are certain limits as to how 
much we can pay each year and over an individual's lifetime. 
The real key is once you have the authority, you need the 
money.
    So what we are respectfully suggesting is that with some 
funding to get us started on this program, we would implement 
it. Obviously we wouldn't reimburse everyone at once. We 
started rehiring within the last couple of years, and we expect 
that when the program is fully operational, it could end up 
running $2 to $3 million per year. We believe it is critically 
important.

                       HUMAN CAPITAL LEGISLATION

    Mr. Taylor. You have been working to reengineer and right-
size the GAO since you became the Comptroller General. Do you 
have all the tools and statutory power necessary to complete 
the job and can you amplify that for us?
    Mr. Walker. Mr. Chairman, we were fortunate last year to 
gain the Congress' support in passing some human capital reform 
legislation dealing directly with the GAO. We are in the 
process right now of implementing that authority. We are also 
looking at whether and to what extent we need additional 
authorities.
    I do not have any specific requests at this point in time, 
but I can assure you, Mr. Chairman, that if we don't get the 
job done with the authority that the Congress gave us last 
year, I won't hesitate to come back to you and work with you in 
that area.
    The last thing that I would say, Mr. Chairman, is that many 
of the targeted investments that we are asking for in this 
budget are designed to support us within the context of current 
law and the additional authority that Congress gave us last 
year.
    Mr. Taylor. Well, we have been very proud of the work you 
have done so far. Please keep in communication with us 
regarding this matter so we can see if we can provide what is 
needed for GAO to meet its responsibilities.
    I have a question I will submit to be answered for the 
record.
    [The question and response follow:]

                             HUMAN CAPITOL

    Question. Please describe in detail any actions taken to-date, or 
planned, using human capital provisions enacted for the GAO by the last 
Congress in Public Law 106-303.
    Response. Following enactment of the human capital legislation, we 
established priorities addressing the publication of regulations 
implementing the new authorities granted GAO by this legislation. In 
developing and issuing the human capital regulations, we are providing 
all employees the opportunity to provide input.
                         senior level positions
    We developed GAO Order 2319.1, Senior Level Positions, to 
incorporate the provisions related to senior level positions. An 
individual serving in a Senior Level position must meet critical 
scientific, technical, or professional needs of GAO. Senior Level 
incumbents are subject to the laws and regulations applicable to GAO's 
SES with respect to rates of basic pay, performance awards, ranks, 
carry-over leave, benefits, performance appraisals, removal or 
suspension, reductions-in-force, and rights of appeal to the GAO 
Personnel Appeals Board. Senior Level positions generally do not 
include managerial or supervisory duties.
    In developing these regulations, we consulted with and obtained 
comments from GAO staff and the Employee Advisory Council (EAC). Draft 
regulations were provided to the EAC in December 2000, and to all GAO 
employees for a 30-day comment period on January 2, 2001. Following 
consideration of comments received during this period, the draft order 
was finalized and issued on March 22, 2001. All GAO employees were 
notified of the availability of the final regulations on GAO's 
Intranet, along with a summary of the changes incorporated in the 
regulations based upon comments received. Our first competitive 
announcement for Senior Level Technologists closed on April 23, 2001. 
Under this new authority, to date we have filled 7 Senior Level 
positions: 3 staff were reclassified from SES to Senior Level, and 4 
staff were selected under competitive announcements.
                  voluntary early retirement authority
    We also published regulations related to the Voluntary Early 
Retirement Authority provisions. The regulations were provided to the 
EAC in December 2000, and to all GAO employees for a 30-day comment 
period via the Intranet on January 8, 2001. Over 60 comments were 
submitted by employees and fully considered. The final regulations 
along with an explanation of the changes made as a result of comments 
received, were issued on April 27, 2001. We provided a briefing to 
GAO's Managing Directors and EAC in June 2001 to seek input on the 
proposed early retirement opportunity period and related criteria. In 
addition, we have announced a 45-day period from July 16, 2001 until 
August 30, 2001 during which time employees can apply for a voluntary 
early retirement.
    The voluntary early retirement offer is designed to support our 
strategic plan to serve the Congress in the 21st century, while 
maintaining the resources necessary to deliver on our current 
commitments to the Congress. The specific objectives of this 
opportunity are to better align our workforce, correct selected skill 
imbalances, and reduce high-grade, supervisory and managerial 
positions. The criteria to be used for offering early retirements will 
be based on selected occupational group and series, unit, and 
performance appraisal average, as consistent with the law. These 
criteria focus eligibility for early retirement on organizations and 
skill groups that we do not expect to grow in the future and on 
adjusting the shape of the organization by encouraging retirements 
among higher-graded and managerial staff. Individuals not in a group 
covered by the criteria may apply as volunteers and will be considered 
on a case-by-case basis, taking into account individual facts and 
circumstances. Individuals accepting retirement offers will be expected 
to leave the agency between October 1, 2001-January 3, 2002.
    voluntary separation incentive payments and reductions-in-force
    We also are developing regulations to implement the provisions 
related to Voluntary Separation Incentive Payments and Reductions-in-
Force. We plan to publish these regulations in fiscal year 2002 in 
order to have them available if needed. Authority to offer separation 
incentive payments is limited each year to no more than 5 percent of 
the onboard staff at the beginning of the fiscal year and is available 
through December 31, 2003. However, due to the high cost to the agency 
of contributions to the retirement fund for staff receiving a 
separation incentive payment, we have no immediate plans to exercise 
this authority.
    In addition to permitting the Comptroller General to conduct a 
reduction-in-force in response to budget reductions, the legislation 
also permits use of the authority to realign the agency workforce, 
correct skills imbalances, and reduce high-grade, managerial or 
supervisory positions. To date this authority has not been used, and we 
do not anticipate any involuntary layoffs through next fiscal year.
                             annual reports
    We are required to include in each annual report to the Congress 
during a 5-year period a review of all actions taken pursuant to this 
Act relating to buy-outs, voluntary early retirements, and reductions-
in-force. We must also submit to the Congress within 3 years a report 
on the implementation and effectiveness of the Act including any 
assessment or recommendation of the GAO Personnel Appeals Board or any 
interested groups or associations representing GAO officers and 
employees. This report will include our recommendations for 
continuation of the buy out and early out authorities as well as a 
summary of the portions of the annual reports required by the Act.

                         training requirements

    Mr. Taylor. You have requested $400,000 to the address 
skill gaps, maximize staff productivity and effectiveness, 
update your training curriculum, address the organizational and 
technical needs and provide training to your new staff. What is 
your per capita training budget and what is the Federal per 
capita budget?
    Mr. Walker. I will take a stab, Mr. Chairman, and Sallyanne 
Harper may want to add something. It depends on how you 
calculate it. If you calculate hard dollar costs, which I 
generally refer to as out-of-pocket costs, real cash, on that 
basis we are spending only about $1,000 per person. On the 
other hand, if you consider the fact that a lot of our training 
is provided by GAO personnel, through our Performance and 
Learning Institute, the amount of training costs per capita 
increases substantially. We are, however, below the benchmark I 
am familiar with for a professional services organization.
    As you know, I came from Arthur Andersen, which is one of 
the world's leading professional services organization, and I 
am aware of what they spend on training. We don't spend 
anywhere near what Arthur Andersen spends per capita on 
training. Part of our shortfall is that training was one of the 
casualties of the downsizing and the budget cuts in the 1990s. 
Unfortunately, that is one of the first areas that gets cut. We 
are starting now to replenish that.
    I am not sure as to whether or not there are any data on 
government-wide averages. Sallyanne?
    Ms. Harper. Mr. Chairman, we currently don't have data 
available on the government-wide averages, but if the committee 
or you would like us to do work in that area, we would be happy 
to do so.
    Mr. Taylor. Thank you.
    Mr. Walker. We would disclose that cost. One of the things 
we are doing now is providing our requestors a sense as to how 
many staff days it will take us to do the work, so they can 
make some judgment as to whether or not they think it is cost-
beneficial to have us do it.
    Mr. Taylor. That is good.

                   pfp for mission support personnel

    You have requested $581,000 for pay for performance, to 
convert to a broadbanded pay-for-performance system for mission 
support staff. Will this be the last contingent of employees to 
be moved to the pay-for-performance program? Other than 
financial rewards for employees what are the benefits that GAO 
has gained as a result of the program?
    Mr. Walker. Well, Mr. Chairman, actually what we want that 
funding for is to be able to study whether or not we should go 
to pay-for-performance for additional GAO personnel. In 
addition to that, we want to update our performance appraisal 
system for the mission support personnel. As you know, we are 
in the midst of doing that for our mission personnel. We have 
broadbanding for the mission personnel, and we do have pay for 
performance for that segment of the workforce. What we want to 
do is to be able to update the system for the mission support 
personnel as to whether and to what extent it would make sense 
to put them into the pay-for-performance category.
    Ms. Harper. Mr. Chairman, we are hoping to have that study 
completed by the end of this fiscal year. The mission support 
staff are the last of the GAO staff. Our general counsel's 
office, as well as our mission staff, are in broad bands. In 
the mission support area, we don't know if we will be 
recommending a banded system, but we are looking at proposals 
moving from longevity as the basis for people receiving their 
increases to one in which they are rewarded for their actual 
performance. When we made this switch for the mission staff and 
for the general counsel's staff, we provided funding so that 
staff moved from time-in-grade steps to our broadbanded system 
without loss for time already earned in their former grades. 
And so that money also would go to support that transition for 
mission support staff in 2002.
    Mr. Walker. One of the things that has really concerned me 
recently is that evidently the Federal Government as a whole, 
under its pay systems, provides that every individual, even if 
they are at the below expected performance and in some cases 
unacceptable performance levels, continues to get pay increases 
mandated by law. This is an area that troubles me. The whole 
concept of being able to move to a system whereby individuals 
get paid based on their skills, knowledge, and performance 
rather than the passage of time and the rate of inflation is 
critical to making government more results-oriented and 
accountable.
    So this is an area that is important not only with regard 
to GAO, but because we are trying to provide other parts of 
government with a model that they can follow.

                         security enhancements

    Mr. Taylor. We have a new item costing $338,000 for 
security enhancements. What is being provided within this 
request and what is the estimate of the total security 
enhancements you might need?
    Mr. Walker. I will let Dick Brown get into the details, but 
let me just say that one of the things we believe very strongly 
in is leading by example at GAO. We want to be as good, or 
better, than every other agency in every category. One of the 
things we did is our own security examination based upon the 
standard that is applied to GAO and our building. I might also 
note that one of our good neighbors is the Washington office of 
the FBI. They have been deemed to be a higher potential 
likelihood for targeting activity by terrorist groups, and as a 
result, we have had to consider that in our security planning; 
you know, blast protection and things of that nature, which 
Dick Brown I am sure will be able to cover.
    Mr. Brown. The FBI just recently completed a new building 
that is next to ours, which is their Washington regional 
office. After they had finished, there was a study done of the 
neighborhood and some risk assessment. And as a result of that, 
they concluded that it would be helpful at a minimum for GAO to 
be prepared with increased security.
    The money that we have requested here is to reinforce the 
windows in the building against bomb blasts. We are requesting 
to do one-third of the total number of 1,044 windows in the 
building, the one-third that is closest to the FBI building 
this year. Over a period of 3 years there would be a total cost 
of about $1 million for this project if we reinforce and put 
mylar on all of the windows in the building.
    Mr. Dodaro. We had a study done by the Corps of Engineers 
to do a simulated bomb blast study. And the concern was that 
the actual glass coming inwards from the windows, should there 
be an explosion, could cause potentially more damage than the 
actual damage from the blast structurally. There were other 
potential structural problems, particularly as it relates to 
the basement of the building. We have two levels of underground 
parking, and this funding doesn't address that issue, but we 
felt that was a cost-beneficial step to take. That is why we 
are asking for the money, and to do this over a number of 
years, not all at once. We think it is good risk management 
protection, given the potential threat.
    Mr. Taylor. The FBI moved into the building that our 
district office is in. We consider it a plus. There is no 
security in place, but you have raised some new questions. I 
will have to talk with them about it.
    Mr. Sherwood.

                          information security

    Mr. Sherwood. Thank you, Mr. Chairman. In your statement, 
where you get a return of $61 for every $1 invested, I would 
like to have a private conversation, tell me how I can do that.
    As you heard me before--and I know your emphasis has been 
on strengthening information security and how critical that is 
for all sectors of the Federal Government--but for the record, 
how secure are GAO's computer systems, and do you have the 
firewalls in place, and are you satisfied that we can survive 
tampering and disruption and inappropriate disclosures?
    Mr. Walker. I will start, and ask Gene to provide some 
additional information. First, our objective is to be as good 
or better than anyone else in every major area, including 
information security. We apply the standards to ourselves that 
we apply to others to make sure that we are practicing what we 
preach. I think we are in pretty good shape here, but I would 
ask Gene to add some comments.
    Mr. Dodaro. We have taken the basic fundamental steps 
necessary to begin implementing a best practices program and a 
comprehensive security program for GAO, which includes not only 
having proper firewalls but, in a lot of cases, awareness 
training. We have hired an individual to come in and manage our 
computer security program, to give it more emphasis, so we have 
a central focal point for the security program. We also have 
experts, and actually we have a computer lab facility in GAO 
that we use to do penetration testing of other Federal 
agencies. So we have our own experts critique our system and 
give us advice.
    But I might add that this is an evolving problem, and just 
because you have the situation in hand today doesn't 
necessarily mean you will tomorrow with the enhancement tools 
that are available to people at relatively low cost--I think 
you always have to be on your guard. So we are very much aware 
that this is going to be a continuous challenge and that we are 
going to have to stay on top of this. And part of our budget 
request is for additional money to enhance our computer 
security facilities and make sure we have the latest available 
tools, which is paramount in this area.
    Mr. Walker. We have had a number of occasions, as many 
other departments and agencies have, where hackers have tried 
to penetrate GAO. We have to this point not been successfully 
penetrated with regard to our internal systems, but we have to 
be ever vigilant. And because there is an increasing threat, 
not only to us but to many other government programs, we are 
seeking to go to the next level as part of this budget request. 
It is a fairly modest amount of money, quite frankly.

                           independent audit

    Mr. Sherwood. Precisely because it is a moving target is 
why it needs so much attention, you know. In your strategic 
plan for the 21st century, you mentioned that you have 
established a set of congressional protocols, and in view of 
the fact that you are our watchdog and investigative arm, 
maintaining--have everybody know that your integrity and 
objectivity and independence are above reproach. Do you have an 
independent review by an outside organization such as you have 
suggested for some other agencies of the government, like an 
independent review by an independent accounting or auditing 
firm?
    Mr. Walker. We have two things. First we have an internal 
review that we do on ourselves, a quality review program. We 
also have an external review of our financial auditing 
activities; in other words, our responsibilities for auditing 
the consolidated financial statements of the U.S. Government, 
the IRS, the FDIC, the Bureau of Public Debt. That is done 
periodically, on a rotating basis, typically about every 3 
years or so. KPMG Peat Marwick did it the last time, which is a 
global firm. We are looking to do the same for other aspects of 
what we do. We are looking to work with other auditor generals 
in other countries and state auditors to develop a cooperative 
arrangement whereby nontraditional work that we do can be done 
by an organization that is qualified to do it. This is 
something that we are actively pursuing as an enhancement to 
what we already do.
    Mr. Dodaro. We also have an annual financial audit done by 
an outside public accounting firm. We have had that done for a 
number of years now. We have received clean opinions on our 
financial statements. They look at our internal controls. We 
feel pretty good about that. We also have a 3-person audit 
advisory committee to the Comptroller General that has three 
outstanding individuals from outside GAO that the auditors 
report to. Former IRS Commissioner, Sheldon Cohen, chairs that 
committee.
    Mr. Sherwood. Thank you very much.
    Mr. Taylor. Thank you very much, Mr. Walker, and your 
staff. We appreciate your report and the progress you have 
made. Thank you.

                           leading by example

    Mr. Walker. Can I mention one thing in closing, Mr. 
Chairman, if I can to get it on the record. One of the things 
that I am sure you appreciate and I believe very strongly in, 
is something that is talked about in Washington quite a bit but 
doesn't always happen, and that is matching resources to 
results. I would respectfully suggest that we would be happy if 
the Congress decided to move more in that direction to match 
resources with results. We are proud of our related record.
    The second thing that I would like to mention is that one 
of the things we are trying to do is to lead by example. In 
order for us to lead by example in some of these areas, whether 
it be human capital, strategic planning or information 
security, we need to be able to make some targeted investments. 
This not only helps us, but frankly it helps others, because 
they are following us as a model.
    To the extent that we can show the way--not that our way is 
the only way, but it is a way, it is a way forward--I think 
government as a whole can benefit quite a bit. So thank you for 
your consideration and for your time.
    Mr. Taylor. You have certainly shown leadership so far in 
your tenure. We appreciate that.
    I have some questions that Mr. Hoyer has submitted to be 
answered for the record.
    [The questions and responses follow:]
                 QUESTION FOR THE RECORD FROM MR. HOYER
    Question. Please describe GAO's present and planned efforts to help 
eastern-bloc and other countries fight government corruption, for which 
you request $250,000.
    Response. The increased funding is needed to support GAO 
initiatives to enhance the International Organization of Supreme Audit 
Institutions' efforts to combat government-related corruption around 
the world. INTOSAI is the professional organization of national audit 
institutions in countries that belong to the United Nations or its 
specialized agencies. These institutions play a major role in auditing 
government accounts and operations and in promoting sound financial 
management and accountability in their governments. Citizens, 
international donors and others have increasingly higher expectations 
of national governments. These governments depend on the national audit 
institutions to help ensure public accountability. INTOSAI supports its 
members in this task by providing opportunities to share information 
and experiences about the auditing and evaluation challenges facing 
them in today's changing and increasingly interdependent world. As the 
internationally recognized leader in public sector auditing, INTOSAI 
issues international guidelines for financial management, internal 
control and other areas; develops related methodologies; provides 
training; and promotes the exchange of information among members.
    GAO is a member of the governing board of INTOSAI and takes a 
leading role in its activities. In connection with these duties, GAO 
seeks to enhance INTOSAI efforts to combat government-related 
corruption around the world. In fiscal year 2002, GAO has requested 
$250,000 to:
    <bullet> Support a multilateral training effort with Russia, 
Hungary, the Czech Republic, Poland, Slovenia, Slovakia, Lithuania, and 
perhaps others to provide a mid-level course on how to prepare for and 
then execute an effective performance audit;
    <bullet> Provide bilateral technical assistance to the Russian 
Chamber of Accounts;
    <bullet> Collaboratively undertake one joint audit effort with the 
Russian Chamber of Accounts; and
    <bullet> Support the Latin American Supreme Audit Institutions in 
developing and delivering technical training, probably related to 
information technology and/or addressing issues of fraud, waste, abuse, 
and mismanagement. GAO will be part of a multinational team that 
includes the Inter-American Development Bank.
    GAO plans to involve graduates of GAO's International Fellowship 
Program in these initiatives. These graduates hold important positions 
in their own national audit offices.

    Question. Please describe in detail any actions taken to-date, or 
planned, using human capital provisions enacted for the GAO by the last 
Congress in Public Law 106-303.
    Response. Following enactment of the human capital legislation, we 
established priorities addressing the publication of regulations 
implementing the new authorities granted GAO by this legislation. In 
developing and issuing the human capital regulations, we are providing 
all employees the opportunity to provide input.
                         senior level positions
    We developed GAO Order 2319.1, Senior Level Positions, to 
incorporate the provisions related to senior level positions. An 
individual serving in a Senior Level position must meet critical 
scientific, technical, or professional needs of GAO. Senior Level 
incumbents are subject to the laws and regulations applicable to GAO's 
SES with respect to rates of basic pay, performance awards, ranks, 
carry-over leave, benefits, performance appraisals, removal or 
suspension, reductions-in-force, and rights of appeal to the GAO 
Personnel Appeals Board. Senior Level positions generally do not 
include managerial or supervisory duties.
    In developing these regulations, we consulted with and obtained 
comments from GAO staff and the Employee Advisory Council (EAC). Draft 
regulations were provided to the EAC in December 2000, and to all GAO 
employees for a 30-day comment period on January 2, 2001. Following 
consideration of comments received during this period, the draft order 
was finalized and issued on March 22, 2001. All GAO employees were 
notified of the availability of the final regulations on GAO's 
Intranet, along with a summary of the changes incorporated in the 
regulations based upon comments received. Our first competitive 
announcement for Senior Level Technologists closed on April 23, 2001. 
Under this new authority, to date we have filled 7 Senior Level 
positions: 3 staff were reclassified from SES to Senior Level, and 4 
staff were selected under competitive announcements.
                  voluntary early retirement authority
    We also published regulations related to the Voluntary Early 
Retirement Authority provisions. The regulations were provided to the 
EAC in December 2000, and to all GAO employees for a 30-day comment 
period via the Intranet on January 8, 2001. Over 60 comments were 
submitted by employees and fully considered. The final regulations, 
along with an explanation of the changes made as a result of comments 
received, were issued on April 27, 2001. We provided a briefing to 
GAO's Managing Directors and EAC in June 2001 to seek input on the 
proposed early retirement opportunity period and related criteria. In 
addition, we have announced a 45-day period from July 16, 2001 until 
August 30, 2001 during which time employees can apply for a voluntary 
early retirement.
    The voluntary early retirement offer is designed to support our 
strategic plan to serve the Congress in the 21st century, while 
maintaining the resources necessary to deliver on our current 
commitments to the Congress. The specific objectives of this 
opportunity are to better align our workforce, correct selected skill 
imbalances, and reduce high-grade, supervisory and managerial 
positions. The criteria to be used for offering early retirements will 
be based on selected occupational group and series, unit, and 
performance appraisal average, as consistent with the law. These 
criteria focus eligibility for early retirement on organizations and 
skill groups that we do not expect to grow in the future and on 
adjusting the shape of the organization by encouraging retirements 
among higher-graded and managerial staff. Individuals not in a group 
covered by the criteria may apply as volunteers and will be considered 
on a case-by-case basis, taking into account individual facts and 
circumstances. Individuals accepting retirement offers will be expected 
to leave the agency between October 1, 2001-January 3, 2002.
    voluntary separation incentive payments and reductions-in-force
    We also are developing regulations to implement the provisions 
related to Voluntary Separation Incentive payments and Reductions-in-
Force. We plan to publish these regulations in fiscal year 2002 in 
order to have them available if needed. Authority to offer separation 
incentive payments is limited each year to no more than 5 percent of 
the onboard staff at the beginning of the fiscal year and is available 
through December 31, 2003. However, due to the high cost to the agency 
of contributions to the retirement fund for staff receiving a 
separation incentive payment, we have no immediate plans to exercise 
this authority.
    In addition to permitting the Comptroller General to conduct a 
reduction-in-force in response to budget reductions, the legislation 
also permits use of the authority to realign the agency workforce, 
correct skills imbalances, and reduce high-grade, managerial or 
supervisory positions. To date this authority has not been used, and we 
do not anticipate any involuntary layoffs through next fiscal year.
                             annual reports
    We are required to include in each annual report to the Congress 
during a 5-year period a review of all actions taken pursuant to this 
Act relating to buy-outs, voluntary early retirements, and reductions-
in-force. We must also submit to the Congress within 3 years a report 
on the implementation and effectiveness of the Act including any 
assessment or recommendation of the GAO Personnel Appeals Board or any 
interested groups or associations representing GAO officers and 
employees. This report will include our recommendations for 
continuation of the buy out and early out authorities as well as a 
summary of the portions of the annual reports required by the Act.
                                            Tuesday, June 26, 2001.

                      CONGRESSIONAL BUDGET OFFICE

                               WITNESSES

DAN L. CRIPPEN, DIRECTOR
BARRY B. ANDERSON, DEPUTY DIRECTOR

                             BUDGET REQUEST

    Mr. Taylor. We will now take up the Fiscal Year 2002 budget 
request of the Congressional Budget Office. We have Director 
Dan Crippen and also Barry Anderson, the Deputy Director, with 
us today. We welcome you both.
    Given the CBO's continued positive protection of the tax 
surplus, I would say that there is one office that does have a 
very high return on every dollar, provided, of course, the 
surplus is continuing. We might want to get into that.
    The budget request that will be considered for the 
Congressional Budget Office for the Fiscal Year 2002 is $30.7 
million. This is an increase of $2,250,000 or 7.9 percent above 
the enacted level and includes a request to increase the FTEs 
from 228 to 232. I know, Mr. Crippen, your statement has been 
prepared and submitted. We can go directly into questions 
unless there is some comment you would like to make.
    [The prepared statement of the Director of the 
Congressional Budget Office follows:]

[GRAPHIC] [TIFF OMITTED] T5248A.094

[GRAPHIC] [TIFF OMITTED] T5248A.095

[GRAPHIC] [TIFF OMITTED] T5248A.096

[GRAPHIC] [TIFF OMITTED] T5248A.097

[GRAPHIC] [TIFF OMITTED] T5248A.098

[GRAPHIC] [TIFF OMITTED] T5248A.099

[GRAPHIC] [TIFF OMITTED] T5248A.100

[GRAPHIC] [TIFF OMITTED] T5248A.101

[GRAPHIC] [TIFF OMITTED] T5248A.102

[GRAPHIC] [TIFF OMITTED] T5248A.103

[GRAPHIC] [TIFF OMITTED] T5248A.104

[GRAPHIC] [TIFF OMITTED] T5248A.105

[GRAPHIC] [TIFF OMITTED] T5248A.106

[GRAPHIC] [TIFF OMITTED] T5248A.107

[GRAPHIC] [TIFF OMITTED] T5248A.108

                        SALARY BUDGET AND FTE's

    Mr. Taylor. Your salary budget increase is $2 million, or 
89 percent of your total requested increase. This amount 
includes four additional FTEs and you state in your 
justification that your funding increase is explained by your 
need to remain competitive. With such a tight labor market, how 
realistic is your goal of reaching your full complement of 232 
employees?
    Mr. Crippen. Mr. Chairman, we are quite confident. We have 
some interest now, and a number of offers have been extended, 
so I am quite sure we can productively use the 232. One thing 
we will have to do in some cases is lower our sights slightly. 
We have been able to hire only one Ph.D. Health economist, for 
example, so instead we are looking for folks who perhaps have 
different educational backgrounds but who have directly 
relevant experience. So we have had to change our target 
audience a little bit, but we are continuing to try to compete 
with both the Fed and the World Bank for Ph.D. economists which 
is an ongoing challenge.

                     MOVING BUDGET DATABASE SYSTEM

    Mr. Taylor. Funding has been requested to design and 
implement a new database for tracking the Federal budget. You 
state that the current database must be moved from the House 
mainframe before fiscal year 2001 . What plans have you made 
for relocating and what are your estimates of the redesign 
costs?
    Mr. Crippen. The House Information System has decided to 
discontinue the use of its mainframe computer, so we are forced 
to go look elsewhere. It is not all bad news, however, because 
we have found another contractor, the Department of the 
Interior to be precise, which actually will charge us less than 
the House Information System did for use of its mainframe 
services. And during that interval, we propose to redesign the 
system and essentially bring it back inside CBO to run on our 
own servers and our own computer equipment. The cost of that in 
a gross sense is about $550,000, more or less, over a couple of 
years, but ultimately over 2 years, we will save enough both 
from moving the database function to Interior and bringing it 
back in-house that essentially it will pay for itself in 2 
years.

                        QUESTIONS FOR THE RECORD

    Mr. Taylor. I have a few other questions that I will submit 
to you to be answered for the record.
    [The questions and responses follow:]
                     student plan repayment program
    You are requesting authority to establish a program under which CBO 
may repay, by direct payments on behalf of the employees, all or a 
portion of any student loan previously taken out by such employee.
    Question. Would you explain this program and what is your 
anticipated total cost of the education loan pay off program?
    Answer. Since 1990, executive branch agencies have been authorized 
to repay on behalf of employees a limited amount of their student 
loans. 5 U.S.C. 5379. The Office of Personnel Management plans to 
implement the statute this year. The requested provision would 
authorize CBO, within available appropriations, to repay student loans 
with the same limited caps as required by the statute governing the 
executive branch. If an employee violates his or her agreement to 
remain with CBO for an agreed period of time or is removed because of 
misconduct, reimbursement of CBO's student loan repayments would be 
credited to the then available appropriation.
    We wish to have this authority in case it could become an important 
recruiting tool. We would expect to implement this program as a 
recruiting tool for highly trained specialists whom we now have 
difficulty attracting, and we would limit its use. The scale of the 
program we envision is illustrated by the following example. If you 
assume that five new recruits per year fell into this hard-to-hire 
category and that they were offered this benefit with the loan 
repayment limited to $5,000 per year for a total of 5 years, then the 
impact on CBO's appropriation would be as follows:

Year 1........................................................   $25,000
Year 2........................................................    50,000
Year 3........................................................    75,000
Year 4........................................................   100,000
Year 5 and after..............................................   125,000
                    --------------------------------------------------------------
                    ____________________________________________________

Five-year total...............................................   375,000

    Question. Are you sure that another $6,000 a year will help that 
much in recruitment? And, isn't such a program putting you at a 
disadvantage with those graduates who do not have loans and thus 
wouldn't benefit?
    Answer. In some cases, this recruiting tool may be critical for us 
to attract and retain the highly specialized expertise necessary to 
perform our mission. If granted, it would become one of several tools 
we would be able to choose from. For example, if we were trying to 
recruit a graduate who had no student loans but who lived on the West 
Coast, then we could offer a recruitment bonus to help him or her 
offset moving expenses. On the other hand, a recent graduate with a 
large education-related debt might find this program particularly 
attractive.
    Question. Would you be better off offering higher salaries?
    Answer. Offering higher starting salaries, rather than a one-time 
signing bonus or several years of loan offsets, would eventually drive 
up all analyst salaries at CBO and could cost a great deal more over a 
period of years by permanently raising the pay base upon which future 
COLAs and merit increases are calculated.
    Question. What happens if an employee takes advantage of this and 
then leaves CBO for another office in the legislative branch, or the 
executive branch?
    Answer. The statute authorizing executive branch agencies to pay 
student loans requires that the recipient agree to repay the agency if 
he or she takes any other job within 3 years (or a longer period that 
the agency specifies), but the agency paying the student loans has the 
discretion to not require repayment if the employee takes a job with 
another agency. Our language would allow us to adopt this provision or 
modify it--our language says that the CBO Director may adopt such 
portions of the executive branch statute as the Director determines 
necessary.
    Question. Is there a reimbursement provision?
    Answer. The regulations promulgated by CBO to implement this new 
authority would certainly include a reimbursement provision. It would 
likely state that CBO may require the reimbursement of the agency's 
student loan repayments if an employee violates his or her agreement to 
remain with CBO for an agreed period of time or is removed because of 
misconduct. We could still waive such reimbursement if, for example, an 
employee left for another position in the executive branch.
    Question. Are you at risk by implementing this proposal on a spot 
basis, wouldn't we be better off with legislative branch-wide 
authorization? After all, don't such on-the-spot changes in law make it 
difficult for CBO to do effective cost estimates?
    Answer. We understand that several other legislative branch 
agencies already have the authority under the executive branch act, so 
our request for CBO's authority in part anticipates competing with 
those agencies for new recruits. Providing this authority in a 
legislative-wide provision would certainly meet our needs. If the new 
authority is provided in an appropriation bill, it is no more difficult 
for CBO to score the outlays for one agency than for all of the 
agencies in the legislative branch.
                              cost savings
    Your justification reflects that you realized nearly $400,000 in 
annual operating cost savings. You further state that your goal is to 
continue to identify operational cost savings.
    Question. Have you identified any additional savings and could 
those savings be shifted to fund your additional FTE requirement?
    Answer. The additional costs savings that have been identified and 
which will continue into fiscal year 2002 have already been used to 
fund some of the development effort to move our Budget Analysis Data 
System from off-site mainframes to a server based in CBO. That is to 
say, they have already been devoted to other purposes and have been 
taken into account in our budget request.
                          procurement process
    One of your efforts for the coming year is to streamline your 
procurement process. You currently utilize the financial system of the 
Library of Congress, which has a procurement component.
    Question. Will you be investigating the possibility of using that 
system, which is already tied to the financial system?
    Answer. One of the steps already taken to improve our procurement 
process was our recent implementation of the Library of Congress's, 
automated procurement program. It is a component of the financial 
management system that the library provides under our current 
interagency agreement.
                             reprogrammings
    For the record, insert all reprogramming documents submitted to and 
received from the Committee.

[GRAPHIC] [TIFF OMITTED] T5248A.109

[GRAPHIC] [TIFF OMITTED] T5248A.110

                          SURPLUS PROJECTIONS

    Mr. Taylor. Since we are going to the floor with the 
transportation legislation a little later I must ask you the 
question about what are your current tax surplus projections 
and how do they compare with those that we had in January? We 
have all been hearing what is going to happen. We want to see 
what your thoughts are.
    Mr. Crippen. We are interested as well. We just started, 
Mr. Chairman, the process a couple weeks ago that we go through 
to update our reporting. The report we will issue in August, 
which is a typical time frame for us. Our economic advisors 
from around the country were in 2 weeks ago, and we will now 
refine in the next week or so our economic forecasts and start 
determining what the budget implications are.
    We have noted, as is obvious in the Monthly Treasury 
Statement and other sources, that corporate tax collections are 
down somewhat over what we had expected. This is also true for 
personal withholding, but that decline is less certain and more 
variable. So in the Analysis of the President's Budget we 
produced a month ago, we reduced the amount of corporate taxes 
we expected for the upcoming tax year by about $20 billion.
    On the other hand, outlays are running below what we had 
projected as well. So all in all, and most of what I am telling 
you appeared in our Analysis of the President's Budget--what we 
have seen so far doesn't change dramatically in either the 
short run or long run. My guess is--but it is only a guess at 
this point--as others have conjectured as well, that our 
revenue projections will be down a bit more, come August, for 
the next fiscal year, too; but the long-run estimates will stay 
pretty much where they are.
    That is not to say there will actually be $5.6 trillion 
surplus, which is the 10-year total that you hear a lot about, 
but we haven't seen any evidence that the productivity 
increases we have seen over the last few years are going away. 
So we have no reason at this point to change the long-term 
estimates. The obvious softness in the economy will cause some 
diminution in revenue over the next year or two, but we think 
not in a major way as we work through this.
    Over the month of July, we will get precise numbers for our 
mid-session review, but at the moment, as I say, it doesn't 
look as if the on-budget surplus, for example, which is what we 
are all focused on the moment, for the next year will go away. 
You'll have the room that the budget resolution provides, 
certainly plus some, to work in.
    Mr. Taylor. Well, then, you feel that the $1.3 trillion tax 
reduction and the $2 trillion budget reduction planned over the 
10-year period is on track and would not be disturbed 
precipitously, and that would still give you an adequate 
spending budget?
    Mr. Crippen. I would certainly agree with that for 2002, 
which is the year you are currently working on. The 2003-4 time 
period looks to be a little tighter. That is not to say there 
will be no on-budget surpluses, but they could be in single-
digit billions, plus or minus, because of the pattern of both 
the tax cuts and spending. But for 2002, it looks to be 
comfortable, and hopefully by then, the economy will have come 
back, and we will be in good shape for the future years. But 
right now, 2003 and 2004 are certainly close--if you want to 
draw a line around both Social Security and the hospital 
insurance trust funds--then we are getting close to that line 
in 2003 and 2004.
    Mr. Taylor. Those of us, in my district, who are anxious 
and appreciative of the tax reductions will be feeling more 
assured, and we appreciate that. And those of us who want to 
continue to reduce the debt will feel then, especially in the 
protections of Social Security and Medicare, will feel secure. 
It will just be up to Congress to stay within our spending 
limits, so that we do not create problems for ourselves.
    Thank you very much for your appearance today and we 
appreciate your good job.
    Mr. Crippen. Thank you, sir.
    Mr. Taylor. The committee will be in recess now, subject to 
the call of the Chair. Also, I have some questions that Mr. 
Hoyer has submitted to be answered for the record.
    [The questions for the record from Mr. Hoyer and the 
responses follow:]
           QUESTIONS FOR THE RECORD SUBMITTED BY STENY HOYER
    Question. Some argue that Congress should fund your education fund. 
You obviously believe it could be successful as you have proposed to 
structure it. How much money are you talking about?
    Answer. In the first year, CBO could effectively use $350,000 to 
carry out the activities under the new authority. This amount would 
fund six to eight highly specialized educational conferences attended 
by CBO employees and other legislative branch analysts; one highly 
competitive fellowship for an academic economist to perform targeted 
research while in residence at CBO; and one or two CBO employees' 
pursuit of long-term training or development work experience expected 
to benefit economic or budget-related work essential to CBO in 
accomplishing its mission. If successful, and deemed cost-effective, 
the program could grow modestly over a 5-year period by perhaps 5 
percent per year in financial terms.
    Question. Who might contribute to such a fund, and why?
    Answer. Potential contributors would be major philanthropic 
organizations that have an interest in strengthening the quality of 
public policy analysis and developing better public finance and budget 
concepts. Possible examples might be the Ford Foundation or the Robert 
Wood Johnson Foundation, which have long supported research and 
advances in public policy education and methodology. The motivation 
would likely be to improve the quality of advice and analytical support 
that the Congress receives in the legislative decisionmaking process.
    Question. Can you imagine rejecting some gifts or bequests?
    Answer. Certainly, a grant or gift provided for a purpose deemed 
inconsistent with CBO's core mission or the agency's reputation for 
independence would not be considered.
    Question. The education program would allow what might be called 
``externships'' for CBO staff in other agencies or governments, or even 
the private sector. Where might CBO employees go and what benefits 
might you anticipate the agency might realize from putting CBO staff in 
such placements?
    Answer. We can envision a sojourn to the Federal Reserve Board for 
a CBO macroeconomist, an assignment with an academic research 
department specializing in public finance for one of our financial 
economists, or a return to academia for specialized training for one of 
our economists who specializes in a particular subject area. Such 
arrangements would allow staff to update their methodological or 
subject matter knowledge or to pursue a specific research topic 
critical to our future work, and to do so in an environment enriched by 
colleagues working on similar topics.
    Question. Over 75 percent of the additional funds you are 
requesting for 2002 will be used for salaries and benefits. Do these 
increases reflect your efforts to keep your salary levels competitive?
    Answer. Our mandatory pay and benefit increases are directly 
related to the continuing challenge of recruiting and retaining the 
talented and diverse workforce needed to fulfill CBO's mission. 
Addressing these concerns has increased our entire pay scale in recent 
years and has led us to provide new benefits such as bonus authority. 
Examples of our more difficult recruitment and retention situations 
include these:
    1. To fill certain of the critical skills, particularly in the 
health area, we have turned to hiring very experienced midcareer 
analysts who command much higher salaries. Last year, we were unable to 
hire a new Ph.D. health economist after interviewing many candidates 
and making six offers. In the last two years, we have been able to hire 
only one Ph.D. macroeconomist and just one Ph.D. tax economist.
    2. Competition for new graduates from economics, public policy, and 
public administration schools is fierce. For example, we have had to 
raise offering salaries significantly for new M.P.A.s (roughly 30 
percent) since 1998.
    3. We have also been losing some of our most talented younger staff 
and, in their first several years, have been trying to increase merit 
pay for analysts whose pay has traditionally lagged behind that of 
their peers with similar jobs in the executive branch.
    Question. About 25 percent of your mandatory increase is for 
personnel benefits. What factors are driving these costs?
    Answer. Almost half of that increase is related to a shift in our 
workforce to younger employees with less government service. These 
employees are covered by the newer retirement plan, which costs CBO 
twice as much as the CSRS. This shift is expected to continue at a rate 
of about 3 percent per year as more CBO employees retire and are 
replaced. The other large item in this category is the additional cost 
for the resurgence of health insurance premium increases.
    Question. In your request, you outlined cost savings of nearly 
$400,000 that would help offset inflationary and other operating 
increases. How have you achieved these savings?
    Answer. Broadly speaking, we have gone through all of our 
potentially controllable expenses to look at whether we can reduce 
them. For example, by culling our mailing lists we reduced postage and 
printing costs. By analyzing our phone costs, we identified unneeded 
phone lines, substituted new phone cards for higher priced calling 
cards, and tightened our policy on who arranges phone service. We also 
looked at maintenance contracts, software licenses, and subscriptions 
for periodicals and eliminated those that we no longer needed or that 
were not cost-effective. Another example is our efforts to move more of 
our publishing and distribution to the Internet, while reproducing more 
documents in-house.
                                          Wednesday, June 27, 2001.

                     U.S. HOUSE OF REPRESENTATIVES

                               WITNESSES

HON. JAY EAGEN, CHIEF ADMINISTRATIVE OFFICER
TIMOTHY CAMPEN, DIRECTOR, HOUSE INFORMATION RESOURCES
HON. JEFF TRANDAHL, CLERK OF THE HOUSE
HON. WILSON S. LIVINGOOD, SERGEANT AT ARMS

                           Opening Statement

    Mr. Taylor. Good morning. The subcommittee will come to 
order.
    We will begin our hearings now and take up the budget 
request for the House of Representatives. The House budget 
request totals $882 million; that includes funds for the 
operation of the Member offices, committees, leadership, and 
the administrative operations of the House.
    We want to welcome the officers of the House who are with 
us today: Jeff Trandahl, Clerk of the House; Wilson Livingood, 
the Sergeant-at-Arms, who will join us in a few minutes, and 
Jay Eagen, Chief Administrative Officer.
    We also have with us today Geraldine Gennet, the House 
General Counsel; John Miller, the House Law Revision Counsel; 
M. Pope Barrow, Jr., the House Legislative Counsel; and Steve 
McNamara, the House Inspector General.
    Mr. Eagen has prepared the House budget for the President's 
budget submission and will lead the formal presentation to the 
subcommittee.
    We have all your prepared statements. They have been given 
to the subcommittee, and we will print them in the record.
    [The statements of Mr. Eagen, Mr. Trandahl, Mr. Livingood, 
Ms. Gennet, Mr. Miller, Mr. Barrow, and Mr. McNamara follow:]

[GRAPHIC] [TIFF OMITTED] T5248B.001

[GRAPHIC] [TIFF OMITTED] T5248B.002

[GRAPHIC] [TIFF OMITTED] T5248B.003

[GRAPHIC] [TIFF OMITTED] T5248B.004

[GRAPHIC] [TIFF OMITTED] T5248B.005

[GRAPHIC] [TIFF OMITTED] T5248B.006

[GRAPHIC] [TIFF OMITTED] T5248B.007

[GRAPHIC] [TIFF OMITTED] T5248B.008

[GRAPHIC] [TIFF OMITTED] T5248B.009

[GRAPHIC] [TIFF OMITTED] T5248B.010

[GRAPHIC] [TIFF OMITTED] T5248B.011

[GRAPHIC] [TIFF OMITTED] T5248B.012

[GRAPHIC] [TIFF OMITTED] T5248B.013

[GRAPHIC] [TIFF OMITTED] T5248B.014

[GRAPHIC] [TIFF OMITTED] T5248B.015

[GRAPHIC] [TIFF OMITTED] T5248B.016

[GRAPHIC] [TIFF OMITTED] T5248B.017

[GRAPHIC] [TIFF OMITTED] T5248B.018

[GRAPHIC] [TIFF OMITTED] T5248B.019

[GRAPHIC] [TIFF OMITTED] T5248B.020

[GRAPHIC] [TIFF OMITTED] T5248B.021

[GRAPHIC] [TIFF OMITTED] T5248B.022

[GRAPHIC] [TIFF OMITTED] T5248B.023

[GRAPHIC] [TIFF OMITTED] T5248B.024

[GRAPHIC] [TIFF OMITTED] T5248B.025

[GRAPHIC] [TIFF OMITTED] T5248B.026

[GRAPHIC] [TIFF OMITTED] T5248B.027

[GRAPHIC] [TIFF OMITTED] T5248B.028

[GRAPHIC] [TIFF OMITTED] T5248B.029

[GRAPHIC] [TIFF OMITTED] T5248B.030

[GRAPHIC] [TIFF OMITTED] T5248B.031

[GRAPHIC] [TIFF OMITTED] T5248B.032

[GRAPHIC] [TIFF OMITTED] T5248B.033

[GRAPHIC] [TIFF OMITTED] T5248B.034

[GRAPHIC] [TIFF OMITTED] T5248B.035

[GRAPHIC] [TIFF OMITTED] T5248B.036

[GRAPHIC] [TIFF OMITTED] T5248B.037

[GRAPHIC] [TIFF OMITTED] T5248B.038

[GRAPHIC] [TIFF OMITTED] T5248B.039

[GRAPHIC] [TIFF OMITTED] T5248B.040

[GRAPHIC] [TIFF OMITTED] T5248B.041

[GRAPHIC] [TIFF OMITTED] T5248B.042

[GRAPHIC] [TIFF OMITTED] T5248B.043

[GRAPHIC] [TIFF OMITTED] T5248B.044

[GRAPHIC] [TIFF OMITTED] T5248B.045

[GRAPHIC] [TIFF OMITTED] T5248B.046

[GRAPHIC] [TIFF OMITTED] T5248B.047

[GRAPHIC] [TIFF OMITTED] T5248B.048

[GRAPHIC] [TIFF OMITTED] T5248B.049

[GRAPHIC] [TIFF OMITTED] T5248B.050

[GRAPHIC] [TIFF OMITTED] T5248B.051

[GRAPHIC] [TIFF OMITTED] T5248B.052

[GRAPHIC] [TIFF OMITTED] T5248B.053

[GRAPHIC] [TIFF OMITTED] T5248B.054

[GRAPHIC] [TIFF OMITTED] T5248B.055

[GRAPHIC] [TIFF OMITTED] T5248B.056

[GRAPHIC] [TIFF OMITTED] T5248B.057

[GRAPHIC] [TIFF OMITTED] T5248B.058

[GRAPHIC] [TIFF OMITTED] T5248B.059

[GRAPHIC] [TIFF OMITTED] T5248B.060

[GRAPHIC] [TIFF OMITTED] T5248B.061

[GRAPHIC] [TIFF OMITTED] T5248B.062

[GRAPHIC] [TIFF OMITTED] T5248B.063

[GRAPHIC] [TIFF OMITTED] T5248B.064

[GRAPHIC] [TIFF OMITTED] T5248B.065

[GRAPHIC] [TIFF OMITTED] T5248B.066

[GRAPHIC] [TIFF OMITTED] T5248B.067

[GRAPHIC] [TIFF OMITTED] T5248B.068

[GRAPHIC] [TIFF OMITTED] T5248B.069

[GRAPHIC] [TIFF OMITTED] T5248B.070

[GRAPHIC] [TIFF OMITTED] T5248B.071

[GRAPHIC] [TIFF OMITTED] T5248B.072

[GRAPHIC] [TIFF OMITTED] T5248B.073

[GRAPHIC] [TIFF OMITTED] T5248B.074

[GRAPHIC] [TIFF OMITTED] T5248B.075

[GRAPHIC] [TIFF OMITTED] T5248B.076

[GRAPHIC] [TIFF OMITTED] T5248B.077

[GRAPHIC] [TIFF OMITTED] T5248B.078

[GRAPHIC] [TIFF OMITTED] T5248B.079

[GRAPHIC] [TIFF OMITTED] T5248B.080

[GRAPHIC] [TIFF OMITTED] T5248B.081

[GRAPHIC] [TIFF OMITTED] T5248B.082

                    improvement of computer network

    Mr. Taylor. Mr. Moran, do you have a statement?
    Mr. Moran. Thank you, Mr. Chairman.
    I think the 2002 allocation is realistic and reasonable. We 
do have some aging infrastructure that we need to be concerned 
about. There are some lingering personnel issues, as there 
probably always will be. And I think we need to talk about 
continuing the efficiencies that we can achieve through 
information technology.
    But I have no axes to grind on this, and I am anxious to 
hear from the witnesses.
    Thank you, Mr. Chairman.
    Mr. Taylor. Thank you, Mr. Moran.
    We will proceed directly with the questions unless you 
gentlemen have something that you would like to say.
    Mr. Eagen. Mr. Chairman, we submitted our statements for 
the record.
    Mr. Taylor. All right.
    We will start the questions. What are your plans for 
improving the computer network between Members' Washington and 
district offices? My offices run from Washington to Asheville, 
and out to other areas far beyond those.
    Mr. Eagen. Thank you, Mr. Chairman.
    I have the Director of House Information Resources with me 
today, Tim Campen, who is prepared to talk about plans that 
H.I.R. has for those networks.
    Mr. Campen. We have several programs we are putting in 
place, specifically to address the district office 
communications. One of these expands the communications channel 
to the primary district office of each member to 256 kilobits, 
as opposed to 56K, as it is now. That is H.I.R. funded, so as 
we improve our infrastructure on this end over the next 4 or 5 
months, we will be able to add all the Member offices, the 
Member district offices to bring them up to the faster 
bandwidth and higher connection speed.
    Mr. Taylor. How will you handle the bandwidth in rural 
areas, where it is almost nonexistent? Maybe T-1 if they have 
that.
    Mr. Campen. The problem we run into is the classical, last-
mile problem. If you think of the Internet as the interstate 
highway system, once you get on it you can go 65 miles an hour, 
but you have to be able to get to it.
    What we are addressing now is the driveway problem: How do 
we hook you up?
    There are several things: DSL, different types of 
communications that hold a certain amount of promise that we 
have a pilot going on, testing some of these technologies, but 
it is an emerging technology.
    The telephone companies sort of oversold their 
capabilities, so right now what we are going to do is improve 
the connection to all the primary district offices, you will 
see a four times improvement to what you are getting right now 
in the district offices.
    Mr. Taylor. If there is an effort in the community to 
upgrade their bandwidth, is there any way we can join? For 
instance, you set aside X-amount of dollars; can we put our 
money with them to upgrade?
    Mr. Campen. I think we would have to understand what those 
local initiatives were. And there may well be opportunities for 
technology sharing if there is a local initiative that is going 
to improve the connectivity to different communities. Maybe we 
could leverage on that, sir.

                    campus data network improvements

    Mr. Taylor. What plans are under way to upgrade our campus 
data network to allow Members the option of video greetings on 
their individual Web sites?
    Mr. Campen. We have a program in place that we started with 
last year's reprogramming money to replace all the routers and 
switches, to upgrade them from an asynchronous transfer mode 
to--``GIGETHER'' is the terminology used for the new, faster 
connection; and we are putting that infrastructure in place.
    We will be putting that infrastructure in place over the 
next year, which will significantly improve the performance of 
the desktop in all the Member and staff offices and will allow 
those technologies--as you suggest, video streaming and radio 
streaming--into the offices.
    Mr. Taylor. We will try to work with the other committees 
and the other initiatives that are going on around the country 
so as not to be making separate plans, if we can, but I think 
that would be the policy.

                     government credit card charges

    Let me ask a question. Why can't the Finance Office 
directly pay Government credit card charges incurred by 
Members?
    Mr. Eagen. Mr. Chairman, we have a program now with 
Citibank that provides the credit cards that the Member offices 
and the Members use. The Committee on House Administration has 
asked this same question. Our program with Citibank expires in 
November. We are researching to see if there is a way to have 
that restructured.
    Right now, there are some specific terms in the agreement 
that each cardholder signs that appear to make some references 
that might preclude that. And, as well, the Committee on House 
Administration has specifically put this policy into the 
Members and staff handbook that says the Member, the 
cardholder, is personally liable and responsible for paying 
those bills. So we are studying that and seeing if there is 
another way to restructure it to create the convenience that 
you suggest would be helpful.
    Mr. Taylor. We are responsible now. If we use our American 
Express Card the Government rate cannot be obtained. Without a 
Government credit card, or going through a travel agency the 
Government rate is not available. If you have the type of 
schedules we have, trying to change flights, results in lost 
savings, because we cannot get the government rates. Is there a 
way that we could get greater flexibility.
    Mr. Eagen. I think we can work with the General Services 
Administration to see if there is not a way to improve that, as 
well, so that you do not have that inconvenience occurring when 
you travel.
    Mr. Taylor. I am going to stop and give the other members a 
chance to ask some questions. Then I will come back with some 
other questions later.
    Mr. Moran.
    Mr. Moran. I will defer to Steny, the ranking member on 
House Administration.
    Mr. Taylor. Sure.

                          cao literacy program

    Mr. Hoyer. Thank you, Mr. Chairman, and you, Mr. Moran.
    First of all, Jay, I want to compliment you on your 
literacy program. I think it would be interesting for the 
subcommittee to hear about that and how that started and how it 
is working.
    Mr. Eagen. Well, I would like to take credit for it 
personally, but I have to give credit to a couple of employees 
who suggested it. We were approached about a year ago by some 
of our folks who work in our Labor Division, the folks that 
deliver furniture and move the House's inventory around, asking 
for ways to explore some education programs to allow them to 
upgrade their personal skill sets. We were interested in doing 
that, and the interest was having a literacy program for the 
folks that can't read. And we approached the Washington 
Literacy Council, a private, nonprofit program, that has 
literacy programs.
    They came in, and we solicited volunteers in our workforce 
as tutors. They trained our tutors and also tested the students 
to see what level of reading they were at and gave us a 
pedagogical--a phonics-based program. We have CAO employees 
teaching some of their colleagues in literacy.
    It is going to take us a while. The program is a multiyear 
program, but from a certain reading level to full reading 
level. The next phase that we are exploring is a GED program 
for some of our folks that do not have high school diplomas.
    Mr. Hoyer. Mr. Chairman, Mrs. Bush is interested in adult 
literacy and all of us have been hearing ads on television 
about how many adults are not fully literate and what a problem 
that causes them as they strive to participate fully in 
society.
    Jay, I congratulate you and the employees for this program. 
It is very positive and one that I am a big fan of.

                    House Copy Center Possibilities

    The Senate Sergeant at Arms has a copy center for large 
jobs. Are we contemplating the House doing anything like that?
    Mr. Eagen. We explored an alternative approach last year to 
do more than just a copy center, but also to explore expanding 
the kinds of graphics, computer graphics services, that we 
offer. We right now have an in-house computer graphics service. 
We have it staffed with three or four people, and we think 
there is more business there.
    We got a surprising result. We put out a request for 
proposals on the Internet, Commerce Business Daily; and the 
feedback we got from a number of businesses was that they did 
not think the market was big enough to justify the investment 
that would be necessary.
    I think you are right. We have to take a look at how to 
provide that kind of service, whether it is in-house or--we do 
understand that there is somewhat of an issue relative to title 
44, and what printing can be done and whether it is mass 
printing that has to be done by the Government Printing Office. 
It may be that you can help us sort through some of the legal 
and statutory barriers there.

           House Restaurant Profits and Customer Satisfaction

    Mr. Hoyer. Regarding the House restaurants, how are we 
doing on that vis-a-vis profit? And also discuss the customer 
satisfaction survey that I understand is being proposed.
    Mr. Eagen. We have two contracts with--one with Guest 
Services Incorporated for the main House office buildings and a 
separate contract for the Ford Building. There are two separate 
contracts. I think you are referring primarily to Guest 
Services.
    The contract requires that they pay the House a percentage 
of sales, 1.5 percent. They paid the House about $623,000 in 
the little over 3 years that they have been contracting. 
Financially, they planned that their first year would be an off 
year to set up the operation. And, in fact, they lost $460,000. 
The second year they made about $20,000. And last year they 
lost $120,000.
    The contract provided that Guest Services would invest $1.4 
million in House infrastructure. So a good chunk of the 
improvements in what is now the food court, that used to be the 
Longworth cafeteria; the upgrades to the Cannon carryout; the 
upgrades to the Rayburn deli, a large chunk of that was paid 
for by Guest Services.
    Mr. Hoyer. You have proposed a customer service 
satisfaction survey. Is Guest Services paying any of that?
    Mr. Eagen. No, we want that to be an independent survey 
done by a professional firm, telling us what the customers 
think, not what the contractor wants us to think.
    Mr. Hoyer. I would be very interested, and I am sure the 
subcommittee would, in those results. I have for many years 
been concerned about the level of service and the quality of 
food. It is a continuing battle, because it is not really a 
profitable operation in many ways because of the hours that we 
keep and the lack of continuity of demand. So I understand it 
is difficult.
    Mr. Chairman, my time is up. I will ask some additional 
questions later. Thank you.

              Adjusting Members Representational Allowance

    Mr. Moran. Mr. Chairman, if I could, Congressman Boucher 
has brought up an issue that I think is shared by some other 
Members, and that is the issue of adjusting the Members' 
representational allowance. He has to travel, for example, to 
southwest Virginia, and the cost of airfare is two to three 
times what it is to Los Angeles, even though it is much closer.
    And I don't know what the situation is for you, Charles, or 
you, Zach; but I think there is an issue with regard to the 
availability of flights to rural areas where the passenger 
traffic is not that much. And so they are wondering whether 
there can be any adjustment to the compensation to reflect 
those airfares.
    And it is not something that affects me, obviously, since I 
live just across the river. But it sounds like they have a 
legitimate concern.
    Mr. Eagen. That kind of question has been raised a number 
of times in the past. The authority for--the formula for the 
authorization is actually established by the Committee on House 
Administration. And each year when the cycle comes along, you 
ask us for financial data, what the spending has been like, 
what the trends are; and the committee makes that call as to 
how the MRA formula and authorization should be adjusted.
    I will be happy to pass that along.
    Mr. Moran. Okay.
    I have a question here dealing with the fact that the 
average committee got a 13 percent increase, whereas 
Appropriations only got 11.7. But I would assume that if 
Appropriations wanted more, they would probably be the first 
ones to get more, wouldn't you?
    That is not the way the question was phrased. Let's just 
let that one lie there.

                           Bi-Weekly Payroll

    All right. One other question that there may be a quick 
answer to it. Have you considered biweekly paychecks?
    Mr. Eagen. We have. That is a timely topic. We are in the 
process of seeking final approval on replacing the House 
payroll system, and frankly, one of the key topics of 
consideration in that--was whether to stay with the current 
monthly or to go to a biweekly similar to what the executive 
branch does. The recommendation at this point is to stay with 
the monthly.
    We talked to a number of staff, the Committee on House 
Administration did the same, and it seemed to be almost 50-50, 
right down the middle, from employees as to whether they like 
the way it is or whether they wanted to go to the biweekly. It 
is like running for election, you are going to please 50 
percent and not please 50 percent.

                        transit benefit program

    Mr. Moran. How about the transit vouchers? Have you thought 
about bringing it up to the full authorized level?
    Mr. Eagen. It is something that the Committee on House 
Administration makes the final determination on. There have 
been discussions about raising it.
    Mr. Hoyer. Will the gentleman yield?
    We are going to be discussing that. I have discussed it 
with Bob Ney. As Jay said, we are trying to determine the 
appropriate level. We are trying to make sure that the 
legislative employees have what the executive branch----
    Mr. Eagen. There was an expansion of the benefit this year. 
Because the subsidy is pretax, as well, it does give some 
employees the full allotment.
    Mr. Taylor. Mr. Wamp.

                    cao organization accomplishments

    Mr. Wamp. I don't want to take anything away from the very 
good job that many do, but I want to shine a light just a 
minute on what Jay Eagen actually has done. I think the CAO is 
at the cutting edge of so many breakthroughs. And I think about 
my 5 years on the subcommittee and 7 years in the House. With 
H.I.R., and their willingness--it is almost a corporate 
mentality that his office is going to be cutting edge.
    We have seen firsthand, because my office is willing to go 
into these new territories with you, exactly how good 
Government can come about and how we serve our people really 
well. I appreciate you pushing the envelope and trying to stay 
ahead of the rest of the country.
    And when people talk to me about information technology 
back home, they are always surprised that the House is as up to 
speed as we are and that we have the ability to communicate and 
handle e-mails. We can internally audit ourselves and clean up 
the House, so to speak. And that has happened over the last 6 
years. I just really appreciate it.
    My office and my staff appreciate it. And I can't say 
enough good things about how you do what you do.
    And it kind of reminds me of CRS, because those two 
institutions seem to always be out ahead of the rest of our 
operations here. And there are some that lag way behind, and I 
am going to get to the Superintendent's office in a little 
while, because they are almost still in the Dark Ages compared 
to many of our institutions in the House.
    But, Jay, thank you for what you do. I really do not have 
any questions unless you have got any crystal-ball predictions 
on where we go next. But I really do appreciate you really 
giving us the image and the reputation for being cutting edge 
and having almost a corporate, bottom-line, for-profit kind of 
competitive position for the House in the real world. Your 
willingness to go to places that the corporations in this 
country are going to, so that we can stay on edge is most 
appreciated.
    So thank you very much.
    Mr. Eagen. Thank you, Mr. Wamp. We appreciate that.
    I would simply turn it back to say that the support that 
this committee and House Administration Committee and 
leadership and Members have given us has given us an 
environment where we can try to do those things, to try to 
improve the services. Thank you.

                         customer satisfaction

    Mr. Wamp. One other thing I would ask, to get a feel. It 
seems like the longer I am here, the more I get caught in 
cross-fire personnel matters in a whole lot of different 
agencies and programs.
    In Food Services, where people always complain and in the 
parking garages, where the Sergeant at Arms always has some 
dispute raging do you all feel as leaders that this is the way 
it has always been? Do we have more complaints today than we 
ever have had? Or is this the way it is? The more senior you 
get, the more you hear about these things? Or sitting on this 
committee do you hear more about them?
    Or do we have more people trying to file lawsuits or trying 
to stake claims? Or is this the way it pretty much is in the 
real world, and we are no exception?
    Mr. Eagen. Well, I think it is probably like this in the 
real world, though my whole career has been here in the House. 
One thing I coach people that come here from the outside and 
come and work with me about is that the legislative way of 
making decisions sometimes can be interesting, and--because 
there are a lot of decision-makers that are part of the 
decision. So it sometimes is a challenge to talk to all of our 
people and make sure there is agreement, where you are going to 
go.
    Mr. Trandahl. I feel that is where we have really gone--I 
started up here in 1982, and I used to be involved in the 
Personnel Subcommittee of the Committee on House Administration 
before I became a House officer; and I really feel that 
everyone here collectively, Republican and Democrat, over the 
last 6 to 8 years has been trying to make huge strides to 
improve work environments and working conditions and 
professionalize a lot of the core functions and people who work 
here.
    We are all blessed, the three of us and the other officials 
that are here in the room, with good, solid career people who 
have been here a lot longer than many of us. I am approaching 
20 years, and I guarantee, probably a third of the people who 
work within the Clerk's organization have been on the Hill 
longer than I have. And I strive every day, just like Jay and 
Bill, to make our work environment better and better.
    I am disappointed, I guess, that you feel like you hear 
more and more, because I think we hear less and less, because 
we are maintaining more improvements. Every time you make an 
improvement, expectation goes higher. So we are here to learn 
and to try to take people's opinions into the process and see 
if we can better improve what we are doing.
    Mr. Livingood. I think that we get less complaints than we 
used to, at least from our divisions.
    And I think what we have tried to do--and I think I speak 
for all three, but I particularly speak for myself--is try to 
improve the professionalism of the organization. And when you 
do that, sometimes there are those that do not want to go along 
with the changes because to some--professionalizing it makes a 
difference, and there is change. Change is difficult.
    I think that we continue to look at management in our 
organizations and try to improve management in the 
organizations, and sometimes that is difficult. Sometimes you 
would like to go and do the right thing for everybody, not just 
for one or two or three. And I think that is the goal, to make 
the organization the best that we can be.
    Mr. Eagen. I think, just to add one last thing, the reason 
we want to do the customer satisfaction survey that Mr. Hoyer 
referenced earlier, is to go from the anecdotal to the factual 
and find out a broad spectrum of opinion about quality of 
services. Because sometimes you get it from five different 
sources, but you are not sure that is really reflective of the 
raw opinion of satisfaction with the quality of service.
    Mr. Trandahl. And the other side is that we now have a 
formal venue where people can bring complaints against us at 
the Office of Compliance, which previously did not exist 6 or 7 
years ago.
    Mr. Livingood. Previously people served at will, and you 
never heard the complaint because they were gone.
    Mr. Taylor. Mr. Sherwood.

                       network computer security

    Mr. Sherwood. Mr. Eagen, you have asked for $500,000 for 
operation and installation of a new House fire wall to protect 
the Internet from unauthorized access. How would you rate our 
network computer security, and do we have any data on the 
amount of unauthorized access attempts and other malicious 
activities?
    Mr. Eagen. We do have data, Mr. Sherwood. Last year, we 
installed a new intrusion detection system in July. From July 
to the end of the year that system denied access to 1.7 million 
unauthorized access attempts to House networks. That is really 
just one small piece of the infrastructure that we have. We 
have, at the desktop level, antivirus--we just bought a new 
antivirus that has been installed.
    Mr. Taylor. May I interrupt? You were hacked last year?
    Mr. Trandahl. We were hacked several times. The Clerk's Web 
site was once intruded. As soon as the intrusion occurred, it 
was detected and we were able to disconnect the system. We left 
it down at that point and went through the process of trying to 
determine how they got in and if there were further 
vulnerabilities, and we were back up the following day.
    Mr. Taylor. I was following up on Mr. Sherwood's question. 
I wanted to mention that and see if it covered all areas of 
access.
    Mr. Sherwood.
    Mr. Sherwood. I think it is absolutely essential that we be 
in the forefront on this. It is unacceptable for us to lag. And 
I commend you for your efforts in that. But if we cannot have 
the best communication, where are we going?
    And I was a little--the chairman's questions earlier about 
hooking up our district offices to have the same level is right 
on target, because we often do not have that now; and our 
people--things are too slow. And as you said, going from 54 to 
250 is a huge step forward, but 54 is like municipal. We are 
making a huge step forward; that is important.

                       vendor service improvement

    Is there anything that we can do to get a little improved 
service from our vendors? We just went through a big revamp of 
putting all of our new stuff in, and I guess that did not go as 
smoothly as we anticipated. Maybe that is unrealistic.
    Mr. Eagen. Your computer vendor?
    Mr. Sherwood. Yes.
    Mr. Eagen. We issued a Request for Proposals to all the 
computer vendors late last year and have received bids. We are 
looking to convert the way the vendors do business with the 
House from individual contracts with the Members and committees 
to a formal contract with the House. And part of that would be 
performance standards that will give us some teeth, that if a 
vendor is not performing satisfactorily, we have some means to 
go after them; whereas it is presently a distributed 
responsibility environment, which is very difficult for us to 
enforce.
    Mr. Sherwood. Being new and being woefully unfamiliar with 
how things are done here, I was accustomed to go out and get 
bids from the private sector; and my staff, they said, no, no, 
we have to do this in-house, and so we did. But that might take 
a little attention.
    Thank you very much.

                   historical services for the house

    Mr. Taylor. Mr. Trandahl, would you review the needs you 
have identified to properly provide historical services to the 
House of Representatives?
    Mr. Trandahl. Sure. As you may be familiar, previously the 
House had an Office of the House Historian. In January of 1995, 
when there was a change in the organization here, the Office of 
Historian was eliminated and the functions, merged into the 
Clerk's organization. At that point, we absorbed those tasks 
with existing FTEs within the Legislative Resource Center.
    In the Legislative Resource Center, in the last few years, 
we have redistributed people; and we have been able to put four 
positions in place in order to do a lot of the historical 
functions. In comparison to the Senate, they have a staff of 
about 12 people who do the functions of research and updating 
historical publications and keeping the official records and 
archives of the Senate. As well, they do the curatorial 
function. So in the Capitol building, on the Senate side, they 
have a very complete list and inventory of all the items, and 
all the artwork as well, within the Senate buildings.
    What I am trying to do in the next fiscal year here is to 
expand our historical activities to be comparable to what the 
Senate is doing, because at this point in time, the House is 
somewhat lacking in its ability to inventory and care for its 
artifacts in the Capitol, as well as in the office buildings.
    Mr. Taylor. I would hope to be superior to what the Senate 
is doing.
    Mr. Trandahl. Me, too.

                     progress on in-house printing

    Mr. Taylor. You have been tasked by this committee and the 
House Administration Committee to improve our in-house printing 
capacity. Would you outline the progress you have made?
    Mr. Trandahl. Absolutely. It ties in--the printing also 
ties in with what we call our document management system 
process and our XML SGML process. As you are familiar, in 1994, 
the first Docutech was purchased by the Clerk's organization. 
At that point, there was a lot of controversy between the GPO 
and the House in terms of what we would use it for. Title 44 
U.S.C. 501 clearly says that printing is done by GPO.
    We then worked with the Joint Committee on Printing and 
came up with an agreement or an understanding between GPO and 
the House relative to us using the Docutech for administrative 
publications and, as well, would use it for our supplemental 
copying needs of bills and reports, while we would still rely 
on the GPO to be the first printer of the official documents, 
rules, reports, and all the proceedings relative to the House.
    That has worked very well. However, we would still like to 
see Title 44 amended and changed by House Administration to 
give us even greater flexibility, because we have now built up 
the talent and capacity in-house in order to be able to take on 
more of a role.
    Mr. Taylor. Well, I certainly want to tell each of you, I 
appreciate the work that has been done over the years, not just 
during my chairmanship of this committee, but the difference 
from when I came here in 1991. What we have found and what has 
been accomplished in the last several years is commendable. It 
is not as exciting as foreign policy or other things of that 
nature, so it does not get the great press, but I would say it 
was a revolution as far as management and direction for the 
House and, ultimately, the success of the people's 
Representatives.
    Thank you very much.
    Are there other questions?

            private fund raising for capitol visitor center

    Mr. Hoyer. I have some.
    Jeff, what is the status of private fund-raising efforts 
for the Capitol Visitor's Center?
    Mr. Trandahl. The Architect will be appearing later today, 
but in summary, the Capitol Visitor's Center is estimated to 
cost $265 million. Of that, during the Supplemental 
Appropriations bill, $100 million was made available by the 
Appropriations Committee, as well as the Capitol Preservation 
Commission has on hand roughly $30 million.
    The Pew Foundation came forward 2 years ago and signed an 
agreement with the Capitol Preservation Commission--
specifically the Clerk and the Secretary of the Senate--in 
terms of setting up a 501(c)(3) fund that would go out and 
directly solicit private fund-raising. They have raised $35 
million to this date. Last week, they transferred the first 
installment over to the Capitol Preservation Commission of $5 
million.
    Mr. Taylor. The $35 million is in addition to the $30 
million that you mentioned earlier?
    Mr. Trandahl. Yes, $100 million, $30 million with the 
Capitol Preservation.
    Mr. Hoyer. There is a balance of $135 million; $35 million 
has been raised?
    Mr. Trandahl. Thirty-five million dollars has been raised, 
so we still need $100 million to get to $265 million.
    What has happened in the last month is that the fund itself 
and the board that oversees it have gone through dramatic 
restructuring. The chairman of the board has stepped down and a 
new chair has stepped forward. The president, who carries out 
the executive director functions at that fund, as well, has 
stepped down and we have a new one in place.
    We have seen a lot more activity in the last month within 
the fund than we have in the last year and a half. And we hope 
to see a lot of promise and, hopefully, successful fund-raising 
effort come together now, with the dramatic changes that have 
happened.
    At the same time, the agreement with them and the House and 
the Senate is that they will make a target of $100 million, 
hopefully by the point that construction begins.

              contingency plans for capitol visitor center

    Mr. Hoyer. Are there any contingency plans made so that we 
will not slow the construction of the Visitor's Center?
    Mr. Trandahl. There have been discussions relative to, if 
there is a shortfall, are there ways to contract in increments 
instead of a single contract. Should additional appropriated 
money be made available and possibly paid back by private fund-
raising? There have been a series of discussions.
    Mr. Hoyer. Mr. Chairman, just as an aside, I told the press 
this, and I mentioned this in the subcommittee.
    This is a public project; I think it ought to be funded 
with public funds. It is going to be used by all Americans and, 
indeed, international visitors from all over the world. It is 
an extraordinarily important facility both in terms of visitor 
accommodation and education of the American people as to what 
the Capitol is; and in terms of security.
    So while I do not object to the voluntary private-sector 
contributions, I think the progress of this project ought not 
in any way be contingent upon the success of private funding 
efforts.

                           new page dormitory

    What is the status of the dormitory for the pages?
    Mr. Trandahl. The pages' residence hall? Well, with great 
enthusiasm and thanks to this subcommittee, we are nearing 
completion of the renovation of the 501 First Street building, 
which will become the new pages' residence hall.
    Mr. Hoyer. Mr. Chairman, that is the former House child 
care center site.
    Mr. Trandahl. Right. And we are set at this point, 
construction schedules, and with Jay's folks' help, we are 
looking to begin our move in the first and second weeks of 
August. There have been some delays due to some contractor 
issues and weather and everything else. But we hopefully have a 
time line that everyone can adhere to in the next month and get 
the building completed on time.
    Mr. Hoyer. What is the completion date again?
    Mr. Trandahl. The move-in week will hopefully be the first 
week of August. The next summer page class leaves on Saturday, 
August 4.

                    capitol police at botanic garden

    Mr. Hoyer. I want to ask the Sergeant-at-Arms a question. 
There is talk of posting Capitol Police at the Botanic Garden, 
is that correct? What is your thought on that, particularly in 
light of the fact that we are not yet at the two officers-per-
entrance standard that was recommended by our security people 
after the murder of Officer Chestnut and Detective Gibson?
    Mr. Livingood. Yes, sir. I will speak from my feelings on 
that as a member of the Capitol Police Board.
    The past history of the Botanic Garden is that we were 
running less than $2,000 a year property loss, and no crimes of 
violence committed and no crimes against persons committed. So 
it is my intention as one member of the Capitol Police Board 
that we will continue patrol, as we did in the past, of the BG 
Gardens--and that is the Patrol Division patrolling it, coming 
in and looking around and checking it out. And we will continue 
to monitor the situation at the Botanic Garden and make 
adjustments as necessary.
    But right now, my strong feeling is that we need the two 
people at every door here.
    Mr. Hoyer. Again, are we at two-people-per-door?
    Mr. Livingood. No, sir, we are not.
    Mr. Taylor. We will be taking that up, and it raises some 
questions, whether we need two people on each door. Maybe some 
of the seven could be moved over. We will see how that goes.
    Mr. Hoyer. Thank you, Mr. Chairman. I know we have somewhat 
of a disagreement on that.
    Mr. Taylor. We reserved a whole day for that.
    Mr. Hoyer. I look forward to it, Mr. Chairman.

        further discussion on funding for capitol visitor center

    Mr. Taylor. On the funding for the Visitor's Center, I was 
a strong proponent of that; and I know 3 or 4 years ago, I 
couldn't manage to see how it would cost $100 million. Now the 
cost has gone up almost 300 percent. I am not sure your fund-
raising can keep up with the way the cost is going up. About 
100 percent a year.
    Mr. Hoyer. We better hurry and get it finished.
    Mr. Taylor. That is right. But we will be asking the 
Architect about that.
    Mr. LaHood, do you have any questions?
    Mr. LaHood. No, sir.
    Mr. Wamp. Before Mr. Livingood goes, are there any issues 
before we mark up this year? Does that require an Executive 
Session briefing for this committee like we have had in 
previous years? Is there anything pending that we need to air 
out before we pass the bill?
    Mr. Livingood. There may be in the Capitol Police area, 
sir.
    Mr. Taylor. We probably will have some, and security in the 
Capitol will be one.
    Mr. Livingood. Yes, sir.

                       contractors and deadlines

    Mr. Taylor. I was going to ask about the provision that we 
put in the bill last Congress about contracting penalties for 
failure to meet construction deadlines on contracts.
    Have you noticed that or have you used that in any way?
    Mr. Trandahl. I wonder if you are referring, Mr. Chairman, 
to the Architect in your construction contracting, and I would 
have to refer that back to the Architect. I know we have a 
penalty built in on the pages' residence hall, as well as sort 
of a bonus payment.
    Mr. Taylor. I was surprised a couple of years ago to find 
that we had no penalty clause in construction contracting. I 
mean, we did not pay any more, as far as having to pay the 
contractor more, but we found the construction could be dragged 
out for a long period of time which ultimately costs the 
taxpayers money; and we tried to sort of plug that loophole, 
and I wonder if there is anywhere else that you think that 
would be helpful.
    Mr. Trandahl. The precedent that I think that example came 
from was the Botanic Garden, and subsequently, we benefited 
because the pages' residence hall followed that experience. And 
so I think our contract at the moment is pretty good. But when 
construction begins on the Visitor's Center, clearly that is 
something that has to be articulated and understood and built 
into the contracts.
    Mr. Wamp. Will the gentleman yield?
    Mr. Taylor. Yes.
    Mr. Wamp. I believe Mr. Eagen may tell us, because I have 
seen this firsthand, we got rolled a lot more on construction 
projects than we do on any of these vendor contracts. If people 
do not actually adhere to the agreements that we have with 
vendors, they do not get paid. And so we actually have held the 
line pretty well on saving taxpayer dollars, on getting rolled 
by vendors versus construction people.
    Mr. Eagen. The Chairman has an excellent point. The key is 
writing the contract in a clear manner that performance 
standards are spelled out in such a way that they are 
enforceable. The construction example is one. We did the same 
thing in the restaurant contract. There are quality assurance 
standards that that contractor has to meet, and the House has 
the option, if they do not meet those standards, that we could 
cancel the contract.
    Mr. Taylor. Thank you, gentlemen, we appreciate your 
service. Mr. Hoyer has submitted some questions that I will ask 
you to respond to for the record.
    [The questions and responses follow:]

                QUESTIONS FOR THE RECORD FROM MR. HOYER

    Question. What is the status of your ``LIMS'' project, for which 
you are to receive supplemental funding this year?
    Response. The LIMS project, as approved by the Committee on House 
Administration has four stages:
    (1) LIMS Project Definition and Acquisition Plan, which was 
completed by the House and approved by the Committee on House 
Administration in July 2000, and outlines the successive stages of the 
project consistent with House Systems Development Life Cycle Policy;
    (2) Requirements Analysis and Recommended Technical Solution 
containing three tasks (Contractor)
    (3) Independent Validation and Verification (Contractor); and
    (4) System Integration and Implementation.
    The Clerk awarded a contract in September to KPMG Consulting for 
Task 1 of Stage 2, Requirements Analysis (Functional and Technical) and 
Additional Code Evaluation for a total not-to-exceed contract price of 
$881,690. Task 2, Definitions of Alternatives, and Task 3, Detailed 
Alternatives Analysis, are reserved as options to be exercised at the 
sole discretion of the House. The agreed upon project plan established 
June 30, 2001 as the termination date for the completion of Task 1. The 
vendor has invoiced and the House has paid to date $565,808 for 
conforming deliverables. The vendor delivered the Final Functional and 
Technical Requirements Analysis deliverables on time, which have since 
been verified and approved with all requested corrections made to Clerk 
and HIR/CAO satisfaction. A final HIR review of requested corrections 
to the Code Evaluation is pending and it is anticipated that acceptance 
and payment of the remaining balance will be satisfied prior to the end 
of July.
    The House will have ninety days after the acceptance of the final 
deliverables outlined above to exercise our option to have the current 
vendor perform tasks 2 and 3. These two tasks combined were originally 
budgeted for $870,000. We are receiving from the vendor a modified 
proposal for the completion of these tasks, reflecting the benefit of 
the vendor's acquired knowledge by analysis of the system, and with the 
intent of shortening the previously projected 9-12 month contract 
performance time. We anticipate presenting a modification to the 
Committee for approval by the end of July to initiate tasks 2 and 3. 
Upon commencement of the remaining tasks of Stage 2, the Clerk will 
seek approval to contract for Stage 3, Independent Validation and 
Verification--projected at upwards of $200,000.
    Given our satisfaction with the current vendor and the on-schedule 
progress of the phases of this project, we continue to target bringing 
to the Committee a final implementation proposal (Stage 4) by early to 
mid-2002.
    Question. Please delineate the policies you have established, if 
any, concerning the parking of employee vehicles in the various House 
garages after 3 pm on weekdays.
    Response. Employees entering House garages after 3:00 pm on 
weekdays are required to display a valid House ID and either a valid 
parking permit for the particular garage or an evening parking permit.
    Valid parking permits are specific to garages and levels and 
include both permanent hangtag permits displayed on the rearview mirror 
and temporary parking permits displayed on the windshield or dashboard.
    Evening parking permits, used primarily by evening and night 
employees of the U.S. Capitol Police and the Architect of the Capitol, 
are honored in various garages and on various levels, depending on time 
of arrival. At 3:00 pm, permits are honored on the lowest levels of 
garages, depending on space available. At 11:00 pm, permits are honored 
on all levels. The garages designated for evening and night parking are 
the Rayburn Garage, the East Underground Garage and the West 
Underground Garage. Employees parking with evening permits should 
vacate garages by 7:30 a.m.
    Unreserved parking is available on a first-come, first-served basis 
on the designated level of the designated garage. Employees arriving at 
any time of day or night should honor the posted ``Reserved'' and 
accessible/handicapped parking signs. Additionally, employees may not 
store their vehicles in an unreserved parking space for more than 45 
days.
    During the period of the Cannon Garage renovation project, 
employees arriving at any time of day or night who cannot find parking 
on their designated garage level are asked to park on a lower level. 
Employees who cannot find parking in their designated garage may park 
on Lot 5. If Lot 5 fills to capacity, employees may park on Lot 7.
    Question. You have been participating in the fire-safety work in 
the House, and now in the work at the Library. Are you satisfied with 
the pace of progress? You recently conducted your own review and found 
additional deficiencies at the Library. What can this subcommittee do 
to expedite progress, other than provide all the funds the Architect 
can reasonably use in the next fiscal year for fire-safety work?
    Response. We are satisfied with the AOC's progress implementing new 
and upgrading existing fire protection systems within the House and the 
LOC. However, along with this progress comes the necessity to maintain, 
inspect and test the existing systems throughout the year according to 
National Fire Protection Association (NFPA) standards, which require 
various fire protection systems be tested on a weekly, monthly, 
semiannual, or annual basis. This is a substantial undertaking 
considering the size and scope of the work required to maintain the 
fire protection systems within the buildings. The AOC has made progress 
towards improving the maintenance, inspection, and testing of the 
systems. The AOC has contracted the annual inspections and has 
reallocated from routine maintenance to correct identified 
deficiencies. To facilitate this process, the AOC should develop a 
comprehensive maintenance, inspection and testing plan that provides 
the assurances that the existing systems will function properly when 
called upon during an emergency.
    The two areas where the subcommittee could assist in expediting the 
process are:
    1. The timing of projects funds. While we agree that projects 
should be fully designed before construction funds are made available 
in practice, this may delay projects. If the design is completed 
shortly after a budget submission it may be almost two years before the 
funding is made available to begin construction. If the subcommittee 
could devise a method to partially fund the construction phase of a 
project the year after design funds are requested, it could accelerate 
the completion of the fire systems.
    2. Provide additional FTEs if the comprehensive maintenance, 
testing and inspection plan indicates that additional FTEs is needed to 
meet the NFPA standards. This will eliminate the current conditions the 
AOC is now addressing.
                                          Wednesday, June 27, 2001.

                 OFFICE OF THE ARCHITECT OF THE CAPITOL

                               WITNESSES

ALAN HANTMAN, ARCHITECT
ROBERT MILEY, SUPERINTENDENT, HOUSE OFFICE BUILDINGS
MICHAEL TURNBULL, ASSISTANT ARCHITECT
AMITA POOLE, ADMINISTRATIVE ASSISTANT
JACK BOERTLEIN, ACTING BUDGET OFFICER

                            Opening Remarks

    Mr. Taylor. We will now take up the fiscal year 2002 budget 
of the Office of the Architect of the Capitol. We have Mr. Alan 
Hantman, the Architect of the Capitol, and several members of 
his staff.
    Would you introduce the members of your staff, who are 
accompanying you.
    Mr. Hantman. On the far right, Bob Miley, the 
Superintendent of the House Office Buildings; Michael Turnbull, 
who is the Assistant Architect; Amita Poole is our new 
Administrative Assistant, Mr. Chairman--and she has succeeded 
Herb Franklin; this is the first time she is seated at the 
table--and Jack Boertlein, our acting Budget Officer.
    Mr. Taylor. The budget request that the subcommittee will 
consider is $245.4 million and 1,403 FTE's. There are six 
appropriation accounts in the Architect's budget request. 
Capitol buildings, $112 million; Capitol grounds, $8 million; 
House office buildings, $51.2 million; Capitol power plant, 
$47.1 million; Library buildings and grounds, $21.4 million; 
and Botanic Garden, $6.1 million.
    This does not include funds for the operations of Senate 
office buildings. The other body will consider those needs, and 
that is estimated at $53.6 million and 609 FTE's.
    We have your prepared statement, and we will have it 
inserted in the record.
    Is there anything you would like to say briefly before 
starting? Otherwise, I will go right into questions.
    Mr. Hantman. Go right ahead, Mr. Chairman.
    [The prepared statement of Mr. Hantman follows:]

    [GRAPHIC] [TIFF OMITTED] T5248B.083
    
    [GRAPHIC] [TIFF OMITTED] T5248B.084
    
    [GRAPHIC] [TIFF OMITTED] T5248B.085
    
    [GRAPHIC] [TIFF OMITTED] T5248B.086
    
    [GRAPHIC] [TIFF OMITTED] T5248B.087
    
    [GRAPHIC] [TIFF OMITTED] T5248B.088
    
    [GRAPHIC] [TIFF OMITTED] T5248B.089
    
    [GRAPHIC] [TIFF OMITTED] T5248B.090
    
    [GRAPHIC] [TIFF OMITTED] T5248B.091
    
    [GRAPHIC] [TIFF OMITTED] T5248B.092
    
    [GRAPHIC] [TIFF OMITTED] T5248B.093
    
    [GRAPHIC] [TIFF OMITTED] T5248B.094
    
    [GRAPHIC] [TIFF OMITTED] T5248B.095
    
    [GRAPHIC] [TIFF OMITTED] T5248B.096
    
    [GRAPHIC] [TIFF OMITTED] T5248B.097
    
    [GRAPHIC] [TIFF OMITTED] T5248B.098
    
    [GRAPHIC] [TIFF OMITTED] T5248B.099
    
    [GRAPHIC] [TIFF OMITTED] T5248B.100
    
    [GRAPHIC] [TIFF OMITTED] T5248B.101
    
    [GRAPHIC] [TIFF OMITTED] T5248B.102
    
    [GRAPHIC] [TIFF OMITTED] T5248B.103
    
    [GRAPHIC] [TIFF OMITTED] T5248B.104
    
    [GRAPHIC] [TIFF OMITTED] T5248B.105
    
    [GRAPHIC] [TIFF OMITTED] T5248B.106
    
    [GRAPHIC] [TIFF OMITTED] T5248B.107
    
    [GRAPHIC] [TIFF OMITTED] T5248B.108
    
    [GRAPHIC] [TIFF OMITTED] T5248B.109
    
    [GRAPHIC] [TIFF OMITTED] T5248B.110
    
    [GRAPHIC] [TIFF OMITTED] T5248B.111
    
    [GRAPHIC] [TIFF OMITTED] T5248B.112
    
    [GRAPHIC] [TIFF OMITTED] T5248B.113
    
    [GRAPHIC] [TIFF OMITTED] T5248B.114
    
    [GRAPHIC] [TIFF OMITTED] T5248B.115
    
    [GRAPHIC] [TIFF OMITTED] T5248B.116
    
    [GRAPHIC] [TIFF OMITTED] T5248B.117
    
    [GRAPHIC] [TIFF OMITTED] T5248B.118
    
    [GRAPHIC] [TIFF OMITTED] T5248B.119
    
    [GRAPHIC] [TIFF OMITTED] T5248B.120
    
    [GRAPHIC] [TIFF OMITTED] T5248B.125
    
    [GRAPHIC] [TIFF OMITTED] T5248B.126
    
    [GRAPHIC] [TIFF OMITTED] T5248B.127
    
    [GRAPHIC] [TIFF OMITTED] T5248B.128
    
    [GRAPHIC] [TIFF OMITTED] T5248B.129
    
    [GRAPHIC] [TIFF OMITTED] T5248B.130
    
    [GRAPHIC] [TIFF OMITTED] T5248B.131
    
    [GRAPHIC] [TIFF OMITTED] T5248B.132
    
    [GRAPHIC] [TIFF OMITTED] T5248B.133
    
    [GRAPHIC] [TIFF OMITTED] T5248B.134
    
    [GRAPHIC] [TIFF OMITTED] T5248B.135
    
    [GRAPHIC] [TIFF OMITTED] T5248B.136
    
    [GRAPHIC] [TIFF OMITTED] T5248B.137
    
    [GRAPHIC] [TIFF OMITTED] T5248B.138
    
    [GRAPHIC] [TIFF OMITTED] T5248B.139
    
    [GRAPHIC] [TIFF OMITTED] T5248B.140
    
    [GRAPHIC] [TIFF OMITTED] T5248B.141
    
    [GRAPHIC] [TIFF OMITTED] T5248B.142
    
    [GRAPHIC] [TIFF OMITTED] T5248B.143
    
    [GRAPHIC] [TIFF OMITTED] T5248B.144
    
    [GRAPHIC] [TIFF OMITTED] T5248B.145
    
    [GRAPHIC] [TIFF OMITTED] T5248B.146
    
    [GRAPHIC] [TIFF OMITTED] T5248B.147
    
    [GRAPHIC] [TIFF OMITTED] T5248B.148
    
    [GRAPHIC] [TIFF OMITTED] T5248B.149
    
    [GRAPHIC] [TIFF OMITTED] T5248B.150
    
    [GRAPHIC] [TIFF OMITTED] T5248B.151
    
    [GRAPHIC] [TIFF OMITTED] T5248B.152
    
    [GRAPHIC] [TIFF OMITTED] T5248B.153
    
    [GRAPHIC] [TIFF OMITTED] T5248B.154
    
    [GRAPHIC] [TIFF OMITTED] T5248B.155
    
    [GRAPHIC] [TIFF OMITTED] T5248B.156
    
    [GRAPHIC] [TIFF OMITTED] T5248B.157
    
                            visitor's center

    Mr. Taylor. We will probably recess about 5 minutes and go 
and vote. Mr. Moran do you have any comments?
    Mr. Moran. No, that is fine. I am happy to go right into 
questions. Thank you.
    Mr. Taylor. Good. We will go first to the Visitor's Center, 
because that has already been discussed with others here today.
    The committee understands that you recently asked the 
companies of Gilbane & Hanscomb to provide independent 
estimates of the costs of the Visitor's Center based upon 50 
percent construction drawings. What are the estimates and do 
their estimates exceed the original estimate of $265 million 
for the Center? Are there specific items that are causing the 
estimated cost of the Center to increase?
    Mr. Hantman. Mr. Chairman, this is part of our philosophy 
of doing a belt-and-suspenders approach to this project. We 
want to make sure that we are in good shape and do not rely on 
one estimate. We took an independent estimate in addition to 
the Gilbane estimate, and what we are doing is reconciling the 
differences between those two estimates.
    Some things have been included on one side that were not 
included on the other. Some things should not have been 
included at all in the scope of work, and we are currently 
reconciling both of those estimates and numbers. As the 
reconciliation goes forward, it is showing us that we are 
basically within the $265 million budget.
    We are quite satisfied--we are very confident that these 
numbers are going to be worked out to be 265 and we will get 
the systems and the base building pretty much where we want it 
to be.

                               page dorm

    Mr. Taylor. We will have some more questions on that in a 
minute, but I will move on to the page dorm because I want to 
get to several things before we have to go vote.
    How is the page dorm construction progressing?
    Mr. Turnbull. It is coming along very well. We are 85 
percent complete right now. We had one issue with the District 
of Columbia, with the water pipes that have broken in the 
streets, which not only concerned us, but the neighborhood in 
general. We contacted WASA and we were able to expedite them 
coming out.
    We were concerned that the lack of water was a major issue 
for us. We solved that. That is under way and we see no 
additional problems keeping us from having the pages' dorm 
ready for occupancy.

                            o'neill building

    Mr. Taylor. What are we going to do with the O'Neill 
Building? Do you have any thoughts about that?
    Mr. Hantman. The O'Neill Building was basically designed as 
a hotel, as you know. The loading is low, 40 pounds per square 
foot. The floor plate is not appropriate for many of the uses 
of the Congress. Our sense is, once the building is vacated, we 
are getting estimates right now to do a study for demolition. 
Once we get that demolition study and costs for demolishing the 
building, we will be coming back to this committee to ask for 
funds to demolish the building.

                             cannon garage

    Mr. Taylor. On the renovation of the Cannon garage, that 
was in the Emergency Supplemental Appropriation Act of 2000. 
What is the status of the project? Do you anticipate meeting 
the January 2002 completion date?
    Mr. Turnbull. Yes, we do. That piece of the parking is 
closing of the garage itself. The actual project takes about a 
year. The actual part, the impacts to the garage would be from 
July to January 2nd; and at this point in time, they are 
mobilizing and getting on the site to complete the project. We 
anticipate no problems.
    Mr. Taylor. We are anticipating a penalty if it is not 
followed through, somewhat like the ones we did with 
contractors. I know that there are things that come in and 
interfere; but on these three questions you all are very 
confident that all these things are going to happen and you 
feel sure about it?
    Mr. Turnbull. Yes, sir.

                           unfunded positions

    Mr. Taylor. All right. You have asked for funding of $3.4 
million for 48 unfunded positions.
    I understand that your agency lapsed $8 million in fiscal 
year 2000. How much do you expect to lapse this fiscal year? 
Are you having a difficult time recruiting and retaining 
adequate staff?
    Mr. Hantman. Mr. Chairman, we do not expect to lapse this 
year at all. We got back on track in March of this year.
    We had some difficulties in hiring people early on. We have 
hired, to date, 188 people in the agency, and part of the good 
news of that hiring and filling of jobs is that some 75 of 
those positions are internal. We have--the idea of morale and 
having people have career paths and moving up in the 
organization is a very positive one. But because some of those 
jobs were not brought on at the beginning of the year--as you 
know, we had a continuing resolution as well--and some of those 
jobs, 75 jobs, need to be back-filled themselves.
    Some of those dollars will not be spent on personnel 
issues. In fact, one of the things that we are planning to do, 
that I have just signed, Mr. Chairman, to come to you on, is a 
reprogramming of some of those dollars to do one of the 
emergency projects that I think we can do. And one of those 
emergency programs would be the revolving door replacement in 
the Longworth. That is a $950,000 request for reprogramming 
that will be coming here so that we can effectively use those 
dollars.
    Mr. Taylor. I think we only have one vote. We will recess, 
go vote and come back.
    [Recess.]

                     visitor center cost estimates

    Mr. Taylor. The subcommittee will come back into session.
    I would like to go back to the Visitor's Center and the 
cost estimates. What were the estimates or what are the 
estimates that you put together?
    Mr. Hantman. There was about a $20 million spread, as I 
recall, between the estimates, one of them in the range of $260 
million and change and another was probably 280 and something. 
Part of the issues that we are going through--I'm sorry, I have 
been corrected, 282 and 300.
    So the scope is being checked into, what in fact was the 
scope and whether the systems that were being estimated in fact 
are the systems that we want.
    As part of the reanalysis of this, the reengineering of it, 
we are looking at the mechanical systems, and what was in the 
spec of the mechanical system was a system that was difficult 
to maintain and very expensive. Our people are getting in and 
saying we want this mechanical system that is less expensive 
but easier to maintain. It is that type of analysis that is 
going back and forth to bring the reconciliation of these two 
estimates back into one. And our best estimation is that 
reconciliation is not complete, but the numbers are between 260 
and 265.
    Mr. Taylor. How do you get there from $282 and $300? I had 
been in building years and years ago and did not even know what 
I was doing, and I never could bring it down to $260. I am 
still thinking if you had an estimate of $282 and $300, and you 
make some quality decisions, you can impact the price but you 
cannot impact it that much, unless you were using gold doors in 
the beginning.
    Mr. Hantman. There is a certain amount of reengineering 
that is done. Let me introduce Peter May, who is very involved 
in that process, and maybe you could talk, Peter, about the 
issues that caused the gap between the two estimates.
    Mr. May. The first estimates for the project at 50 percent 
were ranges 280 to 300 million. What we did first was make sure 
that what was in those estimates was actually in the project. 
At 50 percent documents, there is not a full picture of exactly 
what is in the project and some of that is left to the 
estimators to fill in the picture. That is why we wound up with 
the 280 to 300.
    The first thing we did was go back and make sure that what 
they were estimating really was in the project, and in doing 
that, the estimates are now ranging from 260 to 282 million, I 
believe. And even within that 282 million, there is still 
further reconciliation between the two estimates that have to 
be done and a number of items such as the ones that Mr. Hantman 
cited, where we have differences between one system and another 
which provide the same level of service, we simply have to make 
sure that we are choosing the one that is more affordable. And 
we should be able to--we have already identified about $20 
million within that 280 figure to be able to bring it down to 
260.
    Mr. Taylor. We want to choose the one that is more 
affordable, but it has to be of a standard and quality or like 
quality. Otherwise you are just pushing the cost into early 
maintenance.
    Mr. May. That is true.
    Mr. Taylor. And you do not want to do that. The reason we 
are particularly concerned is because I think the House's 
credibility is at stake. And like I say, I was very much in 
favor of this when it was $100 million. And we wondered how we 
were going to spend that much. And now it is $265, $282, $300. 
I am in favor of having a Visitor's Center because of the 
positives it could bring to the public and the Capitol, but not 
at any cost. And I don't think we want to start out with 
something along the lines of a Visitor's Center and wind up 
something like the Chancellory in Berlin.
    [Questions from Chairman Taylor and responses follow:]
                             visitor center
    Question. There is no money in this budget for the Visitor Center. 
What has been accomplished since last year? What is the current status 
of the design work? Is the design work complete? Where are you with the 
construction document phase? Explain the current concept for the 
members of the committee. Have any significant changes occurred since 
last year? For the record, lay out the chronology of events since the 
last hearing and the latest cost estimates, construction schedule, and 
the conceptual layouts of the Visitor Center. Are there additional 
projects that are being considered in connection with the Visitor's 
Center that were not included in the original $265 million estimate? If 
so, what are they, and do you know what they will cost?
    Response. Since last year, the AOC Design Team has accomplished a 
great deal:
    The Final Design for the Capitol Visitor Center (CVC) was presented 
to the Capitol Preservation Commission (CPC) in September 2000. It was 
unanimously approved on October 17, 2000.
    The AOC Design Team completed the Design Development Phase in 
December 2000.
    The Gilbane Building Company was awarded a contract for 
Construction Management of the project. They have been working closely 
with the AOC since January 2001, providing critical information to the 
Design Team in areas such as constructibility, logistics, and cost.
    The AOC hired Joseph Sacco as CVC Project Manager and Martha Sewell 
as the Exhibit Project Director.
    The development of the CVC exhibit has accelerated with the 
formation of the Content Development Team consisting of the House and 
Senate Historians, the Senate Curator, the AOC Curator and Historian, 
and representatives of the Library of Congress and National Archives.
    Exhibit Designer Ralph Appelbaum met with numerous Members of the 
CPC to solicit their views on the content of the CVC exhibit.
    A Exhibit Design Concept presentation was made to the staff of the 
CPDC on June 25, 2001.
    The AOC completed most of the geo-technical studies (soil borings) 
on the East Plaza and the North Drive. This work is necessary to 
complete structural design of the CVC and the service tunnel.
    Drawings and specifications for ``tree preservation'' work were 
completed in June, 2001 and the AOC is currently in the process of 
procuring a contractor to do the work.
    The AOC has worked closely with the Capitol Police and the Capitol 
Guide Service to design a temporary visitor screening facility and 
logistical plan for handling visitor access to the Capitol during CVC 
construction. These plans received a favorable review from the Capitol 
Police Board and are currently undergoing further development and 
review by the appropriate authorities.
    The AOC project team has met with representatives of the Union 
Station Redevelopment Corporation, the Downtown Business Improvement 
District (DBID), the National Park Service, the Washington Metropolitan 
Transit Authority (WMATA), and the District Government. The purpose of 
these meetings has been to coordinate with on-going, city-wide efforts 
to address such issues as tour bus management and an effort to start a 
downtown circulator bus to serve the Mall, the downtown business 
district, and Capitol Hill.
    The AOC Design Team is currently in the Construction Document Phase 
and 50% complete documents were submitted to the AOC for review at the 
end of April 2001. Due to the complexities of the design, particularly 
in the interface with the Capitol Building, a 75% Submission has been 
added to the schedule for AOC review. The 75% Submission is due in the 
beginning of August 2001, with 100% Documents due in mid-November. In 
addition, the utility Pre-Construction Package has been expanded on the 
advice of the Construction Manager to include all utility relocations 
that will be necessary before general construction begins. Final 
drawings for the Pre-Construction package are due in July 2001, with 
utility relocation work anticipated to begin in the late Fall of this 
year upon approval of the Capitol Preservation Commission for these 
expenditures. General construction is slated to begin in late Spring 
2002.
    The current concept for the Capitol Visitor Center calls for a 
three-story underground structure to be built below the East Plaza. The 
design of the CVC has been conceived as an extension of the Capitol, an 
extension that will enhance the experience of the millions of annual 
Capitol visitors, providing them with greater comfort and 
accessibility, as well as new educational opportunities that currently 
do not exist. In addition to food service facilities, restrooms and 
gift shops, the CVC will provide approximately 20,000 square feet of 
museum quality exhibition space and two 250-seat orientation theaters 
that will be designed to inform visitors about the Capitol and provide 
resources on the workings and history of Congress and the legislative 
process. The project also includes a new monumental stair and elevators 
inside the East Front Extension which will significantly improve 
accessibility for visitors to the Crypt, Rotunda, and Gallery Levels of 
the Capitol. In addition, the project includes a 450-seat Congressional 
Auditorium, constituent assembly rooms, an underground service tunnel 
and loading dock, and approximately 85,000 square feet of unfinished 
shell space on each of the House and Senate sides for future fit out 
and use by Congress. The total square footage for the entire project is 
approximately 580,000 square feet. The total project budget is $265 
million.
    Although there have been no major changes to the design since it 
was approved by the Capitol Preservation Commission in October 2000, 
there has been a significant improvement due to the elimination of air 
intake structures that were planned for the East grounds of the 
Capitol. These structures were to be located just north and south of 
the existing Olmsted fountains and would supply fresh air to the CVC. 
It was determined that the planned modifications to the East Front 
could be altered to accommodate air shafts that would draw air from the 
roof of the Capitol building. This change dramatically improved the 
safety of the building's air supply by moving the intake out of the 
reach of unscreened individuals and low-to-the ground pollution 
sources, such as cars and trucks. Like the new East Front elevators 
that will connect to all three floors of the CVC, the airshafts will 
extend down below the foundations of the East Front Extension and will 
connect with the lowest (service) level of the CVC where they will 
supply the mechanical equipment that will serve the CVC. The 
elimination of the air intake structures has the additional benefit of 
preserving the unobstructed views of the Capitol across the grassy 
areas of the East Grounds commonly referred to as the Olmsted ``eggs.''
    Since the hearing last year, the AOC Design Team has completed the 
Design Development Phase of the project and has received unanimous 
approval from the Capitol Preservation Commission of the Final Design. 
The AOC Design Team is currently a little more than 50% complete on the 
Construction Document Phase, having completed the 50% complete document 
submission at the end of April 2001.
    The cost estimate produced at the end of the Design Development 
Phase was within 2 percent of the $265 million project budget, which by 
standard construction industry practice is ``on budget'' for that stage 
of the process. Two separate estimates--one by the Design Team the 
other by the Construction Manager--were produced earlier this month 
based on the 50% complete construction documents. The AOC is working 
with the Design Team and the Construction Manager to reconcile these 
estimates to ensure a true ``apples to apples'' comparison and to 
arrive at the most accurate numbers possible. The approximate range of 
total project cost based on the latest drafts of these estimates is 
from $260 to $280 million. It is expected that these estimates will be 
further reduced during the reconciliation process as the scope of the 
project is further refined. In addition, approximately $20 million in 
potential cost savings that can be achieved without sacrifice in 
quality of efficiency have already been identified in the higher of the 
two estimates. The AOC remains confident that the CVC project can be 
built with the original $265 million budget.
    The original construction schedule for the CVC project called for a 
two pre-construction activities (tree preservation and limited utility 
relocations) to begin in the late Fall of this year, with general 
construction commencing in January 2002 and running until 2005. That 
schedule anticipated that the general contractor would take the first 
six months of 2002 to mobilize and to relocate all of the other 
utilities that will be impacted by construction.
    Based on the constructability advice from Gilbane, the AOC's 
Construction Manager, the strategy has been modified to separate all 
utility relocation work out of the general contract and into a pre-
construction package or packages. This strategy helps limit risk to the 
AOC--unforseen conditions would impact only the smaller pre-
construction contract and not the large general construction contract. 
It also allows the General Contractor to start up the major 
construction once notice to proceed is given.
    The new schedule calls for work on both the Tree Preservation and 
the Utility Relocation packages to commence in the late Fall of this 
year upon approval by the Capitol Preservation Commission for these 
expenditures. Construction of a new temporary visitor screening 
facility on the West Terrace will also begin around that time or in 
early 2002. The general construction of the CVC will begin in the 2nd 
quarter of 2002, and as originally planned the CVC will be completed in 
the summer of 2005 with partial completion in support of the inaugural 
slated for January 2005 and completed by the summer of 2005.
    Several additional projects are being considered in connection with 
the CVC project that were not included in the original $265 million 
budget. Those projects include the following:

        Project                                           Rough Estimate
Related Potential Projects:
    Extend existing Capitol elevators to Service Level 
      of CVC............................................      $4,950,000
    Additional connection to House Wing of Capitol......       4,950,000
                    --------------------------------------------------------
                    ____________________________________________________
        Total...........................................       9,900,000
Library of Congress Tunnel (Construction Documents 
    Authorized):
    Tunnel..............................................      11,000,000
    New Book Conveyor in new LOC Tunnel.................       1,650,000
                    --------------------------------------------------------
                    ____________________________________________________
        Total...........................................      12,650,000
House of Representatives:
    Temporary relocation of hookup for Elm site.........         247,500
    Completion of Unprogrammed Expansion Space:
        Fit out of Expansion Space......................      30,000,000
        Telecommunication and data wiring...............       2,475,000
        Cell Phone Antenna in CVC.......................         165,000
    Telecommunication modifications for Capitol Bldg....       1,650,000
    Media Hub Room relocation...........................         330,000
                    --------------------------------------------------------
                    ____________________________________________________
        Total...........................................      34,867,500
Senate:
    Temporary relocation of hookup for Elm site.........         247,500
    Completion of Unprogrammed Expansion Space:
        Fit out of Expansion Space......................      30,000,000
        Telecommunication and data wiring...............       2,475,000
        Cell Phone Antenna in CVC.......................         165,000
    Telecommunication modifications for Capitol Bldg....       1,650,000
    Media Hub Room relocation...........................         330,000
                    --------------------------------------------------------
                    ____________________________________________________
        Total...........................................      34,867,500
Other Potential Projects within the Capitol Building:
    Accessibility modifications to Old Supreme Court 
      Chamber...........................................         412,500
    Circulation modifications to Old Senate Chamber.....         825,000
    Capitol office modifications for displaced offices..       3,000,000

                         Cannon Garage Contract

    Mr. Taylor. Let me go back to another question on the 
Cannon garage and ask if the penalty section we passed last 
session is in the Cannon garage contract?
    Mr. Hantman. Yes, it is.
    Mr. Taylor. I will yield for a moment to Mr. Moran and he 
can ask questions.

                             Botanic Garden

    Mr. Moran. Thank you, Mr. Chairman. First all, let me get 
some things off my chest. One in particular, how many visitors 
come through the Capitol grounds in a year.
    Mr. Hantman. The estimates are 3 to 4 million.
    Mr. Moran. Three to 4 million. It seems that we are always 
in some state of construction. Right now, I know down here just 
below the Capitol you have got the Botanic Garden in a complete 
state of construction. You have the Indian Museum in a state of 
construction. When they finish, there will be something else in 
a state of construction.
    But at times there are opportunities to avoid that state of 
construction. The Botanic Garden, for example, for 6 months 
before any work whatsoever was done on the BG, you had a 
contractor come in and cut down all the trees, devastate the 
garden out here and put up a chain link fence around it and it 
was more than 6 months before any work was done. Well, that is 
6 months, 3 or 4 million visitors, I think it would have been 
nice that they could have enjoyed that garden but instead 
somebody wanted to get the work done and get the money for the 
contract, I assume.
    And your job is to make the Capitol as appealing as 
possible--as visually appealing and as efficiently run. But I 
don't know why you would have let that contract out so far in 
advance of when it was necessary to devastate that garden and 
put up a chain link fence.
    So I will let you answer that initially.
    Mr. Hantman. Well, as far as the contract is concerned, we 
only let a contract--as I am sure you are aware, when there is 
a whole mobilization phase. The contractor begins to plan, the 
shop drawings are reviewed and approved before he gets on the 
site and he has a signed contract for a period of months. The 
time at the beginning of his work probably could have been 
watched more appropriately and squeezed every month out of it 
until he was actually ready to go on site and do the work. I 
cannot disagree with what you said.
    Mr. Moran. Six months that a chain link fence with such a 
scorched earth policy for that park there. And a lot of people 
try to run through it and enjoy it, and of course they couldn't 
because you had the fence there, put up so far in advance of 
any work being done.

          QUESTIONS FROM CHAIRMAN TAYLOR AND RESPONSES FOLLOW

    Question. Give us an update on the status of the Botanic Garden 
Project.
    Response. The Renovation of the Conservatory of the United States 
Botanic Garden was originally scheduled for earlier construction 
completion in September 2000. The original schedule indicated that 
plants provided by the Contractor would also have been installed at 
that time. The installation of the rest of the plants was to be done by 
the Botanic Garden staff and that was scheduled to continue for another 
four to six months. A formal public opening would have occurred in 
March 2001, although scheduled tours and events would have been 
available from December 2000.
    As the Committee is aware, this project renovates an historic and 
monumental building. Renovation projects, by their very nature, are 
subject to delays that are not encountered in new construction. Many 
unforeseen delays have been experienced during the course of this 
project. Delays were due to events such as unknown site conditions, 
including poor subsurface soil and asbestos that were not previously 
known to exist.
    Progressive discovery of unforeseen structural conditions also 
complicated the construction sequence. For example, upon removal of the 
brick enclosure around the roof and trusses, excessive corrosion 
required the addition of brackets to ensure structural integrity of the 
roof adding time and cost. Application of state-of-the-art glazing 
system to an existing structure required extensive redesign to maintain 
the historic profiles. The facility was not previously air-conditioned 
and all new mechanical space is subterranean. The new mechanical and 
air conditioning systems installed below grade to maintain the 
historical look of the existing building required many days of 
additional on-site coordination including adjustments and redesigns to 
accommodate existing foundations and future plantings. When actual 
components are procured, then and only then, can the final coordination 
occur to fit the configured reconstructed spaces within the existing 
foundations. Working under the existing structure in tightly confined 
spaces also limited the manpower and size of equipment normally needed 
for this size project.
    During this process, this agency continually urged the Contractor 
for greater coordination and the need for more qualified technical 
supervision. In addition, sub-contractor manpower was noticeably 
deficient in all trades. Continued discussion on these issues proved 
pointless and a Cure Notice was issued in February 2001. This action 
brought about the needed changes in management and staffing required 
for a project of this complexity. With this revised staffing in place 
substantial completion of the construction is scheduled for September, 
2001.
    The reality of today's construction market is also a factor that 
cannot be ignored. Sub-contractors are finding it impossible to locate 
qualified tradesmen to staff their jobs. Often times, workers are 
pulled from one job to complete another at the expense of the first 
job. Larger projects are siphoning work force resources thereby 
creating problems for the smaller ones with less profitable price tags.
    In addition to unforeseeable construction conditions and contractor 
management concerns that delayed this project, other design problems 
became apparent during construction. The associate architect engaged in 
the design of the renovation did not respond expeditiously to AOC 
requests for re-design. This office will follow up on these issues and 
proceed with any claim that may be necessary.
    The Botanic Garden Conservatory Renovation Project has included in 
its budget a 10% contingency. To date, the changes to the project fall 
within this contingency. It should be noted however, that this office 
has been placed on notice that the Contractor will pursue claims for 
additional money and time as a result of delays. We intend to 
vigorously defend the Government's rights in these issues and to 
minimize the impact on the project.

           STATUS REPORTS WITH REFERENCE TO COMPLETION DELAYS
------------------------------------------------------------------------
  Date of
transmittal          Period of report                  Comments
   letter
------------------------------------------------------------------------
    1/11/00  December 1999..................  First mention in report
                                               that there were problems
                                               and completion may be
                                               after the contract
                                               completion date.
     3/6/00  January 2000...................  Advised that Palm House
                                               and other areas would not
                                               be ready by September
                                               2000.
     4/3/00  N/A............................  Letter to Chairman Bennett
                                               forwarding AOC's 4/3/00
                                               response to Chairman
                                               Taylor's 3/21/00 letter
                                               on project status. This
                                               letter spelled out some
                                               of the problems that had
                                               been encountered and
                                               reiterated that the
                                               project would not be
                                               complete by September 5,
                                               2000.
     5/5/00  March 2000.....................  Advised that we directed
                                               Clark Construction to
                                               complete all areas but
                                               Palm House and site work
                                               by 12/30/00 and those
                                               areas to be completed by
                                               3/31/01.
    5/25/00  April 2000.....................  Reiterated dates form
                                               previous report.
    6/19/00  May 2000.......................  Transmittal letter
                                               explained changes to
                                               shade cloth system,
                                               fogging system and
                                               deletion of the work in
                                               the two courtyards.
                                               Report reiterated dates
                                               from the previous report.
   10/10/00  September 2000.................  Report advised that
                                               contractor had indicated
                                               that all work may not be
                                               done by 3/31/01.
    2/27/01  January 2001...................  Advised that Cure Notice
                                               had been issued and
                                               planning for a September
                                               2001 reopening was
                                               underway.
    4/30/01  April 2001.....................  Report goes thru status
                                               and indicates that
                                               pulblic opening is being
                                               targeted for November
                                               2001.
------------------------------------------------------------------------

                   Status of National Garden Project
    Question. What is going to be the relationship of the Botanic 
Garden Conservatory with the National Garden? What is the status of the 
National Garden Project?
    Response. The U.S. Botanic Garden and the NationalGarden have been 
designed to function as a continual garden experience, all part of the 
U.S. Botanic Garden. The large doors in the East Gallery of the 
Conservatory will open to serve as the main entrance into the National 
Garden.
    Design is 100% complete.
    Bid Package is 100% complete.
    Agreement Between National Fund and AOC is currently being reviewed 
and is scheduled to be signed in July 2001. The agreement will address:
          How the project will be implemented
          Funding turned over to AOC
          Understanding if additional funds are required
    Bids will be solicited upon signing of the agreement.
    Construction is estimated to take 22 to 24 months.

                            CUSTODIAL STAFF

    Mr. Moran. The custodial staff, on any given night very 
rarely are there more than 75 on duty it would seem. You have 
got another 20 or so during the day. But there are over 130 
positions authorized. Is it absenteeism? Is it that they are 
unfilled? Because it puts greater strain on those people who do 
show up for work. I would like to know why do we not have a 
full complement of custodians?
    Mr. Miley. Basically, there are two reasons. One is the 
high rate of absenteeism that we experience, number one. And 
the second is we are recruiting--it seems like a continual 
recruiting process. Right now we have 26 FTEs that we are 
recruiting for within the custodial and labor forces. They are 
not all night, but 13 of them are night custodians.
    Mr. Moran. What do they pay?
    Mr. Miley. I would estimate $20,000 and up. Maybe $25,000.
    Mr. Moran. And you hire these 24 positions?
    Ms. Poole. They are WG-2s.
    Mr. Moran. Which is what, $2,000 a month?
    Mr. Miley. Ten to 11 dollars an hour.
    Mr. Moran. Ten to 11 dollars an hour. So you are recruiting 
for them now. How long have you had that number?
    Mr. Miley. We have been--well, probably 4 or 5 months.
    Mr. Moran. Four or 5 months?
    Mr. Miley. And again there are always a certain number of 
retirements. It is almost an ongoing basis.
    Mr. Moran. What percentage would you say are women?
    Mr. Miley. Of the custodial workforce probably 99 percent.
    Mr. Moran. Virtually all of them are women and you pay 10 
or 11 dollars an hour. They work during the evening. But 
because you have got such high absenteeism, I suppose those 
that do come to work have more work to do. If you have 24 
unfilled positions, then those who are showing up have to do a 
lot more work than they would be normally expected to do?
    Mr. Miley. Right now we are experiencing some of that; 
however, we have built into our staffing levels a certain 
number for absenteeism. We have 25 FTEs that are built in for 
people who are not there. For instance----
    Mr. Moran. You are figuring a 10 percent normal absentee 
rate.
    Mr. Miley. At a minimum, and in fact it is exceeding that.
    Mr. Moran. What is it?
    Mr. Miley. You have to consider the annual leave and sick 
leave of people as well as training. There is a lot of 
mandatory training, and so forth. So if you figure the total 
absenteeism, it definitely exceeds 10 percent.
    We have--I think the number of minimum work slots on that 
total workforce is 87 cleaning assignments. And with that, we 
have another 25 positions that are for backup or fill in, what 
we call ``swing'' to cover absenteeism. And right now we have 
on board, not counting supervisors now, just talking about the 
workers, we have 101 workers on staff and recruits out for 13.
    So with the 101 on board, right now my complement, nightly 
complement, varies from 75 to 85, 86. It is very rare that we 
ever have 87 or so. Hopefully, when we get these 13 on board, 
and they are in process right now--I mean they have been 
advertised. People have been interviewed. We are doing 
background checks right now. So hopefully in the very near 
future that problem will be taken care of.

                   custodial promotion opportunities

    Mr. Moran. Is there any promotional opportunity?
    Mr. Miley. Any position that we have in the organization, 
they are eligible to apply for. Now as far as promotion within 
the custodial force, there is one level of custodial worker. I 
will say many of them have been promoted into other positions 
in the organization. In my office, I have several service 
officers who have come up through the ranks.
    Mr. Moran. I think Mr. Hoyer may want to have some follow-
up questions on that subject. Go ahead.
    Mr. Miley. In addition to that, we have the positions that 
we have created that we call AMP----
    Mr. Moran. The what?
    Mr. Miley. The AMP, Architects Upward Mobility Positions, 
that we are creating to bring some of the employees out of the 
lower levels into positions. We have right now seven positions 
that we have brought from the labor or custodial workforce into 
the trades, where there is areas of progression available.
    [The following question from Chairman Taylor and response 
follows:]
                           Custodial Services
    Question. What is the current level of custodial services in House 
Office Buildings? Last year we provided $400,000 for Contracting 
Daytime Cleaning of public areas and restrooms in House Office 
Buildings. What has been done with these funds?
    Response. The cleaning of offices, hearing rooms, meeting rooms and 
public spaces in the House Office Buildings is under the purview of 
Superintendent of the House Office Buildings. Within the 
Superintendent's organization there is a staff of custodians and 
laborers to perform all routine cleaning during non-office hours. 
Recycling materials are collected during the evening by a dedicated 
crew of recycling workers.
    During day-time hours, the care of public areas, including public 
restrooms, is also performed by custodians and laborers. Very recently, 
these forces have been supplemented through contractual services with 
funding provided in the FY 2001 Appropriations act. The contractor is 
responsible for day-time policing of women's restrooms in the Rayburn 
Building. This effort consists of restocking supplies, emptying trash 
containers, and removal of any trash on the floors. Emergency cleaning 
is performed, if necessary.
    In an effort to increase the level of cleaning, the Superintendent 
has recently implemented the following initiatives:
    Increased Floor Maintenance--Night laborers are coming in 4 hours 
early on overtime Monday thru Friday and working 12 hours on Saturday 
in an effort to get all floors in the three main buildings stripped and 
waxed.
    Increased Policing of all Building Entrances--All building 
entrances are policed between 7:30 am and 8:30 am by several laborers.
    Increased Cleaning of Glass Surfaces--All glass surfaces in public 
areas, including main entrance doors, courtyard doors, subway doors and 
inner building connecting doors which had previously been cleaned only 
in the morning are now being cleaned again in the early afternoon.
    Exterior Window Cleaning--A contract has been awarded for the 
exterior cleaning of all windows in the Cannon, Longworth, and Rayburn. 
Work began on June 16, 2001 with all buildings scheduled for completion 
by July 13th. The cleaning of the Longworth windows was delayed due to 
activity associated with the completion of the new roof and fall 
protection system. Interior window cleaning in these buildings will be 
scheduled and completed in July. The Ford Building windows were cleaned 
under the cleaning contract for that building.
    Senior Management Involvement--Each assistant superintendent has 
been assigned overall responsibility for one of the main House Office 
Buildings. In addition, management staff has begun weekly walkarounds 
with members of the inspection and service officer staffs for training 
purposes.
    Despite these initiatives, we have been unable to provide the level 
of day-time policing that is necessary to maintain a high level of 
cleanliness. The contractual services, previously described, have been 
procured with the funding provided. Our goal is to check the public 
restrooms every hour during the day. While we were unable to finalize 
the permanent contract earlier in this fiscal year, we anticipate 
obligating the full amount proposed for contracting these services in 
FY 2002. We are requesting that $350,000 of the FY 2001 funds be 
reprogrammed for a portion of the cost for the replacement of the 
Longworth Building revolving doors. This is necessary in order to meet 
Life Safety requirements for emergency egress of the building.

                       Employee Shower Facilities

    Mr. Moran. When you close the O'Neill Building, you close 
down two of the only four showers available to employees. 
Members have a decent gym with shower facilities downstairs, 
but a lot of workers, staff people, they like to ride their 
bike, which we are trying to encourage, or many of them work 
long hours. They might like to get a jog in during the day. It 
is almost impossible to find a shower that is available. And 
the Pentagon has any number of showers available. And I think 
any large corporation would as well. And we suggest to 
corporations to have good, high quality human resource 
policies, but we do not do it ourselves. What are you going to 
do about that? Is there a way to address that?
    Mr. Hantman. What I would like to do is a search of where 
it might be appropriate for shower rooms and make 
recommendations on the basis of those that may need replacing.

                        Waste Recycling Program

    Mr. Moran. I think that would be an appropriate thing to 
look into.
    And lastly, before I move on, this has been a recurrent 
problem, but a number of offices go dutifully about putting 
their trash in different bins so they can recycle. They put the 
bottles in one and paper, and so on and so forth, and they are 
very conscientious about it and then it is collected and then 
again and again we hear it is all for naught. It is a sham 
because it is all ultimately mixed in together. So it just 
makes the offices feel good that we are keeping the trash apart 
when ultimately it is all thrown in together. Is there any 
truth to that suspicion?
    Mr. Hantman. There had been in the past. Bob, update us on 
the recycling program.
    Mr. Miley. I think we have made some progress since January 
on the recycling program with the upgrading of the program 
manager's position and assistant. We were two years trying to 
recruit for that position. We were fortunate to hire a young 
lady, Mary Alice Baker, who was the recycling coordinator for 
the city of Pasadena, California, and a gentleman by the name 
of Calvin Durham, who came from the school system in Norfolk, 
Virginia. Those two have been on board since early January. 
They have made some modifications to the program.
    We still have the same basic recycling program, but we have 
modified it somewhat to try to make it more user friendly. In 
doing that, we have done a much more intensive job of labeling 
containers, including a new color coding of labels for the 
containers. We have begun offering a variety of container 
sizes. Previous to this time you had to take what we offered 
you. Now we come to you and give you a choice of numerous 
containers.
    We have been holding seminars since March 23. We began the 
new modified program and have been able to redistribute new 
containers to approximately 190 offices which consisted of 
about 4500 new recycling containers. This is ongoing.
    Mr. Moran. That is good. I think a lot of offices are 
conscientious. It is what happens to the trash afterwards.
    Mr. Miley. One other improvement that we think is 
significant progress was to form a separate recycling 
collection crew. We have taken recycling collection away from 
the custodial duties and we have a crew of 20 half-time people 
that now come through the offices from 7 p.m. to 11 p.m. We are 
working with a smaller number of people, and it is much easier 
to train them. There is much more concern for the productivity. 
We also have put the people in recycling uniforms with 
recycling symbols to identify them as recycling collectors.
    Mr. Moran. We just want some truth in recycling is all. We 
spent an hour in the Appropriations Committee debating this one 
time, I remember, but you are going to always have people 
watching it, and I think our suspicions are oftentimes borne 
out.
    Mr. Hoyer. I thank the gentleman for yielding. Do we have 
an objective measurement of the amount of material that is 
recycled, glass, plastic, and paper, in particular, by 
poundage? In other words, one of the objective standards might 
be what we did 5 years ago and what we do now. I tell you my 
staff believes that we separate it and it gets put back 
together at the time that it is dumped.
    Mr. Miley. We, again, still feel that there may have been 
an isolated case, but that is not happening. As far as 
quantities, we are recycling between 1,500 and 2,000 tons of 
material a year. We have calculated that we are recycling about 
35 percent of our waste stream, which is equivalent to what the 
executive branch has established as a goal for the year 2005.
    Our greater objective is to clean that waste stream up so 
that we get a higher rate of return for the product. Right now 
we are talking about waste streams, what we consider mixed 
paper, and the rate of contamination is such that we are 
getting very little dollars for it. Our biggest objective is to 
clean that waste stream so that we get a much higher return for 
it.

                          Page Dorm Occupancy

    Mr. Taylor. Mr. Wamp.
    Mr. Wamp. A series of questions, and speak up down there. 
On this side, it is hard to hear. The assistant said late 
August for the page dorm and we heard early August.
    Mr. Turnbull. No, I said we will be ready for late August 
occupancy.
    Mr. Trandahl. The move-in is set for the first week of 
August. And then people will actually occupy and live in the 
facility in late August.
    Mr. Wamp. But there is not a disconnect between when you 
have the building ready and when you will occupy it?
    Mr. Turnbull. Absolutely not.

                    visitor center tunnel to library

    Mr. Wamp. The Visitor's Center site includes an underground 
connection to the Library of Congress or does not?
    Mr. Hantman. No, it does not. When we met, the $265 million 
included the Visitor's Center per se and it included the shell 
area for expansion for the House and the Senate and the 
connections into the Capitol. We were authorized by the 
Preservation Commission to do construction documents for the 
library addition, that connection, and once the construction 
documents were finished and we got a number in on it, it would 
be determined whether or not--and we are estimating about $12 
million--that that should be done or should not be done and 
what the source of the funding might be.
    Mr. Wamp. But it will be designed so that it could be done 
at that time without any interruption?
    Mr. Hantman. Absolutely. It is basically an add to the 
construction documents. If we are so directed to build it, we 
will be able to include that.

                        visitor center timeline

    Mr. Wamp. When is the estimated start time on the building 
of the Visitor's Center and completion?
    Mr. Hantman. We are talking about going to bid the last 
quarter of this year and the completion would be in 2005. What 
we are saying is that for the 2005 Inaugural that this facility 
should be able to help facilitate that maybe in terms of 
screening, but we will still be doing finishing work in 2005 
and it will be completed and opened in that year.

                       botanic garden contractor

    Mr. Wamp. Back to the Botanic Garden, has there been a 
conflict with the contractor not being willing to guarantee 
connections from the glass? Tell us about any refusal by the 
contractor to adhere to the contract documents or any aspects 
of construction that would be considered normal in the 
industry.
    Mr. Hantman. There are some issues relative to the 
fabricator under the contractor working on the trusses and not 
fabricating the trusses the way the design was originally made. 
So there were some concerns about the strength of those 
trusses. That is one of the reasons in part of delaying the 
project. They went back and reengineered. They got their 
engineers in and came back.
    Mike, do you have any more to add?
    Mr. Turnbull. Continuing on what you said, we have hired an 
independent structural engineer to go back and review their 
certification that indeed it is totally fine. But it was an 
issue where they just took upon themselves to change the 
design.
    Mr. Wamp. Bottom line, are you confident that upon 
completion, if there is an incident where structurally, in 
terms of the fasteners or the stability of the entire system 
above people, that people will be held accountable?
    Mr. Turnbull. Absolutely. Absolutely, Mr. Wamp.
    Mr. Wamp. You do not anticipate a problem now that they 
redesigned it, reengineered it and remanufactured it?
    Mr. Turnbull. Absolutely. Absolutely.

                        maintenance and repairs

    Mr. Wamp. We talked about salary and workforce and we 
talked about people not being at work. What technology is the 
Superintendent's office using to increase the efficiency of 
regular repairs? It seems like there is a division of labor. 
One group comes and they can't do it, and they go back and 
another group comes.
    It seems like a lot of parts of the House operations are 
very high-tech and others seem to not be high-tech at all. What 
percent of your workforce actually uses technology--Computers, 
e-mail, web forms--to increase efficiency of your operations?
    Mr. Miley. Well, every one of our shops have e-mail 
systems. Not every employee is on the e-mail subscriber list; 
certainly every shop, every foreman, every assistant foreman 
has that capability. We have work order systems. We are 
presently implementing a CAFM system, which will actually 
computerize all of the accounting and building automation 
systems. The Computer Aided Facilities Management system is 
what CAFM stands for. And as a part of that, it will have a 
work order system built into it. It will have a financial 
management system tied in with it.
    Mr. Wamp. Have you thought about having some kind of 
response team that can actually deal with a problem like other 
law enforcement organizations do? There are problems of 
critical importance around here. We had construction in Cannon 
between the fourth and fifth floor and for weeks on end it was 
all curtained off but nothing was going on in there and it 
seemed like it was at a standstill for a long period of time. I 
wonder why you can't be more battle ready to go out with a 
response team and their focus is to get it fixed and get out of 
the way. It just really sounds like inordinate delays with 
construction and maintenance and repairs around the Capitol.
    Mr. Miley. Two issues that I think relate to that. One is 
that we have just recently assigned each of our top management 
officials, each of the assistant superintendents, the 
responsibility for each of the buildings. I have four 
assistants and each one of those have responsibility for total 
operation and maintenance of that building. So they are looking 
much more closely at a particular building. I think that will 
help part of what you indicated. We also have most recently 
gone to a multicraft mechanic position. We have a new crew of 
what we call multicraft mechanics so that we are not quite as 
specialized.
    There is an awful lot of work that is general. When they 
come up, if they need to fix your air conditioning thermostat 
and at the same time you have some light bulbs out or a 
dripping faucet at the sink, one person can do all of those 
tasks. So yes, we are heading in that direction.

                            cannon elevators

    Mr. Wamp. We are approaching a point where the Cannon 
elevators are broken more than they are in operation. It is 
unbelievable. When are we going to get new elevators in Cannon?
    Mr. Miley. We have specifications being prepared right now. 
We have funding for the renovation of those elevators and those 
specifications should be on the street I think within the next 
month or two with actual renovation to begin late this year.
    Mr. Wamp. For all the elevators in Cannon?
    Mr. Miley. We will do three the first year--the three worst 
ones the first year, four the next year, and so forth over the 
next 2 to 3 years.

                         manager accountability

    Mr. Wamp. Final question, the Superintendent's office, how 
do you annually hold managers accountable for their 
performance? What kind of built-in standards do you have in the 
Superintendent's office to ensure that Members get great 
response from the Superintendent's office, not just mediocre 
response?
    Mr. Miley. We are just putting in place a program through 
our Human Resources Division that will evaluate managers on a 
yearly basis. That is brand-new to the entire Architect's 
organization and is being implemented right now.
    Mr. Wamp. Thank you, Mr. Chairman.

                        Visitor Center Contract

    Mr. Taylor. I wanted to ask the question that you just 
mentioned. When did you say we are letting the contract on the 
Visitor's Center?
    Mr. Hantman. The last quarter of this year.
    Mr. Taylor. Now, it is my understanding the plans slipped 
from September to December. What are we going to be doing 
without plans?
    Ms. Poole. From September until about springtime of next 
year we are going to be doing what we call enabling projects 
and those are projects such as preservation, movement of 
utilities, utility lines before we actually start digging, 
relocation of some of the major telecom lines that are coming 
into our hub rooms here at the Capitol building, and the 
installation of a temporary physical access point so that when 
we do start getting on the East Front, visitors will then be 
provided with a different access to the building.
    All of that is going to be done between December and April. 
Late in the fall of this year, November, December time frame, 
we are going to go out with a full contract which will actually 
be the construction of the Visitor's Center itself and that 
contract is scheduled to be awarded some time in April.
    Mr. Taylor. When are the plans going to be finished?
    Ms. Poole. December.
    Mr. Taylor. In December? And you are going out this fall to 
let a contract?
    Ms. Poole. We have November, December, the final design 
will be completed and with the----
    Mr. Taylor. Well, it has to be approved.
    Ms. Poole. Yes, sir, it must be approved by the Commission.
    Mr. Taylor. And I do not know whether that will be done by 
the end of the year if you do not finish the plans before 
December.
    Ms. Poole. We are planning to finish the plans by November 
and come to the Commission sometime early December for approval 
of the final design package and provide you with final cost 
estimates.
    Mr. Taylor. You are probably assuming if everything goes 
well you probably won't even have plans for a contract to make 
any estimates on or before the first of the year. Is that what 
I am hearing you say? Am I wrong?
    Ms. Poole. We are planning on finishing the design by the 
end of November and a estimate completed to come to the 
Commission early December.
    Mr. Hantman. Full construction documents.
    Ms. Poole. Full construction documents.
    Mr. Taylor. Well, you will have to move it much faster than 
I imagine it will. Mr. Hoyer?

                     Visitor Center Cost Estimates

    Mr. Hoyer. Thank you, Mr. Chairman. While we are on the 
Visitor's Center, Mr. Hantman, you are pretty confident that 
$265 million is, in fact, the cost that will be good through 
2005?
    Mr. Hantman. That is correct.
    Mr. Hoyer. Now, am I correct in understanding that there 
have been estimates in the $300-million range of the work that 
will eventually be required?
    Mr. Hantman. As I indicated earlier, there were two 
estimates. Again the belt-and-suspenders approach, two 
different firms took a look at it and reconciled the 
differences to ensure if there are fundamental differences and 
adjust as we are completing the construction documents. Yes, so 
we in fact met with GAO last week and talked about the two 
estimates and the range of differences between them. And Peter 
May stood up a little while ago and talked about the issue of 
where the reconciliations have to occur and making sure they do 
not include things that should not be in the project, that the 
quality of the systems was appropriate, and those kind of 
trade-offs are still occurring as we complete our construction 
documents.
    Mr. Hoyer. Because the trade-offs are still occurring, is 
the objective to ensure that the trade-offs reach $265 million 
or will there be a reestimate once the trade-offs have been 
made?
    Mr. Hantman. We are constantly doing estimates.
    Mr. Hoyer. In other words, the $265 million, I want to know 
how hard a figure that is, because it will be this subcommittee 
that will be presumably asked to fund any additional sums that 
may be necessary. If that is correct, then we ought to have a 
pretty hard estimate soon, before certainly we select a 
contractor. What I am trying to get at is specifically how hard 
a $265 million figure is, particularly in light of the fact 
that the trade-offs have not been finally decided.
    Ms. Poole. The trade-offs are continuing as we speak and we 
will be doing a reestimate of the entire package.
    Mr. Hoyer. And that will be done when?
    Ms. Poole. In the next 2 months.
    Mr. Hoyer. So, am I correct that we will really not have a 
harder number for another 60 days?
    Ms. Poole. The number that you have, that is once it is 
reconciled, it is a good number to have for the 50 percent 
design. The 75 percent design number is a revalidation of that 
number to ensure that the 265--it is a harder number, but the 
number that we should be able to report to you in the next 2 
weeks will be a hard number based on the 50 percent design that 
we have done.
    Mr. Taylor. Mr. Hoyer.
    Mr. Hoyer. I yield back.
    Mr. Taylor. The question you are asking, and I certainly 
share it, are there any projects that are being considered for 
the Visitor's Center that are not in the $265 million? And 
could you maybe outline that and that might give us an idea of 
where you are going cost wise.
    Mr. Hantman. One of the concerns, Mr. Chairman, of any 
project is scope creep, which is why I tried to define earlier 
what the scope of the project was. The Visitor's Center per se, 
the shell space, the connections to the Capitol, those are part 
of the scope of the $265 million. The Library of Congress 
tunnel is not part of that scope.
    As we have gone through design phases we have taken a look 
at a couple of other issues that might potentially be done to 
supplement the spaces and the flow of Members into and through 
the expansion spaces. For instance, we think that it would be 
very helpful right now to supplement the connection--we have a 
connection from the Cannon tunnel coming into this expansion 
space from the House side. We have a connection from the subway 
tunnel on the Senate side coming into this area. A second means 
of access from the Capitol under the House steps would be a 
very direct way for people in the House to be able to get into 
the expansion space and the Visitor's Center itself. Whether or 
not that piece of work gets funded or not or gets done as part 
of the Capitol building itself, it is an estimated $5 million 
cost that is not included in the project.
    It is a question of whether the House wants that to be done 
and where the funding for that piece comes from. We are not 
adding any additional scope at this point in time other than 
that additional scope.

                            employee status

    Mr. Hoyer. Mr. Chairman, I am sure both you and I and other 
members of the committee will spend a lot of time on this 
project, developing exactly where we are and what it is going 
to cost and what is included, and perhaps we ought to do that 
at some point in time.
    Let me get back, however, to at least one question and then 
unfortunately I am going to have to leave. I, as you know, have 
been very concerned about the status of our employees, the 
custodial folks that Mr. Moran was talking about, cafeteria 
employees. What is the status of the Harris case? The Harris 
case, for the Members, is about differential between what our 
custodial personnel earn, 99 percent women, and what our so-
called labor personnel, mostly men, earn.
    The analysis shows that they do about the same thing, but 
the laborers, 99 percent males, were paid a dollar and what?
    Mr. Hantman. Roughly a dollar more.
    Mr. Hoyer. A dollar more an hour for essentially the same 
work that the women who are custodial women largely are paid. 
There was a suit about that and my understanding is settlement 
is pending. What is the status?
    Mr. Hantman. As you are aware, we have reached terms. There 
is an agreement between us. Right now it is at the Office of 
Compliance. They want some additional language to be factored 
into the agreement. There is a fairness hearing scheduled 
before Judge Sullivan on July 27th. So if the compliance group 
comes up with the right wording we are working with the 
plaintiffs and we are in agreement on it and we will have a 
settlement.
    Mr. Hoyer. Talking about that, I want to commend your 
office, Bob Miley and others who were in the meeting. I know 
you recently had a meeting with representatives of the 
employees. Hopefully those meetings will be ongoing. Many times 
it works out problems that other times would fester and expand 
and become a cancer.
    Mr. Hantman. They are the eyes and ears of the union. If 
there is something that we can do to improve the productivity 
and working conditions, that is wonderful.

                            employee safety

    Mr. Hoyer. Mr. Chairman, when the Republican Majority came 
in we adopted some legislation which I think was excellent. We 
started it under the Democrats, but I think the new 
administration under Mr. Gingrich and Mr. Thomas and your 
predecessors as chairman of this subcommittee have pursued it. 
But we need to do better, in my opinion, in terms of treating 
our employees as we would require them--I have a lot of safety 
questions--I won't have time to get into them--as to all the 
safety equipment and injuries on the job.
    Secretary O'Neill, our Secretary of the Treasury, at Alcoa 
had one of the best safety records in the industry. He was very 
concerned about that. My information that I have is that our 
record is not as commendable and we need to work on that.
    Mr. Hantman. Absolutely.
    Mr. Hoyer. Mr. Chairman, I would hope we would pursue some 
of these issues so that we are assured that our employees are 
treated fairly and are safe on the job and that we get 
efficiency as well as performance.
    [The following questions from Mr. Hoyer and responses 
follows:]

                QUESTIONS FOR THE RECORD FROM MR. HOYER

    Question. I am very concerned about the high rate of injuries among 
AOC employees.
    Response. The Architect too is concerned about our high injury 
rate--it is unacceptable and the Agency is taking aggressive action to 
reduce it.
    Question. What accounts for your high injury rate, and what are you 
doing to reduce it?
    Response. Back injuries represent over 20% of AOC FY00 injuries, 
upper extremity injuries (fingers, hands, and arms) are the second most 
predominant type of injury followed by lower extremity injuries (legs, 
ankles, and knees) and head the eye injuries. Back, arm, leg, and knee 
injuries typically include strains, twists and twinges. Finger and hand 
injuries are typically cuts, bruises, and dislocations. Head injuries 
typically consist of bumps, cuts, and foreign material (eye).
    Our workforce is almost 80% blue collar; many jobs entail physical 
labor. Laborers, custodial workers, electricians and food service 
preparation workers had the highest numbers of injuries in FY00.
    In FY00, 17.7 of every 100 employees reported an injury that 
incurred a medical cost or recuperation time away from work. Of those 
17.9 percent injured, 2.92 required recuperation time away from work--a 
decrease from 10.35 in FY98--enmcouraging progress. In other words, 
although the total number of injuries is unacceptably high, the 
severity of most injuries is relatively minor--employees are able to 
return to work the same or next day.
    The Congressional Accountability Act of 1996 required the AOC to 
comply with Occupational Safety and Health Act regulations. There is 
much work to do to comply with OSHA and reduce our unacceptably high 
injury/illness rate. During the past year:
          A safety policy statement was approved and distributed to all 
        employees
          Personal protective equipment (PPE) was provided to all 
        employees
          Superintendent met with all personnel to ensure they have 
        needed PPE
          The Architect issued memos outlining supervisor and employee 
        responsibility reguarding safety
          Working with the Public Health Service, the first three (3) 
        of forty-one (4) safety program policies were approved and 
        distributed: Hazard Communication, Confined Space, and PPE. 
        Three more program policies are under development and scheduled 
        for final approval this fiscal year: Bloodborne Pathogens, Fall 
        Protection, and Respiratory Protection. Four programs scheduled 
        for FY02 approval were drafted and are in the initial review 
        process: Lead, Asbestos, Electrical Safety, and Lock out/Tag 
        out
          Policies for the Safety, Health, and Environmental Council 
        and Jurisdictional Occupational Safety and Health Committees 
        were approved
          Safety Committees were established in all jurisdictions and 
        are meeting monthly to discuss safety matters and review 
        injury/illness reports
          The Architect established a goal to reduce total injury/
        illness rate by 10% per year for the next 5 years from the FY00 
        baseline of 17.9
          A high level 5 year Occupational Health and Safety (OHS) Plan 
        was developed to meet the injury reduction goal and established 
        as priorities:
                  1. Hiring required staff (central and 
                jurisdictional--underway),
                  2. development of job hazards analysis process and 
                policy (underway) and performance of job hazards 
                analysis for all work (to be completed FY02) so that 
                hazards can be identified and eliminated or controlled,
                  3. improvement of the injury/illness investigation 
                process (underway) to include root cause analysis and 
                implementation of corrective actions across the Agency 
                to prevent recurrence,
                  4. development and inspection and audit process such 
                that we critically evaluate our work and identify and 
                correct deficiencies (to be completed in FY02), and
                  5. development, approval, and implementation of 41 
                safety programs (implementation of the last program 
                will be completed in FY05).
          The Architect has initiated periodic shop walk arounds, 
        visiting work sites, emphasizing PPE usage and discussing 
        safety concerns with employees.
          The Architect recently met with the General Counsel for the 
        Office of Compliance to discuss the fire and occupational 
        safety program and review the 5 year OHS plan.
    Question. Do all your workers have the proper personal protective 
equipment (PPE) that would be required on any similar private-sector 
worksite? Is it your policy that employees must always use any such 
equipment that is issued? If so, what steps do you take to ensure 
employees always use the proper PPE?
    Response. As mentioned previously, all employees have been provided 
with proper PPE-similar to PPE required at a private-sector worksite. 
In the last three months, Superintendents have met with all employees 
to ensure they have adequate PPE. The Architect personally makes 
inquiries regarding PPE availability and use when performing his work 
site walk arounds.
    Employees are required to use PPE. In memos of 4 April 2001, the 
Architect explained this requirement in no uncertain terms as well as 
other expectations regarding employee and supervisory safety 
responsibilities.
    Supervisors at work sites enforce safety rules, including use of 
PPE. AOC Safety Specialists perform work site oversight inspections to 
verify use of PPE and adherence to safe work practices. The Architect 
verifies employees are wearing PPE when he performs his walk arounds.
    Those employee who are found not to be wearing required PPE are 
subject to discipline in accordance with the Agency's progressive 
discipline policy. Supervisors who fail to enforce use of PPE and other 
safety rules are also subject to discipline.
    The AOC recognizes progress has been made but there is much left 
yet to do. Agency management remains committed to applying the 
necessary resources and talent to improve the safety and well being of 
our employees.
    Question. As a member of the police board, do you believe we should 
post capitol police officers at the botanic garden before we have 
reached our goal of posting two officers on every door throughout the 
capitol complex? Has there been a formal assessment of a threat at the 
botanic garden?
    Response. There are some new safety concerns at the Botanic Garden 
Conservatory that did not exist in the past. There are now two 
entrances, one of which is in close proximity to the new basement area 
and we are expecting the number of visitors to increase. With out an 
onsite security presents the threat of theft is higher as well at the 
opportunity to attract traveling exhibits and other temporary displays, 
most of which have a security requirement will not be possible. The 
Conservatory will be unable to operate at overall level other 
institution in the Capitol complex as well as those on the Mall. We 
would defer the analysis and recommendation of the level of security 
required at the Conservatory to that in other buildings in the Capitol 
complex to the Capitol Police.
    Question. Of the unfunded positions that you seek to fill in 2002, 
how many are mid- or senior-level positions, and how many are direct 
service providers, such as custodians and laborers for the house side, 
for which you are continually short-staffed? What are you doing to 
remedy the problem of absenteeism at the service-provider level?
    Response. Of the 48 positions requested, 33 are mid to senior level 
positions ranging in grade from GS-11 to GS-14, 6 are technical/
clerical positions ranging in grade from GS-4 to GS-9, and 9 are wage 
board positions. Five of the positions are related to enhance customer 
service. Of the remaining, 13 are fire and life safety related, 7 for 
improved project delivery, 10 are in our information resources 
management area, 6 are for the reopening of the Botanic Garden 
Conservatory, 2 are for auditable financial statements and 5 are to 
meet the legislative mandated (Sec 310 of P. L. 105-275) energy 
conservation mandates.
    Regarding absenteeism, we are attempting to reduce the rate through 
several actions:
    (1) We have the need to fill custodial vacancies on the night shift 
and through recent recruiting efforts have identified 13 night shift 
custodians to fill current vacancies. Once these employees are on the 
job, it is expected that the need for custodians to clean areas for 
employees who are absent will be significantly reduced. This is often 
cited as a major working condition issue and should result in a 
reduction in the absenteeism rate.
    (2) Management, at the Superintendent level, meets with all first 
line supervisors on a regularly scheduled basis to review attendance 
records for all employees. During these meetings, specific actions such 
as counseling, letters of warnings or disciplinary actions are 
discussed, and any current or long term problems are addressed. One 
important benefit is that these meetings foster consistence across the 
House Office Buildings and help to ensure that all employees are 
treated fairly and equally.
    (3) A reduction in the rate of injuries will have a direct impact 
on absenteeism. Supervisors hold monthly meetings with employees to 
discuss safety issues. Safety awareness is emphasized and specific 
situations or concerns are discussed. The need to use Personal 
Protective Equipment (PPE) is stressed. Management has met with all of 
the employees to identify PPE which is required for various tasks. The 
goal is to establish a culture in which the employees are always 
thinking about safety.
    (4) We have brought on board a management/personal consultant who 
has been working with the night shift custodial and labor employees to 
identify issues affecting the workforce. He has a broad mandate to look 
at all issues including morale, working conditions and attendance. He 
provides an independent and unbiased analysis of the current state of 
the workforce. One of the expected benefits of this effort is a 
reduction in the rate of absenteeism. One recommendation involved the 
identification of the need for the Superintendent to have more 
interaction with the night shift employees. Therefore, in recognition 
of this, night time walk arounds by the Superintendent have been 
initiated.
                   long-term use of temporary workers
    Question. I am concerned about the AOC's long-term use of temporary 
workers who do not receive the employee benefits available to most 
federal workers. Focusing on your largest category of temporary 
workers, those who work on construction projects, how many such workers 
do you now employ and what benefits do they receive?
    Response. As of December 2000, the AOC employed 289 individuals 
engaged in construction and special maintenance work. These workers 
were hired for a variety of reasons, including for work that must be 
performed pursuant to a deadline when there is insufficient time to 
compete for a contractor, for work that would be disruptive to the 
operations of Members of Congress, Committees and staff and that must 
be frequently stopped and started, for which a contractor would charge 
excessively, and for work that is funded by an annual or multi-year 
appropriation.
    The AOC pays Social Security contributions on behalf of these 
workers. In addition, after one continuous year of employment, these 
workers may participate in the Federal health benefits program, but 
must pay the entire cost of the premium (both the employee and 
government shares). As part of their pay, these workers receive an 
additional hourly payment for fringe benefits that is intended to cover 
the cost of such benefits.
    Question. How long is the typical temporary construction worker in 
your employ? Please provide detailed overall data derived from the 
employment histories of the temporary construction workers now in your 
employ.
    Response. As of June 1, 2001, the average tenure of an AOC 
temporary construction worker is 4.5 years, excluding 58 workers who 
have under one year of employment. This average tenure rate reflects 
the aggregate service history of these workers given that they work an 
intermittent work schedule. The following chart reflects a detailed 
summary by year of the number of Davis Bacon workers' service history 
as of June 2001. To provide a comprehensive review of individual 
service histories would require staff resources and additional time of 
approximately 6-9 months as this involves a manual review of individual 
employee records.

[GRAPHIC] [TIFF OMITTED] T5248B.158

                        QUESTIONS FOR THE RECORD

    Question. Of the present temporary construction workforce, how many 
have been with AOC for more than a year? Temporary workers with over 
one year's service can participate in the federal health-insurance 
program, if they pay the entire cost, correct? How many of those now 
eligible actually participate in the FEHBP, paying both shares? Does a 
typical temporary worker's fringe payment cover 100% of the cost of the 
blue-cross standard option, which exceeds $340 per month for a single 
person, and more for a family?
    Response. As of June 1, 2001, 261 temporary construction workers 
have been employed by AOC for more than one year. Workers hired to 
perform construction and special maintenance work that are paid in 
accordance with rates established by the Secretary of Labor for the 
Davis Bacon Act are, after one continuous year of employment, eligible 
to participate in the Federal health benefits program, but must pay the 
entire premium (both the employee contribution and government 
contribution). A December 2000 report reflected that 17 employees had 
elected to participate in the Federal health benefits program.
    The fringe payments (established by DOL) of AOC temporary 
construction workers vary widely based on occupation and range from 
$2.85 per hour to $8.40 per hour. The average fringe payment made to 
temporary construction workers in calendar year 2000, was $8,883.00. 
For 39 employees whose fringe rate is $2.85 per hour, the cost of self 
and family coverage exceeds the fringe rate. However, for the majority 
of employees, this amount is sufficient to pay the entire cost of the 
Blue Cross/Blue Shield (Standard Option) health benefits plan for 
either self-only coverage or self and family coverage. The annual cost 
of the self-only coverage, including both the employee and Government 
contribution, is $3,142.10; the annual cost of self and family 
coverage, also including both the employee and Government contribution, 
is $7,194.98
    BC/BS--Self Only Std EE Cost--$34.26/PP Govt Cost--$86.59 = $120.85 
<greek-e> 26 = $3,142.10.
    BC/BS--Self & Family Std  EE Cost--$80.91/PP  Govt Cost--$195.82 = 
$276.73 <greek-e> 26 = $7,194.98.
    Question. The report provided to the subcommittee on this subject 
in May says you have recently limited the appointment of new temporary 
workers to less than one year. Why have you chosen to limit new 
appointments in this way?
    Response. We are not limiting the appointment of new temporary 
workers to less than one year. We implemented a process of making 
appointments with a not-to-exceed one year time frame so as to review 
the need at the end of the year to see if there was a sound business 
need to make a new appointment. Past practice had been that once 
employed, the appointment could go on for years without a periodic 
review to see if there was a continuing business need. Based on this 
review, if it is determined that there is a continuing business need, 
another appointment is made for the employee, if not, the appointment 
ends.
    Under this practice, if a determination is initially made that the 
temporary worker is needed for more than a year (i.e., for a project 
expected to last 2 or 3 years), the appointment is made for that length 
of time. If at the end of the appointment (i.e., the 2nd or 3rd year) 
it is deemed that there is a continuing business need for the temporary 
worker, a determination is made as to the appropriate length of another 
appointment. If the needs have been met, the appointment ends.
    Implementation of this practice was to ensure that temporary 
appointments did not go on continuously for long duration without the 
benefit of a periodic needs assessment and to base another appointment 
on business needs.
    Question. Further to the preceding question, what, if anything, 
prevents you from establishing a shorter threshold period, such as 120 
days? What prevents you from converting the hundreds of temporary 
construction workers who've been with you for years, but who do not 
currently receive full benefits, to another category (e.g., temporary 
without time limitation or temporary for more than one year) which 
would afford them full benefits?
    Response. The 261 workers with aggregate service of more than one 
year are excluded from retirement, life insurance and thrift savings 
plan coverage by regulation because they work an intermittent work 
schedule, not because of their temporary employment. When AOC recruits 
for short-term construction projects, we appoint Davis Bacon workers 
for 90 days, 120 days, 6 months, etc., depending on the nature of the 
project.
    As discussed in the April 2001 report ``Temporary Employment at the 
Architect of the Capitol'', AOC provided three alternatives to use of 
temporary workers. The advantages, disadvantages as well as cost 
estimates for these alternatives were outlined.
    Question. Assume that congress is going to require you to eliminate 
the long-term use of temporary workers. What is your preferred approach 
and the associated cost?
    Response. Should Congress require the elimination of long term use 
of Davis Bacon temporary workers, the AOC preference would be to 
convert all these temporary workers, employed at that time, to 
temporary Wage Rate employees. Employees may choose not to accept the 
conversion appointment in which case AOC would have to recruit 
extensively for the vacant positions or would need to contract out for 
such work.
    This option would provide AOC the ability to work around 
congressional schedules to minimize noise, dust and other disturbances, 
but at a higher cost based on fixed shift work schedules. This option 
would also necessitate an increase in the AOC budget to cover 
additional salaries and related expenses.
Actual Cost:
DB CY 2000 Annual Wages for 289 WAE workers.............     $12,433,648
DB CY 2000 Annual Fringe Paid for 289 workers...........       2,567,112
DB CY 200 Social Security Contribution (FICA) for 289 
    workers.............................................         951,174
                    --------------------------------------------------------
                    ____________________________________________________
  Total.................................................      15,951,934
                    ========================================================
                    ____________________________________________________
Projected Annual Cost:
WG CY 2001 Wages for 289 Full-time workers..............      13,128,528
    (257 equivalent to average employee salary of WG 10 
      step 5)...........................................
    (32 equivalent to average supervisor salary of WS 11 
      step 5)...........................................
WG Projected Benefits (including FICA) for 289 workers         4,988,841
Leave Accrual Costs                                              950,000
    (33% each in 4, 6, 8 hour annual leave category)                    
    (100% in 4 hour sick leave category)                                
Transit Subsidy.........................................         152,592
Training and Development................................         578,000
Recognition Program.....................................          40,460
Uniforms and Safety Shoes...............................         144,500
Human Resources Staff Support (2 FTE)...................         151,800
                    --------------------------------------------------------
                    ____________________________________________________
    Total...............................................      20,134,721
                    ========================================================
                    ____________________________________________________
Total Projected Additional Cost to AOC..................       4,182,787
---------------------------------------------------------------------------
* Cost projection is based on 289 employees employed as of December 
2000.
---------------------------------------------------------------------------

                              HARRIS CASE

    Mr. Hoyer. I asked a question about the restaurant. I am 
concerned about performance. I want to pay people well and give 
them good benefits, but I also want to expect outstanding 
performance from them. I think that is true of everybody in the 
Congress. I think that is fair, treat people well and you 
expect them to work hard and do well. I thank you, Mr. 
Chairman, for giving me that opportunity.
    And the Harris case if you can for the record, I would like 
you to respond so the committee would have on record the 
resolution of the case.
    Mr. Hantman. Absolutely.
    [Subsequent to the hearing, the Architect of the Capitol 
provided the following:]

                     Resolution of the Harris Case

    The parties have agreed to terms.
    The Court has given preliminary approval to the settlement and a 
Fairness Hearing is scheduled before the U.S. District Court on 
September 28, 2001.
    At the Fairness Hearing the Court will determine whether or not to 
give final approval to the settlement. The settlement will become 
effective upon receiving final approval.

                      O'NEILL BUILDING DEMOLITION

    Mr. Taylor. Mr. LaHood?
    Mr. LaHood. Mr. Chairman, I had some questions, but I 
wonder, given the fact that Mr. Sherwood was here ahead of me--
--
    Mr. Sherwood. Go ahead.
    Mr. LaHood. What is going to happen to the O'Neill 
Building?
    Mr. Hantman. The O'Neill Building is a building that, as 
you know, was designed as a hotel. The floor loading is about 
40 pounds per square foot. The configuration of it really does 
not lend itself to other uses. We are currently entertaining 
proposals to come up with a demolition program and a cost for 
demolition that we can bring to this committee for 
consideration.
    Mr. LaHood. And then what would happen, after the building 
is demolished then what happens to the property? What do you 
envision?
    Mr. Hantman. What we need to do is take a look, create a 
master plan for the needs of the House in terms of space needs. 
We have talked about the page dorm and the pages going over 
there for a discrete period of time, not forever. They might be 
brought back to another facility ultimately.
    Initially, that might be an expansion of the existing 
parking lot until we come up with a plan for what kind of space 
and what the program is for that space in the House.

                       EMPLOYEE FITNESS FACILITY

    Mr. LaHood. Let me just tell you what my idea is on this. 
And I know you will be thinking long range on this. I want to 
pick up on what Mr. Moran said. I think with as many people as 
we have working on Capitol Hill, we are well within our blue 
sky opportunities to think about some kind of a gym or gym 
opportunities for the staff that work on the Hill.
    We have a lot of staffers here. Now as Members, we pay a 
fee for the use of the House gym, and I would think that if you 
are going to blue sky some ideas around here for the use, I 
would hope that you would incorporate at least from this 
Member's point of view, the idea of some kind of facility for 
the staff here. As a former staffer, as a jogger, as somebody 
who believes that if we are going to encourage people to 
exercise, then we ought to give them the facility to do that, 
and perhaps incorporate the idea that there would be some fee 
to belong to whatever facility long range we think about doing.
    But I think it is silly to have one or two showers that are 
going to accommodate thousands of people who would like to go 
out at noontime and exercise, but do not do it because the 
facilities are not available.
    So that is this Member's idea about that, and I hope that 
if you do decide to do something with that property, you will 
incorporate or at least think about that idea.
    Mr. Hantman. I have brought the issue of programming and 
House needs--we have a House officers meeting with Jeff 
Trandahl and Jay Eagen and the Sergeant at Arms and we talk 
about the issues and we talk about beginning to get the needs 
together, and this is a real need that should be collected and 
developed into a ``what if'' type of program.
    Mr. LaHood. The truth is I know there is an athletic club 
close by, but most staffers couldn't avail themselves of it and 
I think long range we ought to think about it.
    Mr. Moran. LaHood and Moran are really interested in this 
and are not going to give up on it.
    Mr. Wamp. Me, too.
    Mr. Moran. And Zach.

                  BOTANIC GARDEN CONSTRUCTION SCHEDULE

    Mr. LaHood. As the newest member of this committee, I will 
tell you this: I also agree with what Mr. Moran said about the 
green space that is next to the Botanic Garden. That is a joke. 
And as somebody who jogs by there on a regular basis, to shut 
that whole thing down that was a joke. But I will just say 
this, I think the Botanic Garden has taken longer to build than 
it took to build Rome. And as a new member of this committee, I 
don't know what all the reasons are, but I think that is a joke 
to drive by there and to see that it is not open, it is still 
under construction. I think people wonder what the heck is 
going on around here.
    Now, I am sure you must have a very good explanation for 
that, and I don't know if we have time hear it. If we do, Mr. 
Chairman, I would like to hear it because I think----
    Mr. Taylor. I was going to ask for an update in my next 
section of questions.
    Mr. LaHood. You are lucky that Mr. Lewis is not here 
because your ears would have been burning yesterday during the 
committee hearing to hear what he had to say about it. He is 
quite upset about it. If you have an explanation, I would like 
to hear it, if you can indulge me, Mr. Chairman, to do that.
    Mr. Hantman. The construction of the conservatory is one 
year behind. The original contract called for completion in 
September of last year. They will be in September of this year. 
There was always a period after that time when we would come in 
and do the replanting of the plants, a 4 to 6-month period, and 
we are still going to be doing that. We are doing that right 
now. We welcome the opportunity to give you a tour of the 
facility. It is a wonderful, magnificent state of the art 
facility and an awful lot of work was done below ground. There 
is air conditioning, misting systems, different plants from all 
parts of the world that we control in a state of the art 
facility.
    Aside from the issue of the structural issue that we talked 
to before, we lost 4 months on the time frame of trying to get 
that and making sure the structure was being redesigned 
appropriately and the glazing continued. There was an article 
in last month's Washington Post. It was headed: ``so many jobs, 
so few workers.'' it was talking about a construction company 
getting the National Archives building for 75 million, 
celebrating, and finding out they couldn't find the workers to 
do the work. There is a quote from Dale Martin from the 
Washington Building Congress, a trade association: The manpower 
just isn't there. Contractors say their biggest challenge is 
finding laborers.
    We have had problems with this contractor properly staffing 
the job. We gave them a cure notice earlier this year 
indicating if they did not get more people on the job and 
finish the job that we would default them. Since that time they 
found a new electrical contractor. The other one was not doing 
their job, and if you cannot put the conduits in the building, 
you can't close up the walls. There is a lot of things that 
follow on behind the electrical work. We have a new electrical 
contractor on the job, the work is proceeding, and it is, in 
fact, a year late.
    So we are part of a larger metropolitan area with a totally 
full construction industry. We cannot find subcontractors in 
this environment. We have something like 30 office buildings 
being built in D.C. now, new office buildings, 20 out in the 
Dulles corridor. People cannot find the labor to do that. I 
think our contractor bit off more than he could chew and was 
not able to staff our job appropriately, and we have suffered 
because of that.
    Mr. LaHood. So that does not speak well of the construction 
of the Visitor's Center.
    Mr. Hantman. Because of the economy going down, we may be 
seeing a turn. We have a 20 percent vacancy rate in office 
buildings and if some of those buildings are not staffed, they 
may not continue building. We have contingencies built in that 
$265 million for construction as well to make sure that we can 
buy those jobs appropriately.

                     Visitor Center Impact on Trees

    Mr. LaHood. Let me ask one question about the Visitor's 
Center. The trees that are there on the East campus, what will 
happen to those?
    Mr. Hantman. A lot of the publicity we have had 
specifically dealt with the memorial trees that we have on 
site. We have close to a thousand trees on the overall campus, 
perhaps 400 on the East area. There were 13 memorial trees 
involved in the footprint of the project. Eight of them can 
successfully be moved; that is in the cost of the project and 
we are hoping to improve that for one or two of the others. We 
will be taking cuttings from some of the existing trees or 
replacing them in kind and rededicating some of those trees.
    Mr. LaHood. How many trees will be lost?
    Mr. Hantman. Fifty-two trees will be lost and we will be 
replanting 54. The allee of trees coming into East Capitol 
Street was planted 100 years ago. There were 34 of those at 
that point in time, 16 already have been lost. I think there 
are 18 left. They are beautiful trees but the whole intent of 
Frederick Law Olmstead of having a row of trees on East Capitol 
Street in line with the Dome has been lost.
    In Golden Gate Park in San Francisco, all the trees were 
planted at the same time. They are all dying at the same time 
and they are having to come up with new trees. So our plan is 
to replace those trees with a new allee of trees once the 
construction has been taken care of. We will actually have more 
trees than before and reinforce the original Olmstead design.
    Mr. LaHood. But the beauty of those trees lies in the size 
of them and that will not be realized for several decades.
    Mr. Hantman. I believe the trees are going to have to grow 
some to get back to where they are now.
    Mr. LaHood. I am probably one of the few Members of the 
House who thinks this is a lousy, lousy thing to do. I think 
building this Visitor's Center and taking down those trees and 
thinking that you are going to replace them, it is not going to 
happen. I have never really had a chance to express that, but 
since I am on this committee I am going to express it. I think 
it is a dumb idea to take those trees down. I think we are 
going to be sorry that we did that.
    I know a lot of people support the Visitor's Center and I 
know people think the Visitor's Center is going to be a 
wonderful thing, and probably will be, but we will never 
replace the beauty of those trees. If those trees could talk, 
we will have some great stories being told. You are never going 
to replace those. That is my feeling, and I am sticking with 
it.
    I also support the idea of trying to connect the Library of 
Congress to the Visitor's Center. I think it is silly for us 
not to do that. And I guess we will revisit that later on, but 
if we are going to spend this amount of money and not connect 
one of the most beautiful buildings and one that is there for 
us, I think we are making a mistake.
    Thank you, Mr. Chairman.
    Mr. Taylor. Ms. Kaptur.
    Ms. Kaptur. Thank you, Mr. Chairman. It is a pleasure to be 
back on this subcommittee and to join dear friends Charlie 
Taylor and Jim Moran and all the others. I wanted to follow on 
something that Ray mentioned. On the tree question, I am one of 
those tree huggers. I love trees. And I know there is a lot of 
publicity about this. Can you provide us as a subcommittee with 
a more definitive explanation of the footprint of the trees 
that are out there today? You say there are a thousand, and 
then those that are scheduled to be taken, maybe with some 
understanding of their height, and a little bit of their 
history.
    I would like to know more. I think the public probably 
wants to know more, and sometimes the press does not always 
accurately represent what we are dealing with here.
    So if the gentleman would agree with me to ask for further 
explanation, sometimes good information leads to better 
decisions, so I would appreciate that.
    Mr. Hantman. Absolutely.
    [Subsequent to the hearing, the Architect of the Capitol 
provided the following:]

  Best Location for Capitol Visitor Center Is Adjacent to U.S. Capitol

    Recently, questions have been raised about the impact of the 
upcoming Capitol Visitor Center on the grounds of the U.S. Capitol. 
These location questions essentially can be pared down to two principal 
issues:
    Why is the new Capitol Visitor Center being constructed underground 
on the East Front of the Capitol?
    Why do the Capitol grounds have to be disturbed during construction 
of the Capitol Visitor Center?
    The Capitol Visitor Center is being located underground, adjacent 
to, and connected with the U.S. Capitol, for several key reasons.
    Most of the U.S. Capitol dates back more than 140 years. It needs 
upgrading and modernization that would be impossible to perform in the 
structure itself without substantially altering its appearance and 
historic architectural integrity.
    Building underground allows the visitor center to be largely 
invisible from an exterior perspective, thereby complementing and 
enhancing but not competing with, or detracting from, the existing 
Capitol building.
    Building adjacent to the U.S. Capitol allows the aesthetics, as 
well as the functioning, of the U.S. Capitol to be improved in the most 
appropriate manner.
    A visitor center located any significant distance from the Capitol 
could not adequately address the physical inadequacies, accessibility, 
safety, and security needs of the existing U.S. Capitol that are among 
the major reasons why the visitor center is necessary.
     The Capitol Visitor Center has been carefully designed, and will 
be carefully managed during construction, to minimize adverse effects 
on the U.S. Capitol and its grounds during construction, and to improve 
both aesthetically and functionally upon completion. It has been 
designed to fill the area beneath the existing asphalt parking lot 
without major impact on areas of the grounds other than the gently 
sloping entrance ramps and stairs from East First Street.
    The major needs for improvement at the U.S. Capitol include 
improved fire and safety systems; better accessibly for disabled 
persons; improvements in daily functional needs, such as routine 
deliveries and garbage removal; improved security for the entire 
Capitol and all who enter it; a better educational experience for 
visitors; basic visitor services like food and restrooms; more space 
for group meetings; an auditorium-style meeting room sufficiently large 
and modern to provide for multimedia presentations and secure 
briefings; a more beautiful forecourt for the building; and space for 
essential future expansion. All of these needs are met by creation of 
the Capitol Visitor Center.
    In short, the Capitol Visitor Center is essential to the continued 
and improved functioning of the U.S. Capitol itself. Change is always 
accompanied by some loss, but change is unavoidable and, in this case, 
both necessary and beneficial.
    When complete, the East Front of the Capitol and its Grounds will 
more closely resemble the 1874 Frederick Law Olmsted vision than is 
true of the Grounds as they exist in 2001. The asphalt parking lot will 
be replaced by a gracioius granite plaza offering places to sit and 
reflecting pools; more trees will be planted than removed as part of 
the project; pedestrians will no longer be forced to compete with cars 
and trucks to enter the Capitol; and lines of sight designed by 
Olmsted, and a double row of trees as he intended for the east approach 
to the Capitol, will be restored.
    Although some trees must be removed for the project, only 13 East 
Front memorial trees are directly affected by the project. Present 
plans are for five of these to be removed and replaced, and eight to be 
moved to elsewhere on the Capitol Grounds. Arborists will attempt to 
obtain cuttings from all 13 trees in order to replant those that are 
lost in other locations on the Capitol grounds. If these efforts fail, 
the usual procedure to replace a memorial tree that dies a natural 
death will be followed--an excellent, robust specimen, usually of the 
same species, will become the replacement memorial tree.
    In regard to non-memorial trees, most of those affected are tulip 
poplars along East Capitol Street, and many of these are near the end 
of their natural lifespan. These trees will be replaced with 15-to-20-
foot tulip poplars in a manner that restores the original intention of 
landscape architect Frederick Law Olmstead. Overall, there will be more 
trees replaced on the Capitol Grounds than are lost during 
construction.
    Most of the 99 memorial trees on the Capitol Grounds will not be 
directly affected by the project. Those not affected include the Lady 
Bird Johnson Kousa dogwood tree, a pair of oaks planted in honor of two 
former Speakers, and five crab apple trees planted to honor the 
Sullivan brothers. Others will be among the eight moved, including the 
Pat Nixon magnolia, the Liberty Elm, the Speaker Albert redbud, and the 
Martin Luther King Jr. ``elm.'' (Actually, this elm died of natural 
causes and was replaced in 1993 by a zelkova, and the Speaker Albert 
redbud is a replacement for the original memorial tree that also died, 
which highlights the fact that all these trees have finite life spans). 
We also are relocating nine non-memorial trees, and we will replant 
others lost in the construction project--more than a quarter of which 
are nearing the end of their natural lives and would be replaced soon 
in any event.

                   Capitol Visitor Center Tree Facts

                         overall tree numbers.
    Total Trees on Capitol Square: 920.
    Total Trees on East Front: 346.
    Total Trees to be cut: 68.
    Total Trees to be Transplanted: 17.
    Total New Trees to be Planted: 85.
                         memorial tree numbers
    Total Memorial Trees on Capitol Square: 99.
    Total Memorial Trees on East Front: 85.
    Total Memorial Trees Affected: 13.
    Memorial Trees to be Transplanted: 8.
    Memorial Trees to be Cut (maximum): 5.
                eight memorial trees to be transplanted
    Southern Magnolia--Magnolia grandiflora--planted April 10, 1973--
gift from the Ladies of the Senate to Mrs. Richard Nixon
    Tulip Poplar--Liriodendron tulipifera--planted March 27, 1978--
Liberty Tree seedling--sponsor Sen. Charles Mathias)
    Tulip Poplar--Liriodendron tulipifera--planted March 26, 1981--
South Carolina Forestry Assoc.--sponsor Sen. Strom Thurmond)
    Japanese Zelkova--Zelkova serrata--originally was an American Elm 
Planted January 9, 1984--died/transplanted Zelkova as replacement 
1993--in honor of Dr. Martin Luther King, Jr.
    Tulip Poplar--Liriodendron tulipifera--planted May 29, 1986--in 
honor of Rep. Barber B. Conable, Jr.
    Little Leaf Linden--Tilia cordata--planted July 14, 1987--in memory 
of Sen. Edward Zorinsky--Planted by Mrs. Edward Zorinsky
    Liberty Elm--Ulmus americana ``Libertas''--planted October 22, 
1993--State of Massachusetts--sponsor Sen. Edward Kennedy
    Redbud--Cercis canadensis--original planted December 9, 1976--died/
replanted October 14, 1992--in honor of Speaker Carl Albert
               memorial trees to be removed and replaced
    Red Oak--Quercus rubra--planted November 18, 1963--in honor or Rep. 
James C. Auchincloss (New Jersey)--in fair condition but is in decline 
and has a lot of dieback
    Sugar Maple--Acer saccharum--planted April 2, 1973--State of 
Wisconsin--sponsor Sen. Gaylord Nelson)--in very good condition, and we 
are looking into the possibility of moving it
    Hybrid ``Autumn Gold'' Elm--Ulmus sapparo `Autumn Gold'--planted 
April 29, 1977--National Arbor Day--sponsors Rep. Hamilton Fish, Sen. 
Jacob K. Javits and Rep. Frederick W. Richmond--in good condition'; 
although it is likely to be immovable due to location and size, we are 
looking into the possibility of moving it
    Sugar Maple--Acer saccharum--planted December 4, 1980--in honor of 
retirement of Rep. Harly O. Staggers--sponsor Rep. John Dingell--in 
fair condition and has basal decay (trunk damage and decay at base of 
tree)
    Pin Oak--Quercus palustris--Planted 1917--Rep. Joseph Taggart--in 
poor condition and in decline

                            Capitol Visitors

    Ms. Kaptur. I also support the connection of the Library of 
Congress to any subterranean work that is being done here. With 
all the video capabilities that we have and with people 
wandering around the Capitol--how many visitors do we actually 
receive every year?
    Mr. Hantman. 3 to 4 million.
    Ms. Kaptur. How many of those are U.S. citizens? 90 
percent?
    Mr. Hantman. I do not have any number.

                       Women's Art In The Capitol

    Ms. Kaptur. No idea? I am so glad to be back on this 
subcommittee because one of my big interests is in having this 
institution more fully reflect the history of those who have 
lived and live in this country in its art exhibits. I have had 
bills for several years now on women's art in the Capitol, art 
that more fully reflects the contributions of American women to 
our way of life.
    Now, if we were to grade the Architect of the Capitol and 
all the other institutions that you have to work with to place 
these fixtures on the walls, other than Pocahontas and 
Jeannette Rankin, we are not doing all that well. As we build 
this new Visitor's Center, and as you look around, I am 
wondering what your thinking is about how we could more fully 
give this new generation of Americans that is walking through 
here the idea that they can belong here too?
    I will tell you a personal experience I had. You come to my 
office today. In it hangs the portrait of Mary Norton, the 
first urban Congresswoman elected east of the Mississippi 
River. She was here during the Roosevelt era, and I am a pro-
labor Democrat and she was responsible for writing all the 
legislation concerning labor rights in this country. Everything 
from minimum wage to time and a half for overtime and the 
National Labor Relations Act, whether you stipulate or not, she 
is a heroine to me.
    Her portrait was taken down and stored in a closet in annex 
1, and whether you agree with labor rights or not, the fact 
that this woman made a difference in this country, including 
the abolition of child labor, is a significant contribution in 
my judgment. The fact that her portrait was collecting dust in 
the closet in annex 1 or something is abhorrent to me. But it 
illustrates the issue that the contributions of women here do 
not matter.
    When we have young women coming through this Capitol, young 
men who are going to have to live with women in this new 
millennium, it seems we ought to try harder to represent the 
contributions of American women to American life. It is 
something that should have been done in 1950. And I know that 
the rule around here, if you have been a chairman of a 
committee, you get your portrait painted when you leave. But we 
have many, many women serving here, and we are at the beginning 
of our recorded history, but the art is very, very important.
    When they tried to bring that ``bathtub statue'' up, I 
found that expression very interesting, on the Suffragettes its 
created a national incident, if you remember that.
    My question, Mr. Hantman, is how can I work with you and 
the other members who care--it is bipartisan, both men and 
women have sponsored my bills--how can we deal with this in a 
more thoughtful way because people are influenced by what they 
see, especially in the legislative branch, the first branch 
mentioned in the Constitution, when they walk through here? I 
have not been satisfied with the progress that has been made in 
fully elevating the contributions of American women to our way 
of life.
    Mr. Hantman. Thank you for a very thoughtful question. Just 
as a point of information, one of the first tasks I performed 
here when I became the Architect of the Capitol was to spend 31 
hours moving that statue of 14,000 pounds from the crypt up to 
the rotunda, and I take pride in having achieved that, working 
with the Women's Museum, planning that and celebrating that. 
And I share your concern that there is a dearth certainly of 
statues and paintings throughout the Capitol.
    One of the wonderful opportunities that we have right now 
in the Visitor's Center is the artwork. The frieze in the 
rotunda ends with the Wright Brothers. History goes on. People 
contributed before the Wright Brothers and they are not 
represented as well. So we do have opportunities and we would 
welcome the opportunity to meet with you, show you some of 
these art opportunities for statues for major pieces of artwork 
or continuations of friezes that we have and are not currently 
funded in this $265 million project.
    My feeling is that future generations will want to 
contribute to it too, but whether or not it is through the Pew 
Foundation that is raising funding or other people who are 
raising funds to contribute artwork, we certainly could use 
some artwork.

                   House Curator And Historical Staff

    Ms. Kaptur. I think Members would help. It is like a huge 
omission and nobody is focused on it, even where we hang things 
on the walls, how you augment what is already there; how you 
have rotating exhibits, something through here working with 
major national museums. I don't know what your rules are. I 
just know that nobody is thinking about this in a systematic 
way because it never changes. I am after how do we institute an 
effort where someone or some set of people could know about 
this in a way where we could mobilize our private sector and 
private lending, if that is allowed, as well as some of those 
pieces that will be acquired here as we make changes. How do we 
do that?
    I know it isn't only you but the Fine Arts Commission. You 
do not have total say. What do you need from us in order to 
dedicate some staff time to this?
    Mr. Trandahl. Ms. Kaptur, I am Jeff Trandahl. I am the 
Clerk of the House, and just so you are aware, earlier in the 
hearing today I was discussing one of the ideas that I have put 
forward in my submission which is the creation of a curator and 
expanding historical staff in the House of Representatives.
    Like you, I feel that not only is there underrepresentation 
of a lot of the art, we also have failed to inventory the 
collections that we have. And we do not clearly know what we 
have and subsequently, it is impossible to know what we are 
missing or what we should probably add into the collection.
    So an idea that is within the request right now is to 
create a curatorial group in the House to begin the effort and 
help us to do that.
    [The following question from Chairman Taylor and response 
follows:]
                               FINE ARTS
    Question. The following entities play a role in the responsibility 
and acquisition of Works of Art/Statues on the House side: the House 
Fine Arts Commission; Capitol Preservation Commission; and the Joint 
Committee on the Library. Provide a description of the responsibilities 
of each jurisdiction in the acquisition of fine art and statues. Is the 
Architect of the Capitol represented within each of these areas? 
Describe the role of the Architect of the Capitol in relationship to 
the responsibilities of these entities.
    Response. The Architect of the Capitol makes recommendations to the 
Clerk of the House and the House Fine Arts Board, established by P.L. 
100-696 in 1988, regarding acceptance and placement of works of art on 
the House side of the Capitol and in the House office buildings, such 
as portraits of committee chairmen. The public law states . . . ``(c) 
Architect of the Capitol.--The Architect of the Capitol shall provide 
assistance to the Board and to the Clerk of the House of 
Representatives in the carrying out of their responsibilities under 
this title.'' The Fine Arts Board has rules and regulations passed on 
October 18, 1989. Works of art on the House side are catalogued by the 
AOC Curator, and conservation is carried out as necessary using the 
Repairs, Works of Art appropriation to the Architect. Historic 
decorative art objects, such as nineteenth-century gilded mirror and 
picture frames, have also been conserved using this fund.
    The Architect of the Capitol is a non-officio member of the U.S. 
Capitol Preservation Commission, established by P.L. 100-696 in 1988. 
``(d) Architect of the Capitol.--In addition to the members under 
subsection (b), the Architect of the Capitol shall participate in the 
activities of the Commission, ex officio, and without the right to 
vote.'' ``(e) Staff Support and Assistance.--The Senate Commission on 
Art, the House of Representatives Fine Arts Board, and the Architect of 
the Capitol shall provide to the Commission such staff support and 
assistance as the Commission may request.'' The Architect has been the 
primary entity making requests to the U.S. Capitol Preservation 
Commission for funding or approvals. Projects include the restoration 
of the model of the Statue of Freedom and of the Statue of Freedom 
itself. Follow-up maintenance of the bronze Statue of Freedom has been 
funded through Repairs, Works of Art.
    The Architect of the Capitol is the primary advisor regarding 
acceptance and placement of works of art for the Joint Committee on the 
Library. The AOC Curator works closely with Joint Committee staff and 
the congressional leadership is consulted as necessary. Before the 
creation of the Senate Commission on Art, the Joint Committee was 
responsible for the acceptance and placement of all works of art in the 
Capitol. ``The Joint Committee on the Library, whenever in their 
judgment, it is expedient, are authorized to accept any work of the 
fine arts, on behalf of Congress, which may be offered, and to assigned 
the same such place in the Capitol as they may deem suitable, and shall 
have the supervision of all works of art that may be placed in the 
Capitol.'' Revised Statues Sec. 1831, Act of June 10, 1872, 40 U.S.C.
    The Joint Committee of the Library clearly has jurisdiction over 
such joint collections as The National Statuary Hall Collection. 
However, there is yet to be a clear definition of which works of art 
are under ``joint'' jurisdiction and which are under the jurisdiction 
of the Senate Commission on Art or the House Fine Arts Board. (The 
Clerk of the House and some staff on the Senate side have expressed the 
opinion that there are jointly-owned works of art throughout the 
Capitol, and the history of acquisition shows that many were jointly 
acquired.) The Architect has funded conservation of works considered 
joint, including the fort series by Seth Eastman, and National Statuary 
Hall statues, through the Repairs, Works of Art fund.
    The Architect of the Capitol also cares for works of art considered 
architectural. In addition to the Statue of Freedom, the Liberty and 
the Eagle in National Statuary Hall was cleaned as part of the current 
renovation. The conservation of frescoes and other murals are funded 
through the Conservation of Wall Paintings account.
    The following attachment is related to the question on fine arts in 
the Capitol:

[GRAPHIC] [TIFF OMITTED] T5248B.159

[GRAPHIC] [TIFF OMITTED] T5248B.160

                   HOUSE CURATOR DISCUSSION CONTINUED

    Ms. Kaptur. And I think that the whole racial and ethnic 
exclusivity that is represented by what is on the walls here 
does not help us as we move forward in this country. So to the 
extent that we can work together on this, just know this Member 
is vitally interested in it. And I think it is important for 
our children. And when you look around our country today and 
you see what is going on it was very upsetting to me when I see 
these kids murdering kids largely in suburban areas that are 
very uniform in their makeup. Unless we learn how to deal and 
develop tolerance and better understanding, then we are not 
going to progress as fast as we can as a society.
    And I think we have to work to teach. We have an enormous 
opportunity here. And we cannot just let it slip between our 
fingers. I would appreciate the Architect or superintendent, 
whoever could come and visit with me on this. Share your 
thinking with me. And if there is anything I can put in this 
bill that could encourage you so that you feel comfortable, we 
will work with you on that language.

                               ROOM H-208

    Ms. Kaptur I want to shift to another question, and that is 
a room located here in the Capitol, maybe someone here could 
clarify the current use of H-208. It is a room on the second 
floor right outside of where we vote. In the 20th century it 
was used as the Ways and Means Committee room.
    Would somebody clarify what that room is being used for 
today, please?
    Ms. Poole. We do not do room assignments. Room assignments 
in the Capitol building are done through the Speaker's office. 
We just do not have that kind of information available to 
determine what the rooms are used for.
    Ms. Kaptur. Do you provide that space with furniture?
    Ms. Poole. No.
    Ms. Kaptur. Do you have anything to do with that room? 
Painting it? Fixing the windows?
    Ms. Poole. Yes, ma'am.
    Ms. Kaptur. So it is legislative branch appropriations that 
are spent on the room's upkeep and maintenance, the carpeting, 
the drapes. Phone installation. It is my understanding that 
that room is now being used by the executive branch. Is that a 
correct understanding? Could someone tell me that? Does the 
superintendent know?
    Ms. Poole. It would be the Speaker's office that could 
provide that.
    Mr. Taylor. Maybe we can get some information on that and 
we will move on to Mr. Sherwood and we will try to find that 
out.
    Ms. Poole. Yes.
    [The following question from Congresswoman Kaptur and 
response follows:]

                               room h-208

    Question. Can you tell us who is responsible for paying the cost of 
power, telephones, furniture, carpeting, equipment, cleaning, or any 
other item of repair, maintenance, or improvement for H-208. What have 
these charges been by item from January 20, 2001 to present?
    Response. The cost of furniture, equipment, telephone, and carpet 
is the responsibility of the Chief Administrative Officer. The 
Architect does have an annual appropriation for the operation, 
maintenance and repair of the U.S. Capitol to include H-208. All other 
work not considered maintenance and repair is done with the approval of 
the Speaker of the House. Operating costs such as utilities and 
cleaning are not tracked or available by room. No other construction or 
renovation costs have been incurred by the AOC.

                      FINANCIAL MANAGEMENT SYSTEM

    Mr. Sherwood. Thank you, Mr. Chairman. And in light of the 
impassioned comments that we have just had on the urban 
forestry and the importance of art in the Capitol, mine are a 
little prosaic. But what I wanted to ask you with regards to 
your financial management system, would you bring us up to 
speed on your computer modernization program and how are we 
transitioning from the old legacy computer systems? What is our 
progress?
    Mr. Hantman. Our computer system in the Architect of the 
Capitol is being transformed into a financial management 
system. We have as of October of this last year, we have put 
our first module up, which is a standard general ledger. 1.2 
million funded for that. We are now working that. That was the 
first of many modules. We are recording general entries on it, 
producing financial statements that we were never able to do 
before.
    We are asking for funds in this budget to continue with the 
next series of base building modules. Budget execution. 
Purchasing, accounts payable, disbursements, accounts 
receivable. This will basically eliminate the existing CAS 
system that we have now and make it compliant with Government 
standards. We have about 1.5 million and we are beginning that 
process. We are asking you to provide $1.356 million to 
complete that process which we expect to have up and running by 
March of next year.
    Concurrent with that, we have our phase 3, which is for the 
Procurement Office a contracting module, and we are asking 
720,000 for that, which we would have up and running by October 
of next year. And we are going through this entire thing. This 
inventory module we will be putting in next, a fixed assets 
module, and it will be an integrated system. You heard about 
the computer aided facilities management program that will be 
integral. Payrolls will be integral. All of these issues. We 
are moving ahead and have made a lot of progress.
    We have a new staff. And each of our groups from the 
accounting group to procurement group and all is beginning to 
work with the information that they need so they can make these 
systems be maintained appropriately and move forward. So it is 
a good story. And the financial manager's counsel, which 
includes GAO and Library of Congress, are all part and parcel 
of who we keep up to date on what we are doing. And they know 
what we are doing, and we are cross-servicing with the 
Department of Interior. It is an American management system's 
momentum program which is JFMIP compliant.
    Mr. Sherwood. Will this tie in with your analysis of your 
historical assets and the scheduled maintenance for them?
    Mr. Hantman. Absolutely. All of our work orders will be 
able to be produced through here. How much time did it take to 
do a job? Inventory systems of all kinds will ultimately be 
part of this system, sir.
    Mr. Sherwood. Will that project meet our maintenance needs, 
then?
    Mr. Hantman. Yes. Advanced maintenance when we have to 
maintain on a 6-month basis or 1-month basis, all of that 
proactive work would be factored in and we will have printouts 
that tell us to go check fan room number two. All of that will 
be fully integrated and we are working as an organization to do 
that. It is a 5-year plan to get the whole thing up and 
running. We have a good flying start. We are on schedule with 
the general ledger, and I think everybody recognizes that.
    Mr. Sherwood. Thank you.
    Mr. Taylor. Thank you.
    [The following question from Chairman Taylor and response 
follows:]

                      Financial Management System

    Question. You are requesting $2.1 million to continue implementing 
your new Financial Management System. What progress have you made and 
what will this request fund?
    Response. The AOC has made significant progress towards the 
implementation of the new Financial Management System (FMS). On October 
1, 2001, the AOC successfully implemented the general ledger module of 
the system on schedule and according to the U.S. Standard General 
Ledger guidelines. The AOC is now recording general entries at the 
transaction level and can produce financial statements based on 
balances in general ledger accounts. The new system also allows 
producing financial information by monthly accounting period, which was 
not possible in the old system. Now that Phase 1 is implemented, the 
FMS project team must maintain the system by processing the daily 
interfaces, performing reconciliations with the feeder systems, and 
issuing monthly reports.
    In addition to maintaining Phase 1, the FMS project is currently 
working on the implementation of Phase 2 of the project. Phase 2 will 
implement the Budget Execution, Purchasing, Accounts Payable, and 
Disbursement modules of the new system. Phase 2 requires a significant 
effort since FMS will be implemented in all jurisdictions (200 users) 
and the old system will be completely phased out except for inventory 
tracking. Phase 2 is scheduled to ``go live'' on March 1, 2002 and 
requires the approval of FY2002 funding. Phase 2 requires performing 
the following tasks, most of which are currently in process:
          Development and maintenance of a detailed project plan and 
        schedule
          Documentation and analysis of detailed user requirements
          Configuration of FMS to meet user needs
          System set-up and pilot testing of the set-up
          End user acceptance testing
          Automated conversions of data from the old system to FMS
          Development of end user reports
          Development of an interface with Inventory system
          Development of an interface with Project Information System 
        (PIC)
          Training of new users
          Development of procedure guides for end-users
          Providing user support to new users
          Quality Assurance of all Phase 2 tasks
    The funding request for FY2002 follows:

Phase 2 (continued)...........................................$1,356,000
Phase 3.......................................................   720,000
                    --------------------------------------------------------------
                    ____________________________________________________

    Total FY2002 Request...................................... 2,076,000

    The FY2002 funding request of $1,356,000 for Phase 2 will cover 
contractor support from October 1, 2001 through April 1, 2002 and 
software license fees for up to 200 users. Phase 2 of the FMS project 
was partially funded with FY2001 funding and will require the FY2002 
funding to be successfully implemented on March 1, 2002. The 
implementation of Phase 2 will be a significant accomplishment for the 
AOC, because it will replace most functions of the old system with the 
new federally compliant FMS system. It will also significantly increase 
AOC's changes of passing an audit since the new system will be 
implemented with proper audit trails and controls. A full audit is 
expected to be accomplished for the FY2003 financial statements.
    The FY2002 funding request of $720,000 for Phase 3 will cover the 
implementation of a Contracting module for the procurement office. 
Phase 3 is scheduled to be implemented on November 1, 2002. The AOC's 
contractual workload has increased significantly over the last few 
years with the contracting out of more of the construction projects and 
the increase in the complexity of the contracts being issued. The 
Contracting module will provide the Procurement Office with automated 
support for the issuance and management of contract solicitations, 
contract awards, contract modifications, and contract administration. 
The funding request covers contractor implementation support for the 
period January 1, 2002 through November 1, 2002 and software license 
fees.

                           legislative space

    Ms. Kaptur. Mr. Chairman, I just wanted to follow up on 
this room H-208, and I heard what the representatives of the 
Architect said about this being in the jurisdiction of the 
Speaker, but some of these funds for the purpose of the room 
coming from legislative branch appropriations. And it is my 
understanding, and I will check with the Speaker, that the 
staff in that room are executive branch personnel. If that is 
true, it is an anomaly, because that room was designed 
historically to serve as a committee room for this House, for 
the legislative branch, and it served that purpose in the 19th 
century for a military committee that sat there and throughout 
the 20th century for the Ways and Means Committee.
    Now I am going to get clarification on this, and I reserve 
the right to bring this up on the floor. But if, in fact, we 
have executive branch personnel functioning out of legislative 
branch offices, with expenses for the upkeep, the telephones 
and so forth, paid for by the legislative branch, I think it is 
entirely inappropriate.
    So I just wanted to bring that issue up in the 
subcommittee, and perhaps others have more they can enlighten 
me on. But this is an historically first if, in fact, it has 
occurred. And it is my understanding that the congressional 
staff of the White House is currently operating out of that 
legislative space. I find that very curious and historically 
inappropriate.

                     botanic garden living exhibits

    Let me ask the Architect of the Capitol on the exhibits 
over at the Botanic Garden there are going to be some childhood 
learning exhibits, I don't know what those are, but let me 
mention a struggle that I am involved in and I haven't 
succeeded, and it relates to the Smithsonian. When you get up 
and running, is there any possibility of your sharing 
throughout Internet some of what you will have with the 
Smithsonian, particularly in the agricultural exhibit over in 
the American History Museum? Because no child in this country 
would go into the Living Sciences if they walked though the 
agricultural exhibit. It is old. It is awful. It looks like 
this is something that belongs to the past, not the future, and 
it is absolutely wrong.
    One of my interests is in trying to get some of the private 
companies of our country involved in updating that agricultural 
exhibit so that when the millions of visitors come through here 
each year, that a young person could conceive of himself 
working in a modern industry. And one of the things they do not 
do in that exhibit is they do not show life. They do not show 
what this business is all about. I am wondering if you have 
ever thought of sitting down with the head of the Smithsonian 
and looking at that particular section of that museum and 
considering how some of your life exhibits could be shared?
    Mr. Hantman. We have a memorandum of understanding with the 
Smithsonian now, to work together on a variety of issues, and 
we welcome the opportunity to look into that issue.
    Ms. Kaptur. I will put some language in this bill for you 
to do that.
    Mr. Hantman. And secondarily, we would welcome sharing with 
you the exhibit design that we are proposing for the north wing 
of the Botanic Garden, for which we will be looking for funding 
in another year, of learning what plants are all about, how 
they work, a very user-friendly type of learning experience so 
that they will understand the plant world. It is an exciting 
opportunity.
    Ms. Kaptur. Will it include medicinal plants? Plants that 
will produce the fuels of the future so that our kids think 
about the possibilities? I represent the largest greenhouse 
growing county in Ohio. This is big business for us. And 
particularly, plants that have curative possibilities, there 
are a lot of new markets out there.
    Mr. Hantman. We could certainly set up a meeting with the 
head of our division over there and we would be happy to tell 
you what the exhibits are all about what we are working on. We 
would welcome that.
    Ms. Kaptur. Maybe we should invite who is in charge of that 
Smithsonian exhibit to sit in with us. Would you agree with 
that?
    Mr. Hantman. Certainly. Sharing information is very 
important.

                             rayburn garage

    Ms. Kaptur. Mr. Chairman, did someone ask about the parking 
garage in Rayburn and the floor? How many Members have broken 
their ankles to get to their car?
    Mr. Taylor. Would you like to bring that up? We covered 
everything else.
    Ms. Kaptur. I remember Mr. Dingell twice broke his ankle, 
once in the garage. One, those floors in the Rayburn parking 
garage are very dangerous at night. There should be some 
aggregate material, if you can't fill them right away, couldn't 
you work with the construction industry to get a heavy sand, 
just so you wouldn't have the holes because the metal beams 
project up and women tend to wear heels more than not. You 
really have to be alert when you are walking through there. 
Some of the floors are very bad. They have done some filling, 
but I don't know how they do the upkeep and maintenance. There 
ought to be some aggregate that could be at a low cost, and 
until you go back and do it the right way.
    Mr. Hantman. As you know, we are working on the Cannon 
garage. We will be coming back to this committee in 2003 for 
design funds to redo the Rayburn garage. Bob, in terms of 
repair?
    Mr. Miley. We do have an aggregate that we use that is a 
quick patch. It is very hard to keep up with. We are inspecting 
it on a weekly basis. Of course, when vehicles are in the 
garage, there are times when we miss a patch. But we are trying 
to keep it patched until such time as the design is complete 
and renovations can begin. We do have requests in.
    Ms. Kaptur. That C street level, I can tell you, when you 
go out on to C street from the back-door of Rayburn, which 
would be the southern end, that that particular floor had a lot 
of areas needing patching.
    Mr. Miley. We will certainly reevaluate that.
    Ms. Kaptur. Thank you. Thank you, Mr. Chairman.

                    future hearing on visitor center

    Mr. Taylor. I expect that we will have a separate hearing 
some time in the future before any contract is let on the 
Visitor's Center. Our current 302(b) would not allow any kind 
of appropriation like what seems to be the shortfall for the 
project. We would like to have a hearing to see how we are 
progressing and see what is going forward.

                         botanic garden opening

    Mr. Taylor. Is the September date for the Botanic Garden 
still valid?
    Mr. Hantman. Absolutely. We started plantings in the west 
House and now in the north House as well. The majority of the 
construction work will be completed. They may be doing some 
punchlist work, but they will not be interfering with the 
replantings. We will be starting tours basically Tuesday and 
Thursday afternoons 2:00 to 3:00 for guided groups. An 
individual of our staff will take people through, Holly Shimizu 
or Christine Flanagan. We will not be opening doors to the 
general public other than on these tours until what is it, 
November? Until November.
    But yes, we certainly can arrange a tour for you and any 
member of this committee, and we would be more than willing to 
show you and talk about the philosophy. In fact, Ms. Kaptur, if 
you would like to join us, too. Or a separate one.
    Ms. Kaptur. If you invite me, I will be there. I want to 
come and look at that greenhouse.
    Mr. Hantman. A joy.
    Ms. Kaptur. Mr. Chairman, before you close the hearing. I 
have another----

                             capital budget

    Mr. Taylor. I have another question and I will recognize 
you before I close. The capital budget is $94.6 million, and 
includes 96 projects and that is up 640 percent. Now, having 
heard your testimony and some of the problems that we have had 
in getting help--and of course that is the problem of the 
contractor and perhaps we should be more attentive to those 
people bidding and see that they have the capability.
    Mr. Hantman. Past performance. Absolutely.
    Mr. Taylor. Because certainly, all of us have been in tight 
labor markets, and it is getting more so around the country. 
But we cannot let that be an excuse for not completing 
projects.
    But do you have adequate management inside the Architect's 
office to handle 640 percent increase, 96 projects? And move it 
along?
    Mr. Hantman. As you know, Mr. Chairman, we are asking for 
funding for some 48 positions in addition to our current staff. 
This is still by the way would not bring up to the allowable 
FTE, we would have 60 people short of the FTE, and those 
positions clearly relate to the fire safety, the life safety, 
the IRM supports. Also project management is involved with 
that. We have people that we want to be able to control these 
projects more effectively than we have been doing.
    We have gone through a whole ``best practices'' program to 
train all of our project managers and architects and engineers 
on how to best run a project. So a lot of time has been 
invested over the last year or so to make sure that the folks 
know the best way to communicate on a project, the proper way 
to keep track of budgets and make sure that the projects are 
managed appropriately as far as schedule and budget is 
concerned.
    The program that you have described, Mr. Chairman, is an 
ambitious program. We have an aging infrastructure over here as 
you know. The buildings range up to 200 years of age for parts 
of the Capitol, 100 years for the Library, and the Russell and 
the Cannon Buildings are pretty close to that as well. We are 
constantly reaccessing how we manage this work and how to make 
it happen. [The following question from Chairman Taylor and 
response follows:]
                             CAPITAL BUDGET
    Question. Have all the Capitol Budget Projects been completely 
designed and had formal cost estimates based on the design?
    Response. In June of 1999, at the request of the Committee, the AOC 
instituted the policy to 100% design of all projects prior to 
requesting construction funds. The AOC has followed this policy except 
for several critical projects for which the Architect allowed 
exemptions. Two life safety projects were not designed at the time of 
their inclusion into the fiscal year 2002 budget request. The projects 
are ``Replace Exit Doors for Emergency Egress, CHOB and LHOB'' and 
``Replace Exit Doors for Emergency Egress, Capitol''. The designs for 
all three buildings are now complete. The construction estimates for 
the CHOB and LHOB projects total $1,662,000. The estimate for the 
Capitol doors based on the completed design is due the second week of 
July, 2001. The design for the ``USCP Chemical & Explosive Storage 
Facility'' project is due from the consultant in July 2001. This 
project is deemed a high priority by the Capitol Police.
    The design for the ``Renovation of the Rayburn Cafeteria'' project 
was complete at the time of the 2002 budget submission. However, 
because of the life safety element related to replacing the exhaust 
system it was decided to request funds for two separate projects, one 
related to the replacement of the exhaust system and the other related 
to the remaining cafeteria renovation work. The development of the 
total cost estimate was placed on hold. The design and estimates 
related to the two individual projects was not complete at the time of 
the submission. Design and related estimates for the projects as well 
the estimate for the combined project were completed in March 2001.
    The design for the coal tunnel related to the ``Expansion of the 
West Refrigeration Plant'' which was requested as a budget amendment 
was not complete at the time of the request. It is currently about 50% 
complete. However, this work must take place prior to the construction 
of the Expansion project and is critical to the continued reliability 
of chilled water for cooling the Capitol complex.
    One project that was completely designed and estimated at the time 
of the budget submission was the ``Renovations to Armed Services 
Rostrum''. However, new assignments to the Committee necessitate some 
new modifications into the design.

                              CAPITOL DOME

    Mr. Hantman. One of the things that we are reevaluating 
now, a big part of this budget is the Capitol dome project, and 
we are taking a look at whether or not the issue of the level 
of--we need to keep this building in operation while the 
Capitol Visitor's Center is being built. We need to make sure 
that the Members have access and visitors have access. That it 
can work on a day-to-day basis.
    So we are taking a look at whether or not we should be 
coming back to you and saying there are really three options on 
the Capitol dome. One of the options is to continue asking for 
the 42.5 million which makes up a good half of the number that 
you are talking about right now and go ahead with the project. 
We are ready for that and have construction documents for it. 
Or should we hold off for a year--as you know we already put 
this project off for one year because of the emergency 
supplemental that we got. A lot of the fire safety work that we 
had to do. We wanted to concentrate on that.
    Or--I had a little study done to take a look at what would 
happen. As you know, if I could backtrack a little bit, when we 
looked at dome project, we had 7.5 million as an emergency 
appropriation, and that is because we were finding rust all 
over the place. We did not know the condition of the dome 
itself. As a result of that project, we have come back to this 
committee and we have told other committees as well that there 
is no fundamental problem with the structure of the dome. They 
designed that with belts and suspenders and it is not going any 
place. The basic problem we have is with the skin of the dome. 
We have condensation, hot weather outside and air conditioning 
inside. We are going to have condensation. We do have rust. 
There is lead-based paint.
    What would it take for us to be able to take that project 
out 4 or 5 years, after the Visitor's Center is complete, and 
perhaps then come in and take a look at the project? This is 
what we are assessing right now. There are puts and takes and 
pros and cons on both sides. If we are starting with the 
Visitor's Center now, it would be nice to have the dome project 
finished at the same time as the Visitor's Center so that we do 
not have scaffolding on the dome 4 years after the Visitor's 
Center project. That is a plus.
    But we are taking a look at whether or not we can look at 
this 1.6 million fix and say that that is what we should be 
asking you for now rather than 42.5 million. By the end of the 
week, we expect to come back to you and give you a firm 
recommendation on that. That is a reassessment of where we are, 
the accessibility and the workload that we want to get into.
    In terms of managing all of this, one of the major concerns 
that we have had is essentially a pay legislation that we have 
been proposing. A lot of our senior managers are tied into 1990 
legislation that specifies the titles for jobs and the amount 
of money that we can pay in the agency. That was before the 
Accountability Act, before the advent of technology to the 
point that we currently have a situation where we have people 
at the 15 level earning more than their supervisors. We have 
been trying to look for a chief financial officer over a year, 
but because the legislation calls for a budget officer, we have 
had to advertise as chief financial officer/budget officer. But 
in reality, we need two people to run not only the accounting 
group and budget group, but the procurement group and the 
financial management system as well and make sure they are all 
fully integrated.
    So we have only been able to offer $110,000 at a time when 
other agencies are offering 125- and 130,000 for the same 
position. We need to be able to have some pay flexibility to 
attract the top people, and we are currently pretty much capped 
out. Maintaining quality workers in the Government is a top 
priority, and I think the GAO has recognized this. The head of 
the GAO has talked about that being a real risk area in 
government in general. I think we are approaching that point as 
well.
    In terms of managing things we need some flexibility, some 
ability to hire good people, to retain them, and to have the 
best management possible.
    [The following question from Chairman Taylor and response 
follows:]
                          DOME REHABILITATION
    Question. You are requesting $42.5 million for the Dome 
Rehabilitation Project. The cost of this project has increased from $3 
million to nearly $52 million. Should this project be done concurrently 
with Capitol Visitor Center project?
    Response. There is much maintenance, restoration and repair work to 
be done to properly fulfill our stewardship responsibilities for our 
aging buildings and infrastructure. It is important, of course, to 
prioritize this work to first address the issues that impact safety, 
security and the fundamental day-to-day needs of Congress and those who 
work on or visit Capitol Hill. Given the imperative of operational 
needs, and availability of both financial and human resources, it is 
necessary to constantly reevaluate those priorities.
    With this perspective I initiated a study, which was completed in 
March of this year, on the implications of postponing the second phase 
of the Capitol Dome restoration project. The first phase investigations 
had concluded that the cast iron support structure was well designed 
and in good condition. The main issues needing to be addressed related 
to the need for repair and maintenance of the cast iron ``skin'' or 
shell of the Dome and its related railings etc. The study concluded 
that approximately $1.6 million should be invested in the Dome to 
permit us, with proper inspections each year, to postpone the Capitol 
Dome Phase II project for a number of years, if this were deemed 
necessary. If funded, this work could be expedited and completed by the 
summer of 2002.
    Based upon this study and the need to maintain all functions in the 
Capitol with a minimum of disruption during the construction of the 
Capitol Visitor Center and other safety related projects, I have 
determined that it would be prudent to postpone the full Dome 
restoration project until a later time.
    It is therefore requested that $1.6 million for interim Dome work 
be considered in place of the full restoration request of $42.5 
million. It should of course be noted that the full restoration cost 
will escalate over the time period of the delay .
    The scope of work recommended for this interim period is listed 
below. This scope represents the work that can be done now without 
proceeding with a scope of work that approaches the full level of the 
complete project (The full report is available for review as needed).
    (1) Paint the exterior of the Dome over the present lead-based 
alkyd system to rejuvenate its appearance, and cover butt joints and 
corroded areas. It has been 13 years since the most recent painting of 
the Dome when the proper cycle should by 4-6 years.
    (2) Paint the interior of the Skirt cast iron members to cover base 
iron and protect it from further corrosion. The paint on the iron 
surfaces at the Skirt is severely deteriorated and needs to be re-
coated to protect the iron.
    (3) Reseal the joints, cracks and defect areas to prevent moisture 
infiltration and corrosion at exposed edges. Many of these defect areas 
have been sealed over with temporary repairs. (Inspect this work semi-
annually and correct deficiencies found until the implementation of 
Phase II.)
    (4) Finish paint all surfaces in the Interstitial Space that was 
primed and intermediate coated in Phase I. This includes cast iron, 
wrought iron hangers, steel, sheet metal walls at Second Visitors 
Gallery, the tin canopy, Lantern Level transite walls, wood railings, 
wood window sash, and stairs. Bare iron at defect locations will 
require extra surface preparation to remove rust, a full 3 coats of 
paint, and re-labeling of defects. The finish coat must be added to 
prevent UV degradation of the epoxy intermediate coat.
    (5) Seal ledges and joints in the Interstitial Space and Skirt. 
Delay of the installation of a mechanical ventilation system in the 
Interstitial Space means continued condensation, which attacks these 
ledges and joints. The sealant will prevent moisture collection in 
these areas.
    (6) Remove any loose chipped paint along the tour route, including 
chipped plaster in the Bulfinch Stair and paint chips and dust from the 
following surfaces: the Rotunda stone wall from the Bulfinch stair to 
the Grand Stair and from the Grand Stair to Roof A, cast iron along the 
Grand Stair and in the First Visitors Gallery to the Interstitial 
Space. This is needed to reduce the health risk to those frequenting 
the space.
    (7) Repair all defects in secondary members, including: Two 
locations at ``Y'' bracket broken tab, One broken tab connector at a 
secondary rib, One cracked tab at the base of the Cupola. These are all 
locations where tension forces acting on the cast iron have caused 
cracks. The load mechanics that caused the failure are still present 
and although they are not of immediate concern it is not recommended 
that they remain for five years un-repaired. For example the tab at the 
base of the Cupola is cracked three quarters of its length and is still 
in tension from exterior plate dead load and wind forces.
    (8) Seal all open joints below the Boiler Plate Level and initiate 
a semi-annual inspection of all plate joints and gutter patches to 
ensure the watertight integrity of the exterior shell for the duration 
of the postponement.
    (9) Replace temporary wood walkway at Tholos balcony. This wood 
structure like any home deck is subject to deterioration due to 
moisture and UV exposure. For safety precautions it should be replace.

                           closing statements

    Mr. Taylor. Before I bring the gavel down, Ms. Kaptur?
    Ms. Kaptur. Mr. Chairman, I just wanted to know, is this 
the most visited site in Washington or is it the National Space 
Museum? How do our visitor numbers compare with others?
    Mr. Hantman. I don't know. We could find that out. I think 
the Space Museum probably has more visitors.
    [Subsequent to the hearing, the Architect of the Capitol 
provided the following:]

[GRAPHIC] [TIFF OMITTED] T5248B.161

                            national garden

    Ms. Kaptur. I would be very interested in that for the 
record. And I just want to let the Architect know one of my 
good friends was just elected President of the State Garden 
Society, Lois Shuster of Champion, Pennsylvania at Seven 
Springs, and they really want to do what they can to help the 
National Garden, but I think they are not used to working with 
Washington. I am sure there are other groups out there who 
could help with planting, whether it is around the Capitol, and 
they are willing to raise private resources to do it.
    They raise it for projects all over the country. I would be 
pleased to provide you a name and a contact.
    Mr. Hantman. We certainly welcome that. As you are aware I 
am sure, some $14.5 million has been raised through a 501(c)(3) 
headed by Teresa Heinz and garden clubs are part of that. We 
welcome whatever help you can get perhaps endowing education 
programs.
    Ms. Kaptur. They are looking for projects so they should 
have an influence on your thinking.
    Mr. Taylor. Thank you. I have some additional questions for 
you to respond to for the records. The hearing is now 
adjourned, on the fiscal year 2002 legislative branch 
appropriations, subject to the call of the Chair.
    [The following questions from Chairman Taylor and responses 
follow:]
            DESIGN BOOK STORAGE MODULE NUMBER 2, FORT MEADE
    Question. You have requested $420,000 to design the Second Book 
Storage Module at Fort Meade. Why do you need additional design funds? 
Are not the subsequent modules just duplicates of the first module?
    Response. Additional design funds are required for the following 
reasons. Design drawings are necessary in order for a contractor to 
construct the module. The Architect cannot simply request the bidders 
to ``take this building and duplicate it''. The most significant 
difference is that the second book storage module is \1/3\ bigger than 
the first (12,000 sf vs 8,000 sf). There are structural considerations 
for footings in a different location and grading may be somewhat 
different. The phase one office section does not apply to phase II and 
the utility connections will be different from that of the first. The 
HVAC, Electrical and Fire Protection systems may increase over that of 
the first structure due to the increased size of the module. The 
structural connection from the second module to the first needs to be 
detailed.
    Certainly, there are similarities in the modules, and it is 
expected that module three will be very close to module two, but it is 
also probable that the storage requirements themselves (what kind of 
objects, etc.) could change from module to module. Therefore, the 
designs will differ again.
                        CAPITOL POLICE PROJECTS
    Question. Again you have funds in here to begin several Capitol 
Police Projects (off-site delivery center, training facility, vehicle 
maintenance). All told these projects are estimated to cost over $30 
million. Has every project been designed?
    Response. No, the designs for the Capitol Police projects have not 
been completed. However, in the fiscal year 2002 budget there are 
requests for the land for the Off-Site Delivery Center ($6,750,000); 
land and design for the Vehicle Maintenance Facility ($3,260,000); and 
design of the Training Facility ($725,000). The capital budget also 
indicates place holder amounts for construction of the three facilities 
but the formal requests will not be made until the land is procured and 
the designs are complete.
                              POWER PLANT
    Question. You have submitted a budget amendment $3.3 million 
related to the Capitol Power Plant's chiller expansion project. Can you 
tell the committee why these funds are needed at this time? Tell us 
about the projects and its status.
    Response. Chilled water for cooling the Capitol complex is 
generated at two facilities at the Capitol Power Plant. The West 
Refrigeration Plant that was constructed in the 1970's and the East 
Refrigeration Plant that houses 1950 vintage equipment that provides 
approximately 25% of our current cooling capacity. The equipment in the 
East plant is inefficient, uses R-12 refrigerant which is a 
chlorofluorocarbon which was banned from production in 1995. The age of 
the equipment in the East Refrigeration Plant is such that replacement 
parts are no longer manufactured and consequently unreliable. In 
addition, current summer cooling needs for the Capitol complex exceeds 
the plants firm cooling capacity.
    The initial plan, for which this committee provided $6 million 
dollars for design and the first phase of construction, was to do an in 
kind replacement of the equipment in the East plant. During the design 
development process, it became evident that this was an unacceptable 
solution for the long term cooling requirements of the Capitol Complex. 
The East plant could not physical accept the size and type of equipment 
that would serve the Capitol Complex long-term needs or provide energy 
deferment opportunities, and additional capacity would be required in 
the future and necessitate a new chilled water plant. Additional 
complexities involved in replacing the East Refrigeration Plant 
equipment is that two large 100-year-old sewer lines run under the East 
plant that are of questionable integrity. This plan required that 
heavier machines be installed in the plant which would likely lead to 
rehabilitation of the sewer line and piles to be driven to support the 
new equipment loads. Additionally, the four 6,000-ton cooling units in 
the West plant are nearing the end of their normal life expectancy. In 
order to maintain cooling capacity during the replacement of the West 
plant equipment, space will be required to install new equipment and 
rotate the replacement of the old machines. As a result of these 
findings, a reprogramming request was made and approved in FY 2000 to 
use part of the available funding to design an expansion of the West 
Refrigeration Plant.
    The location of the extension of the West plant can only be 
accommodated to the south of the current building. This area is 
currently used for coal storage and coal handling equipment which must 
be relocated before any construction can begin on the extension. The 
initial concept called for temporary modifications to the coal handling 
equipment at the Plant and using the GSA Coal Yard located to the south 
of the Plant and across the freeway, which was turned over to the A.C. 
in 1987, for coal deliveries and storage. It was hoped that the old, 
1900 vintage, coal unloading equipment at the Coal Yard could be 
repaired to use on a temporary basis. Upon completion, a permanent coal 
storage and handling system would be constructed. This plan would have 
required transporting coal from the Coal Yard to the Plant during the 
five years of construction at an estimated annual cost of $250,000. It 
was planned to request a reprogramming to use the balance of the 
existing funds ($2 million) to make the temporary repairs and 
modifications to the coal handling equipment. During the design 
development and the investigation of the Coal Yard equipment it became 
clear that the cost of repairing the equipment, making equipment 
modifications, trucking coal for five years and than constructing 
permanent coal storage and handling systems would be more expensive 
than constructing a permanent operation at the Coal Yard connected to 
the Plant by a tunnel under the freeway. This approach also eliminates 
the impact on the community of having large dump trucks hauling coal on 
a continual basis from the Coal Yard to the Plant during the five year 
construction period.
    An additional $300,000 is included in the amendment to secure a 
construction management firm for the West Refrigeration Plant (WRP) 
Expansion, as these funds would not be available until FY03. It is 
imperative a construction management firm be involved during the 
procurement phase of the WRP Expansion to help identify design 
oversights, value engineer the project and assist in the selection of 
contractor services.
    The above circumstances led us to amend our FY 2002 budget request 
for the Capitol Power Plant by $7,675,000. The total cost of the coal 
handling construction is estimated at $9,675,000 and the funds to start 
the construction management services of the WRP Expansion is $300,000. 
It is proposed to use the remaining $2,050,000 that is available to 
cover part of this cost. In addition, the $250,000 included in the FY 
2002 for trucking coal will not be required. The $9,675,000 estimate is 
based on 50% Construction Documents.
    Without these funds, this project will not stay on schedule, and 
therefore will jeopardize the availability of sufficient chilled water 
for cooling the Capitol complex. The WRP Expansion Design is currently 
65% complete. Funding for the extension and first two 6,000 ton 
chillers will be included in the FY 2003 budget request and is 
currently estimated at $69.2 million. Additional chillers including the 
start of replacing the West plant chillers, all of which will be housed 
in the extension, are planned for fiscal years 2006 and 2016.
                           FIRE SAFETY REPORT
    Question. Please briefly update the committee on the progress of 
Fire and Life Safety initiatives.
    Response. Safety is the Architect of the Capitol's highest 
priority. To reflect this priority, in FY 2001, the AOC reorganized the 
Executive Office for Facilities Management (EOFM), and appointed Susan 
P. Adams as director of this division. This move will allow increased 
attention and focus on fire safety, life safety and occupational health 
and safety programs.
                     fire and life safety progress
    The AOC fire and life safety goals are to comply with NFPA and BOCA 
Codes, provide fully sprinklered buildings, provide full coverage fire 
alarm systems, perform required maintenance & testing, and perform 
inspections to ensure compliance and identify and self correct 
deficiencies.
    Fire protection responsibilities within the AOC have been divided 
into two Divisions: the Fire Marshal Division (under the EOFM) to focus 
on fire safety, life safety, and emergency preparedness program policy, 
coordination, inspection, and oversight; and the Fire Protection 
Engineering Division (under the Director of Engineering, Scott 
Birkhead) to focus on fire protection system design, fire alarm system 
configuration, and fire protection project management. These two 
organizational structures separate policy, oversight, and inspection 
from design and implementation. This division provides a necessary 
check and balance system and allows concentration on project design and 
execution.
    Mr. Ken Lauziere, an internally recognized fire protection expert 
with more than 20 years of AOC experience, was selected as the 
permanent Fire Marshal Director. Interviews have been conducted for two 
fire protection engineers (selection pending) and a certificate of 
eligible candidates has just been received for one fire inspector 
within the Fire Marshal Division. Two positions remain to be filled. 
They are the positions of Administrative Assistant and Emergency 
Preparedness Coordinator.
    The position of Director, Fire Protection Engineering Division is 
currently being re-advertised after the first two selectees declined 
the position. A candidate for the position of Fire Protection 
technician has been selected,and the fire protection engineers 
positions are being recruited for the Fire Protection Engineering 
Division as well as within the larger jurisdictions.
    The AOC established an indefinite-delivery, indefinite-quantity 
(IDIQ) contract with four Fire Protection Engineering Consulting 
firms--Gage-Babcock & Associates, Schirmer Engineering Corporation, 
Hughes Associates, Inc., and Rolf Jensen & Associates, Inc. for design 
and code analysis consultation services.
    In March 2001, a report entitled Fire Safety Improvements Time Line 
for the House Office Buildings was completed and submitted to the 
Committee on House Administration. The report delineates the completed 
and planned multi-year effort to bring the buildings in the Capitol 
complex into full compliance with modern safety codes. Summarizing the 
contents:

          . . . In the Capitol, the existing fire alarm systems are 
        certified, installation in unalarmed areas will continue until 
        FY 2007 (note: schedule may be accelerated based on space 
        accessibility). A task order for sprinkler system design has 
        been issued with completion scheduled for Oct 2002 with 
        construction to begin in FY 2005. Egress schematic designs are 
        to be completed in FY 2002 as part of the US Capitol Master 
        Plan.
          . . . In the Cannon, Longworth, and Ford House Office 
        Buildings, fire alarm systems are operational in a majority of 
        building areas, with a study underway to identify unalarmed 
        areas. Testing of existing alarms was completed and new 
        installations are being tested as they are installed. Sprinkler 
        system construction in most areas is complete with the 
        remaining unsprinklered areas in design. Egress evaluations are 
        complete, schematic designs will be completed in FY 2001 with 
        design completion expected in FY 2002 and construction to begin 
        in FY 2004.
          . . . In the Rayburn Building, the fire alarm system is 
        complete. Sprinkler system designs for unsprinklered areas are 
        complete and installation is ongoing with completion in FY 
        2002. Egress evaluations are completed, schematic designs will 
        be completed in FY 2001 with design completion expected in FY 
        2002 and construction to begin in FY 2004.
          . . . In the O'Neill Building, the fire alarm and sprinkler 
        system installations are complete. Egress evaluations and 
        interim designs are completed, construction will be completed 
        in July 2001.
    Across the Capitol Complex:
          ADA fire alarm system upgrades designs have been completed 
        except in the Capitol building.
          Lighted exit signs have been installed in public areas of all 
        buildings.
          Fire pull stations and alarm speakers are operational.
          A complex-wide Central Fire Protection Monitoring System is 
        in design.
          Regularly, the District of Columbia Fire & Emergency 
        Management Services Department conducts pre-planning tours of 
        the Capitol complex facilities to help them prepare in case of 
        emergency.
    The FY 2000 Emergency Fire Supplemental authorized 58 specific 
projects in the total amount of $17,480,000. The AOC obligation plan ($ 
have been rounded) is: FY01: $8.5M; FY02: $5.2M; FY03: $1.2M; FY04: 
$0.8M; FY05: $1.5M; & beyond.
    As of June 22, 2001 the AOC has obligated 55% of the FY 2001 plan 
funding and expects to obligate the entire amount by the end of the FY 
2005. The table below shows the status of obligations of funds against 
the FY 2000 Emergency Fire Supplemental by appropriation.

----------------------------------------------------------------------------------------------------------------
                                                                                                        Current
                                                                                 FY01       Current     percent
                         Appropriation                             Amount      planned       funds     obligated
                                                                                           obligated    vs. plan
----------------------------------------------------------------------------------------------------------------
Total Capitol Buildings.......................................   $7,039,000   $1,595,120     $685,821      43.0
Total Senate Office Buildings.................................    2,314,000    1,612,330      671,362      41.9
Total House Office Buildings..................................    4,213,000    2,890,516    1,587,440      47.1
Total Capitol Power Plant.....................................        3,000        3,000        3,000     100.0
Total Library Buildings & Grounds.............................    3,885,000    2,449,769    2,024,705      82.6
    Total All Items...........................................   17,480,000    8,571,735    4,972,328      55.4
----------------------------------------------------------------------------------------------------------------

                          OCCUPATIONAL SAFETY

    The Congressional Accountability Act of 1996 requires the AOC to 
comply with Occupational Safety and Health Act regulations. There is 
much work to do to comply with OSHA and reduce our unacceptably high 
injury/illness rate. In the past year:
    A safety policy statement was approved and distributed to 
employees.
    Personal protective equipment (PPE) was provided to employees.
    Superintendents met with all personnel to ensure they have needed 
PPE.
    The Architect issued memos outlining supervisory and employee 
responsibilities for safety.
    Working with the Public Health Service, the first 3 of 41 safety 
program policies were approved and distributed: Hazard Communication, 
Confined Space, and PPE. Three more program policies are under 
development and scheduled for final approval in FY 2001: Bloodborne 
Pathogens, Fall Protection, and Respiratory Protection. Four programs 
scheduled for FY 2002 are drafted and are in the initial review 
process: Lead, Asbestos, Electrical Safety, and Lock out/Tag out.
    Policies for the Safety, Health, and Environmental Council and 
Jurisdictional Occupational Safety & Health Committees were approved.
    Safety Committees were established in all jurisdictions and are 
meeting monthly to discuss safety matters and review injury/illness 
reports.
    The Architect established a goal to reduce total injury/illness 
rate by 10% per year for the next 5 years from the FY 2000 baseline of 
17.9 per 100 employees.
    A high level 5 year Occupational Health and Safety (OHS) Plan was 
developed to meet the injury reduction goal and established as 
priorities:
          Hiring required staff (central and jurisdictional--underway),
          Development of job hazards analysis process and policy 
        (underway) and performance of job hazards analysis for all work 
        (to be completed FY 2002), so that hazards can be identified, 
        eliminated or controlled,
          Improvement of the injury/illness investigation process 
        (underway) to include root cause analysis and implementation of 
        corrective actions across the Agency to prevent recurrence,
          Development and inspection and audit process such that we 
        critically evaluate our work and identify and correct 
        deficiencies (to be completed in FY 2002),
          Development, approval, and implementation of 41 safety 
        programs (implementation will be completed in FY 2005).
    The Architect has initiated periodic shop walk arounds, visiting 
work sites, emphasizing PPE usage and discussing safety concerns with 
employees.
    The Architect recently met with the General Counsel for the Office 
of Compliance to discuss the fire and occupational safety program and 
review the 5 year OHS plan.
    The Architect of the Capitol recognizes that progress has been made 
but there is much left yet to do. Agency management remains committed 
to applying the necessary resources and talent to achieve our goals of 
modern fire code compliant buildings and improving the safety and well 
being of our employees.

                           SECURITY BOLLARDS

    Question. What is the status of the construction of Security 
Bollards throughout the Capitol Hill Complex?
    Response. The following information is provided on Security Bollard 
and Perimeter Installations:
    Capitol Square:
          Initial installation commenced Mid June, completion estimated 
        3/03
          Sequence of installations:
                  1. Vehicle barrier at end of NW Drive
                  2. Vehicle barrier at end of SW Drive
                  3. Vehicle barrier at end of NE Drive
                  4. Vehicle barrier at end of SE Drive
                  5. South USCG entrance from Independence Ave
                  6. Bollards along SE & NE Drives
                  7. Bollards along NW & SW Drives
    Item numbers 1 through 4 should be completed in August, 2001. These 
are stand alone barriers to relieve the U.S. Capitol Police of manual 
raising & lowering of difficult or defective barriers. Adjustments to 
the sequence for item numbers 6 & 7 may be required based on 
coordination with the Capitol Visitors Center project.
    Senate Perimeter:
          Project has 4 phases. The work was initiated February, 2001; 
        completion is scheduled in early Spring, 2002
          Sequence of installations:
                  1. Intersection of C Street and New Jersey Ave. NW
                  2. Delaware Ave & D Street NW
                  3. Delaware Ave & Constitution Ave, 2nd & C Streets 
                NE
                  4. Delaware Ave & C Street, 1st Ave & C Street East & 
                West
    Phase 1 has been substantially completed; Phase 2 is in progress.
    Library of Congress:
          Project design is completed
          Approval for the project has not been received. The 
        appointment of Members to the Joint Committee on the Library 
        have not been finalized, therefore unable to approve project
          Original completion projections and budget estimates could 
        require adjustment, based on actual date of project initiation

                             REPROGRAMMINGS

    Question. For the record, insert all reprogramming actions or their 
documents that required committee approval.
    Response. The information follows:

    [GRAPHIC] [TIFF OMITTED] T5248B.162
    
    [GRAPHIC] [TIFF OMITTED] T5248B.163
    
    [GRAPHIC] [TIFF OMITTED] T5248B.164
    
    [GRAPHIC] [TIFF OMITTED] T5248B.165
    
    [GRAPHIC] [TIFF OMITTED] T5248B.166
    
    [GRAPHIC] [TIFF OMITTED] T5248B.167
    
    [GRAPHIC] [TIFF OMITTED] T5248B.168
    
    [GRAPHIC] [TIFF OMITTED] T5248B.169
    
    [GRAPHIC] [TIFF OMITTED] T5248B.170
    
    [GRAPHIC] [TIFF OMITTED] T5248B.171
    
    [GRAPHIC] [TIFF OMITTED] T5248B.172
    
    [GRAPHIC] [TIFF OMITTED] T5248B.173
    
    [GRAPHIC] [TIFF OMITTED] T5248B.174
    
    [GRAPHIC] [TIFF OMITTED] T5248B.175
    
    [GRAPHIC] [TIFF OMITTED] T5248B.176
    


                           W I T N E S S E S

                              ----------                              
                                                                   Page
Anderson, B. B...................................................   147
Billington, J. H.................................................     1
Boertlein, Jack..................................................   269
Brown, R. L......................................................   117
Buckley, F. J., Jr...............................................    95
Campbell, Laura..................................................     1
Campen, Timothy..................................................   171
Cook, C. C.......................................................    95
Crippen, D. L....................................................   147
Cylke, F. K......................................................     1
DiMario, M. F....................................................    95
Dodaro, G. L.....................................................   117
Eagen, Jay.......................................................   171
Guy, W. M........................................................    95
Hantman, Alan....................................................   269
Harper, Sallyanne................................................   117
Jenkins, J. C....................................................     1
Livingood, W. S..................................................   171
Lopez, K. E......................................................     1
Mansker, R. T....................................................    95
Medina, Rubens...................................................     1
Miley, Robert....................................................   269
Mulhollan, D. P..................................................     1
Peters, Marybeth.................................................     1
Poole, Amita.....................................................   269
Scott, D. L......................................................     1
Sherman, A. M....................................................    95
Tabb, Winston....................................................     1
Trandahl, Jeff...................................................   171
Turnbull, Michael................................................   269
Walker, D. M.....................................................   117
Webster, J. D....................................................     1
Williams, K. A...................................................     1


                               I N D E X

                              ----------                              
                                                                   Page
Architect of the Capitol.........................................   269
    Botanic Garden...............................................   346
    Botanic Garden Construction Schedule.........................   366
    Botanic Garden Contractor....................................   353
    Botanic Garden Living Exhibits...............................   380
    Botanic Garden Opening.......................................   382
    Cannon Elevators.............................................   355
    Cannon Garage................................................   342
    Cannon Garage Contract.......................................   346
    Capital Budget...............................................   382
    Capitol Dome.................................................   383
    Closing Statement............................................   386
    Custodial Promotion Opportunities............................   350
    Custodial Staff..............................................   349
    Employee Fitness Facility....................................   366
    Employee Safety..............................................   358
    Employee Shower Facilities...................................   351
    Employee Status..............................................   357
    Financial Management System..................................   378
    Future Hearing on Visitor Center.............................   382
    House Curator and Historical Staff...........................   372
    Legislative Space............................................   380
    Maintenance and Repairs......................................   354
    Manager Accountability.......................................   355
    National Garden..............................................   388
    O'Neill Building.............................................   341
    O'Neill Building Demolition..................................   365
    Opening Statement............................................   270
    Page Dorm....................................................   341
    Page Dorm Occupancy..........................................   352
    Rayburn Garage...............................................   381
    Room H-208...................................................   377
    Unfunded Positions...........................................   342
    Visitor Center...............................................   341
    Visitor Center Contract......................................   355
    Visitor Center Cost Estimates...............................342/356
    Visitor Center Impact on Trees...............................   368
    Visitor Center Time Line.....................................   353
    Visitor Center Tunnel to Library.............................   353
    Visitors to the Capitol Complex..............................   371
    Waste Recycling Program......................................   351
    Women's Art in the Capitol...................................   371
Congressional Budget Office......................................   147
    Budget Request...............................................   147
    Moving Budget Database System................................   163
    Questions for the Record.....................................   163
    Questions for the Record from Mr. Hoyer......................   169
    Salary Budget and FTE's......................................   163
    Statement of Director Crippen................................   148
    Surplus Projections..........................................   168
General Accounting Office........................................   117
    Asbestos Abatement...........................................   135
    Education Loan Repayment.....................................   136
    FTE Levels...................................................   135
    Human Capital Legislation....................................   136
    Independent Audit............................................   141
    Information Security.........................................   140
    Leading By Example...........................................   142
    Opening Remarks..............................................   117
    PFP for Mission Support Personnel............................   139
    Prepared Statement...........................................   118
    Security Enhancements........................................   140
    Training Curriculum..........................................   138
    Truth in Regulating Act......................................   135
Government Printing Office.......................................    95
    Congressional Printing.......................................   108
    Electronic Format............................................   109
    FTE Levels...................................................   112
    Information Technology.......................................   114
    Police Consolidation.........................................   113
    Public Printer's Statement...................................    96
    Sales Program................................................   110
House of Representatives.........................................   171
    Allowances and Expenses......................................   214
    Attending Physician..........................................   221
    Chaplain, Office of..........................................   208
    Chief Administrative Officer.................................   196
        Bi-Weekly Payroll Discussion.............................   258
        Campus Data Network Improvements.........................   255
        CAO Literacy Program.....................................   256
        CAO Organizational Accomplishments.......................   259
        Citibank Credit Card Discussion..........................   255
        Contractors and Deadlines................................   265
        Discussion on Customer Satisfaction......................   259
        House Copy Center Possibilities..........................   256
        House Restaurant Profits and Customer Satisfaction.......   257
        Improvement of Computer Network..........................   254
        Network Computer Security................................   261
        Transit Benefit Program..................................   258
        Vendor Service Improvement...............................   261
    Clerk, Office of the.........................................   194
        Contingency Plans for Capitol Visitor Center.............   264
        Further Discussion on Capitol Visitor Center.............   265
        Historical Services for the House........................   262
        New Page Dormitory Status................................   264
        Private Fund Raising Status for Capitol Visitors Center..   263
        Progress of In-House Printing............................   262
    Committee on Appropriations..................................   192
    Corrections Calendar Office..................................   212
    General Counsel, Office of...................................   207
    House Leadership Offices.....................................   176
    Inspector General, Office of.................................   206
    Law Revision Counsel, Office of..............................   210
    Legislative Counsel, Office of...............................   211
    Members' Representational Allowance..........................   190
        Adjusting Members' Representational Allowance............   257
    Other Authorized Employees...................................   213
    Parliamentarian, Office of...................................   209
    Salaries, Officers and Employees.............................   193
    Sergeant At Arms, Office of..................................   195
        Capitol Police at Botanical Garden.......................   264
    Standing Committees, Special and Select......................   191
Library of Congress..............................................     1
    American Folklife Center.....................................    44
    Competing with the Private Sector Salary Scales..............    49
    Congressional Publications...................................    45
    Cooperative Digitization Efforts.............................    37
    Coping with Retirements and Succession Planning..............    48
    CRS Staff Recruitment and Retention..........................    59
    Electronic Storage and Backup................................    35
    Fire Safety Issues...........................................    43
    History of the House Project.................................    44
    Inventory Management.........................................    50
    Law Library and the ABA......................................    41
    Law Library Budget Request...................................    39
    Library Adjustments of FTEs between Organizations............    59
    Library of Congress Collaborations on Digital Activities.....    35
    MBRS Equipment Request.......................................    81
    National Digital Library.....................................    33
    Number of LC Digitized Items.................................    36
    Off-Site Storage at Fort Meade...............................    46
    Prepared Statement of Librarian..............................     5
    Security of the Library's IT Backup..........................    41
    Staff Telecommuting..........................................    43
    Transit Subsidies............................................    40

                                <greek-d>
</pre></body></html>
